<html>
<title> - CAMP LEJEUNE: CONTAMINATION AND COMPENSATION, LOOKING BACK, MOVING FORWARD</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                      CAMP LEJEUNE: CONTAMINATION
                       AND COMPENSATION, LOOKING
                          BACK, MOVING FORWARD
=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 2010

                               __________

                           Serial No. 111-108

                               __________

     Printed for the use of the Committee on Science and Technology


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
58-485 PDF                    WASHINGTON: 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bed9ced1feddcbcdcad6dbd2ce90ddd1d390">[email&#160;protected]</a>  






                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. MCCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
STEVEN R. ROTHMAN, New Jersey        PAUL C. BROUN, Georgia
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
CHARLES A. WILSON, Ohio              VACANCY
KATHY DAHLKEMPER, Pennsylvania         
ALAN GRAYSON, Florida                    
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
                  EDITH HOLLEMAN Subcommittee Counsel
            JAMES PAUL Democratic Professional Staff Member
       DOUGLAS S. PASTERNAK Democratic Professional Staff Member
           KEN JACOBSON Democratic Professional Staff Member
            TOM HAMMOND Republican Professional Staff Member
                            C O N T E N T S

                           September 16, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    12

Statement by Representative Paul C. Broun, Ranking Minority 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science and Technology, U.S. House of Representatives.......    13
    Written Statement............................................    15

                                Panel I:

Mr. Michael Partain, Member, ATSDR Camp Lejeune Community 
  Assistance Panel (CAP) and Breast Cancer Survivor Born on Camp 
  Lejeune
    Oral Statement...............................................    16
    Written Statement............................................    20
    Biography....................................................    41

Mr. James Watters, Director, Graduate Medical Education, Texas 
  Tech University Health Sciences Center, Former Navy Lieutenant, 
  Retired Commander, Navy Reserve, Medical Service Corps and Camp 
  Lejeune Veteran Diagnosed with Kidney Cancer
    Oral Statement...............................................    41
    Written Statement............................................    44
    Biography....................................................    45

Mr. Peter Devereux, Former Marine Corps Corporal and Camp Lejeune 
  Veteran Diagnosed with Breast Cancer
    Oral Statement...............................................    46
    Written Statement............................................    47
    Biography....................................................    52

Dr. Richard Clapp, Professor Emeritus, Department of 
  Environmental Health, Boston University School of Public 
  Health, Environmental Health Policy Consultant and Member of 
  the ATSDR Camp Lejeune Community Assistant Panel (CAP)
    Oral Statement...............................................    52
    Written Statement............................................    54
    Biography....................................................    55

Mr. Michael Hargett, General Director, Anchimeric Associates and 
  Former Co-Owner of Grainger Laboratories
    Oral Statement...............................................    55
    Written Statement............................................    59
    Biography....................................................    62

                               Panel II:

Major General Eugene G. Payne, Jr., Assistant Deputy Commandant 
  for Installations and Logistics (Facilities), Headquarters, 
  United States Marine Corps
    Oral Statement...............................................    70
    Written Statement............................................    71
    Biography....................................................    76

Dr. Chris Portier, Director, Agency for Toxic Substances and 
  Disease Registry (ATSDR)
    Oral Statement...............................................    77
    Written Statement............................................    78
    Biography....................................................    82

Mr. Thomas J. Pamperin, Associate Deputy Under Secretary for 
  Policy and Program Management, Veterans Benefits 
  Administration, U.S. Department of Veterans Affairs
    Oral Statement...............................................    83
    Written Statement............................................    85
    Biography....................................................    88

             Appendix 1: Answers to Post-Hearing Questions

Mr. Michael Partain, Member, ATSDR Camp Lejeune Community 
  Assistance Panel (CAP) and Breast Cancer Survivor Born on Camp 
  Lejeune........................................................    98

Dr. Richard Clapp, Professor Emeritus, Department of 
  Environmental Health, Boston University School of Public 
  Health, Environmental Health Policy Consultant and Member of 
  the ATSDR Camp Lejeune Community Assistant Panel (CAP).........   111

Mr. Michael Hargett, General Director, Anchimeric Associates and 
  Former Co-Owner of Grainger Laboratories.......................   115

Major General Eugene G. Payne, Jr., Assistant Deputy Commandant 
  for Installations and Logistics (Facilities), Headquarters, 
  United States Marine Corps.....................................   120

Dr. Chris Portier, Director, Agency for Toxic Substances and 
  Disease Registry (ATSDR).......................................   140

Mr. Thomas J. Pamperin, Associate Deputy Under Secretary for 
  Policy and Program Management, Veterans Benefits 
  Administration, U.S. Department of Veterans Affairs............   145

             Appendix 2: Additional Material for the Record

U.S. Department of the Navy U.S. Marine Corps Camp Lejeune 
  Documents for the Record.......................................   154

Supporting Reference Documents to Accompany Written Testimony of 
  Mr. Michael Partain............................................   425


  CAMP LEJEUNE: CONTAMINATION AND COMPENSATION, LOOKING BACK, MOVING 
                                FORWARD

                              ----------                              


                      THURSDAY, SEPTEMBER 16, 2010

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                     U.S. HOUSE OF REPRESENTATIVES

             Camp Lejeune: Contamination and Compensation,

                      Looking Back, Moving Forward

                           september 16, 2010
                        10:00 a.m. to 12:00 p.m.
                   2318 rayburn house office building

    The Investigations and Oversight Subcommittee of the House 
Committee on Science and Technology will convene a hearing at 10:00 
a.m. on Thursday, September 16, 2010, to examine the toxic legacy of 
drinking water contamination at Marine Corps Base Camp Lejeune in North 
Carolina. The hearing will examine the Department of the Navy and U.S. 
Marine Corps' knowledge of past contamination at Camp Lejeune, as well 
as prior and current analyses by the Agency for Toxic Substances and 
Disease Registry (ATSDR), a sister agency of the Centers for Disease 
Control and Prevention (CDC), regarding toxic exposures at Camp 
Lejeune. The hearing will also review current cooperative efforts by 
the U.S. Navy and ATSDR concerning the identification and access to 
records required to complete these studies. In addition, the hearing 
will examine the process by which veterans have been compensated for 
illnesses due to environmental exposures at Camp Lejeune and what steps 
the Department of Veterans Affairs (VA) and U.S. Navy are currently 
taking to ensure that Camp Lejeune veterans and their dependents are 
quickly and appropriately compensated for any illnesses or health 
issues related to toxic exposures while serving at the Camp Lejeune 
Marine Corps Base.

Key Issues.

        1.  U.S. Marine Corps (USMC). For thirty years, Marines and 
        their dependents serving at Camp LeJeune were exposed to toxic 
        chemicals in their drinking water. It took the USMC more than 
        four years to shut down drinking water wells they knew to be 
        contaminated with toxic chemicals and another 24 years and an 
        act of Congress to force them to inform veterans about this 
        contamination of potential health problems. For two decades the 
        U.S. Marine Corps prevented full disclosure regarding the true 
        extent of contamination at Camp Lejeune. In the past, ATSDR has 
        struggled to obtain complete cooperation and support from the 
        Navy in providing them with records necessary to conduct 
        accurate and comprehensive public health assessments of Camp 
        Lejeune's toxic hazards. The U.S. Marine Corps continue to view 
        past environmental contamination at Camp Lejeune as a public 
        relations battle rather than a public health hazard. In July 
        2010, for instance, they released a glossy booklet on Camp 
        Lejeune's Historic Drinking Water which excludes critical 
        information and misrepresents scientific conclusions about the 
        health impact of past toxic exposures on Camp Lejeune 
        residents.

        2.  Agency for Toxic Substances and Disease Registry (ATSDR). 
        In 1997 ATSDR published a Public Health Assessment (PHA) on 
        Camp Lejeune that concluded exposures to volatile organic 
        compounds (VOCs) in the tap water, including trichloroethylene 
        (TCE), tetrachloroethylene (PCE), and 1,2-dichloroethylene 
        (DCE), were a past public health hazard. But ATSDR failed to 
        adequately investigate exposures to another toxic contaminant 
        found in the Camp Lejeune water supply: benzene. The final PHA 
        included a single reference to benzene in an appendix despite 
        the fact the agency had records indicating high levels of 
        benzene contamination in wells on the base. Last year ATSDR 
        withdrew that Public Health Assessment, partly because they 
        claimed that in the intervening years since it was published in 
        1997 they discovered additional records about the extent of 
        toxic contamination at Camp Lejeune. Indeed, the recent 
        discovery of Navy records drastically alters previous 
        conclusions about the extent of benzene contamination at Camp 
        Lejeune. However, even the information ATSDR had in 1997 should 
        have sparked a much more aggressive investigation of the 
        benzene exposures at the time.

        3.  Department of Veterans Affairs (VA). The VA currently has 
        191 claims from Camp Lejeune veterans. They have reviewed 15-16 
        of those cases and granted claims to 5-6 veterans determining 
        that their illnesses are `more likely than not' tied to toxic 
        chemical exposures from Camp Lejeune's drinking water. Two of 
        those six veterans who received claims will be testifying at 
        the Subcommittee's hearing. Currently the VA handles disability 
        claims based on exposure to contaminated water at Camp Lejeune 
        on a case-by-case basis. However, the Secretary of the VA is 
        currently weighing a decision regarding the establishment of 
        specific presumptive health conditions tied to environmental 
        exposures at Camp Lejeune. Subcommittee Chairman Miller 
        introduced a bill last year called the Janey Ensminger Act that 
        would have the VA provide health care services to both veterans 
        and their family members who have experienced adverse health 
        effects as a result of exposures to contaminated drinking water 
        at Camp Lejeune.

Background

    Marine Corps Base (MCB) Camp Lejeune covers approximately 233 
square miles in Onslow County, North Carolina. The base and surrounding 
area is home to an active duty, dependant, retiree and civilian 
population of approximately 170,000. Camp Lejeune's mission is to 
maintain combat ready units for expeditionary deployment. Since MCB 
Camp Lejeune began operations in 1941, environmental contamination has 
occurred in many areas due to the use, handling, and disposal of 
hazardous chemicals. Contaminated areas are scattered within the 
industrial, training and residential areas on the base. As many as one 
million individuals have been exposed to these contaminants.
    Warnings of the base's contaminated drinking water problems first 
surfaced in 1980. The laboratory of the U.S. Army Environmental Hygiene 
Agency collected water samples at Camp Lejeune on October 21, 1980, and 
ran tests on those samples ten days later. A handwritten surveillance 
report form noted:

         WATER IS HIGHLY CONTAMINATED WITH LOW MOLECULAR WEIGHT HALO-
        GENERATED HYDROCARBONS.\1\
---------------------------------------------------------------------------
    \1\ William C. Neal, Jr., Chief, Laboratory Services, TTHM 
(trihalomethane) Surveillance Report Form, Installation: MCB--LA JEUNE 
(sic)--HADNOT POINT, Date Collected: 21 Oct. 1980, Date Received: 30 
Oct. 1980, Data Analyzed: 31 Oct. 1980.

    The Army ran follow-up tests in January, February and March 1981. 
---------------------------------------------------------------------------
Both the January and February 1981 surveillance report forms said:

         YOU NEED TO ANALYZE FOR CHLORINATED ORGANICS . . . .\2\
---------------------------------------------------------------------------
    \2\ William C. Neal, Jr., Chief, Laboratory Services, TTHM 
(trihalomethane) Surveillance Report Form, Installation: CAMP LA JEUNE 
(sic) HADNOT POINT, Date Collected: 29 Jan., 1981, Date Received: 30 
Jan., 1981, Data Analyzed: 9 Feb. 1981.

    Each report carried similar warnings about contamination and showed 
there was strong interference in getting accurate test results due to 
unidentified chemicals. The Chief of Laboratory Services again offered 
warnings on his remarks regarding the results of the March 1981 test 
---------------------------------------------------------------------------
data:

         WATER HIGHLY CONTAMINATED WITH OTHER CHLORINATED HYDROCARBONS 
        (SOLVENTS)! \3\
---------------------------------------------------------------------------
    \3\ William C. Neal, Jr., Chief, Laboratory Services, TTHM 
(trihalomethane) Surveillance Report Form, Installation: CAMP LA JEUNE 
(sic) HADNOT POINT, Date Collected: 26 Feb. 1981, Date Received: 9 Mar. 
1981, Data Analyzed: 9 Mar. 1981.

    On August 10, 1982, Bruce A. Babson, a chemist at Grainger 
Laboratories who had been contracted by the Marine Corps to conduct 
environmental sampling at Camp Lejeune wrote to the Commanding General 
---------------------------------------------------------------------------
of the Camp Lejeune Marine Corps Base:

         Interferences which were thought to be chlorinated 
        hydrocarbons hindered the quantitation (sic) of certain 
        Trihalomethanes. These appeared to be at high levels and hence 
        more important from a health standpoint than the total 
        Trihalomethane content. For these reasons we called the 
        situation to the attention of Camp Lejeune personnel.\4\
---------------------------------------------------------------------------
    \4\ Bruce A. Babson, Chemist, Grainger Laboratories to Commanding 
General, Marine Corps Base, Camp Lejeune, NC, Attention: AC/S 
Facilities, August 10, 1982, Subject: Analyses of samples 206 and 207 
from site coded ``TT'' and samples 208 and 209 from site coded ``HP''. 
Samples received July 29, 1982.

    Nine days later, Elizabeth A. Betz, the Supervisory Chemist in the 
Quality Control Lab at Camp Lejeune wrote a memorandum to one of her 
colleagues regarding the August 10, 1982 letter from Grainger Labs 
chemist Bruce Babson and previous conversations she had had with 
Grainger Lab co-owner Mike Hargett. The lab had identified the 
chemicals that had been interfering with previous test results. In the 
Tarawa Terrace water treatment plant and system the interfering 
chlorinated hydrocarbon was determined to be tetrachloroethylene, 
otherwise known as perchloroethylene, wrote Betz. An analysis of the 
Hadnot Point water treatment plant and system showed trichloroethylene 
and low levels of tetrachloroethylene. Betz indicated that neither of 
these chemicals were regulated under the Safe Drinking Water Act at the 
---------------------------------------------------------------------------
time. Nevertheless, Betz noted that they were still harmful to humans:

         Trichloroethylene, like tetrachloroethylene and other 
        halogenated hydrocarbons (ie Trihalomethanes), at high levels, 
        has been reported to produce liver and kidney damage and 
        central nervous system disturbances in humans.\5\
---------------------------------------------------------------------------
    \5\ Memorandum, Subj: Grainger Laboratories Letter of 10 August 
1982, From: Ms. Betz, Quality Control Lab., Environmental Section, 
NREAB, BMaintDiv; To: Mr. Sharpe, Supervisory Ecologist, Environmental 
Section, NREAB, BMaintDiv, Date: 19 August 1982.

    Despite these warnings it took more than two more years, and the 
discovery of another more sinister contaminant, benzene, before 
Department of the Navy or the U.S. Marine Corps took steps to actually 
close the contaminated wells. In July 1984 test data from another 
contractor indicated that well #602 in the Hadnot Point Industrial Area 
had a benzene level of 380-parts per billion (ppb). The current maximum 
contaminant limit for benzene exposure set by the Environmental 
Protection Agency (EPA) is 5-ppb.
    The Marine Corps claim they did not receive this disturbing test 
data until November 1984 and took immediate actions to shut down the 
well. One record from Camp Lejeune's supervisory chemist, Elizabeth 
Betz, in April 1989 suggests that base officials were not informed of 
the benzene contamination in Well #602 at the Hadnot Point Fuel Farm 
until November 30, 1984, when they received a call about the test 
results from the Naval Facilities Engineering Command, Atlantic 
Division (LANTDIV) based in Norfolk, Virginia. It has remained unclear, 
however, when Navy officials at LANTDIV were made aware of the July 
1984 benzene test results. Finally, however, after more than four years 
after Camp Lejeune officials first learned of toxic contamination in 
some of the base's drinking water wells they took action to shut these 
wells down. Between November 1984 and February 1985, ten potable water 
wells at Camp Lejeune, including Hadnot Point's well #602 were finally 
shut down and taken out of service due to contamination with volatile 
organic chemicals (VOCs).

ATSDR Steps In.

    In December 1988, the Department of the Navy issued a letter to 
ATSDR requesting that the agency perform a health assessment at Camp 
Lejeune. In October 1989, Camp Lejeune was placed on the Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA) 
National Priorities List (NPL). In 1991 ATSDR began a Public Health 
Assessment (PHA) of toxic contamination at Camp Lejeune. In October 
1994 ATSDR published an ``Initial Release'' version of its assessment 
and in 1997 it released the final version of the report.
    The ATSDR assessment found three past public health hazards: 1) 
exposure to lead in the tap water in on-base buildings containing lead 
plumbing; 2) past exposure to VOCs in three drinking water systems on 
base (Tarawa Terrace, Hadnot Point, and Holcombe Boulevard); and 3) 
past exposure to pesticides in the soil at a former day-care center. It 
also considered three issues to be of no apparent hazard: 1) 
groundwater contamination on base; 2) exposure from eating fish from 
Wallace Creek, Bear Head Creek, Cogdels Creek, Orde Pond, Everett 
Creek, and the New River near Sites 28, 69, and 48 and; 3) Soil 
Contamination at Site 69.
    The 1997 Public Health Assessment stated:

         ``Volatile organic compound (VOC) levels in three base 
        drinking water systems (Tarawa Terrace, Hadnot Point, and 
        Holcombe Boulevard) were a health concern until 1985 when use 
        of contaminated wells stopped. Well contamination was caused 
        from leaks in off-base and on-base underground tanks that were 
        installed in the 1940s and 1950s. Human exposure to 
        trichloroethylene (TCE), tetrachloroethylene (PCE), and 1,2-
        dichloroethylene (DCE) in drinking water systems at MCB Camp 
        Lejeune have been documented over a period of 34 months, but 
        likely occurred for a longer period of time, perhaps as long as 
        30 years.'' \6\
---------------------------------------------------------------------------
    \6\ ``Public Health Assessment for U.S. Marine Corps Camp LeJeune 
Military Reservation Camp LeJeune, Onslow County, North Carolina, 
August 4, 1997, Agency for Toxic Substances and Disease Registry 
(ATSDR), U.S. Department of Health and Human Services, p.2.

    But the ATSDR Public Health Assessment (PHA) had a critical 
omission. It failed to address the issue of known benzene contamination 
in Camp Lejeune's drinking water supply. The report contained a single 
reference to benzene in a chart in the appendix of the publication 
regarding well 602 at the Hadnot Point Industrial Area Tank Farm. 
``Groundwater contamination (benzene, etc.) was detected in base 
drinking water supply well 602,'' said the assessment. ``That well has 
not been used since 1984.'' Yet, references in the final 1997 and the 
previous two drafts of the document released by ATSDR in 1994 and 1995 
all contained references to a May 1988 ``confirmation study'' by 
Environmental Science and Engineering, Inc. that highlighted extremely 
elevated levels of benzene in the water supply wells at Camp Lejeune.
    ATSDR scientists involved in the PHA say they did not pursue the 
benzene issue further at the time because there was no evidence benzene 
was detected ``at the tap.'' This justification for not evaluating the 
likelihood of benzene exposure at the base was cited in a 1994 draft of 
ATSDR's Public Health Assessment, but was removed from the final 
version. However, an August 1998 publication by ATSDR on ``Adverse 
Pregnancy Outcomes'' at Camp Lejeune says that while benzene was not 
detected in the ``Hadnot Point tap water,'' ``Nonetheless, low level 
exposure (an estimated 35 ppb) would have been expected among women 
receiving Hadnot Point water before December 1984.'' The contaminated 
well was shut down in November 1984, four months after the benzene was 
first discovered in well #602 in July 1984.
    In addition, at some point between 1995 and the publication of the 
final ATSDR Public Health Assessment on Camp Lejeune in 1997, the 
agency's entire file on Camp Lejeune was mistakenly thrown out--tossed 
in the trash--by a contractor. It is still unclear how ATSDR published 
a final version of the Public Health Assessment without the supporting 
documents, but ATSDR says they knew where to go to retrieve the 
scientific references in the 1997 Public Health Assessment even if they 
did not actually have the data on hand.
    Last year ATSDR withdrew its 1997 PHA, partly because they claimed 
that in the intervening years since its publication new material was 
discovered about the extent of toxic benzene contamination at Camp 
Lejeune. It is true that new data ATSDR has obtained from a Department 
of Navy database in the past year regarding the degree of benzene 
contamination at Camp Lejeune significantly alters the evaluation of 
the public health impact of exposures to this toxic chemical at Camp 
Lejeune. ATSDR did, however, acknowledge the flaws in the 1997 
assessment when they publicly removed it from their web-site. ``Also, 
at the Camp Lejeune site, benzene was present in one drinking-water 
supply well in the Hadnot Point drinking water system,'' ATSDR said. 
``That well was shut down sometime prior to 1985. This information 
should have been included in the PHA but was not. The PHA should have 
mentioned the contamination and stated that the extent of exposure to 
benzene from that well was unknown.''
    ATSDR has struggled to obtain full access to U.S. Marine Corps and 
Department of Navy records regarding Camp Lejeune's environmental 
contamination for years. As early as 1994 ATSDR began writing letters 
to the U.S. Marine Corps complaining that they were not receiving the 
cooperation or access to vital records regarding the full extent of 
toxic contamination on Camp Lejeune or the potential health impact. 
These issues have flared up sporadically ever since. In 2005 ATSDR 
informed investigators at the Government Accountability Office (GAO) 
that it had learned there were a ``substantial number of additional 
documents that had not been previously provided to them by Camp Lejeune 
officials.''
    It is difficult to provide clear scientific analyses when you 
cannot be certain that the records you are relying on for that analysis 
are complete. In the past most estimates assumed between 20,000 to 
30,000 gallons of fuel had leaked from the underground storage tanks at 
Camp Lejeune, for instance. The newly discovered Navy documents, 
however, estimate that between 1988 and 1991 there was as much as 1.1 
million gallons of gasoline floating on top of the groundwater table at 
Camp Lejeune. The report noted: ``While this estimated volume seems 
incredibly large, it must be remembered that this took place over 50 
years, yielding an average loss of over 21,200 gallons/year (or 58 
gallons/day.)'' Benzene is a key component of gasoline. ATSDR officials 
say they had never been informed of these records previously and 
stumbled upon them without any direction from the U.S. Marine Corps or 
Department of the Navy.
    Despite this, it is also clear from the Subcommittee's review of 
records that ATSDR had significant information about benzene 
contamination at Camp Lejeune when they conducted their health 
assessment in 1997 and should have been more diligent in investigating 
the public health implications of the benzene contamination at the 
time. To help resolve issues regarding identification and access to 
Camp Lejeune environmental documents necessary for ATSDR to complete 
its ongoing health studies and analyses regarding toxic exposures at 
the base ATSDR and the Department of the Navy have formed a datamining 
work group that is attempting to resolve these access issues quickly.
    ATSDR currently has five separate health investigations regarding 
Camp Lejeune in the works. Some of these projects have been ongoing for 
years and four of the five studies will not be completed until at least 
spring 2012. The last one is expected in 2013. Considering these 
studies have taken years already to complete ATSDR should make every 
effort to finalize them as soon as possible without jeopardizing the 
scientific integrity of the products they deliver.

National Research Council (NRC) report.

    In 2009 the National Research Council (NRC) of the National 
Academies published Contaminated Water Supplies at Camp Lejeune--
Assessing the Potential Health Effects. The NRC study was mandated at 
the direction of Congress in the National Defense Authorization Act for 
Fiscal Year 2007 (Public Law 109-364, 109th Congress). The legislation 
specifically called for the Secretary of the Navy to enter into an 
agreement with the National Academy of Sciences to conduct a 
comprehensive review and evaluation of the available scientific and 
medical evidence regarding associations of human exposure to drinking 
water contaminated with trichloroethylene (TCE) and tetrachloroethylene 
(PCE) at Camp Lejeune, North Carolina. The legislation never directed 
the NRC to evaluate exposures to benzene and they did not do so.
    The committee divided its review into two major categories: (1) 
evaluating the exposures of former residents and workers to the 
contamination of the Tarawa Terrace and Hadnot Point water-supply 
systems, and (2) evaluating the potential health effects associated 
with the water contaminants TCE and PCE. The assessments were then 
considered together to ascertain whether conclusions could be drawn 
about whether any adverse health outcomes could be attributed to the 
water contaminants. The report's main conclusion:

         It cannot be determined reliably whether diseases and 
        disorders experienced by former residents and workers at Camp 
        Lejeune are associated with their exposure to contaminants in 
        the water supply because of data shortcomings and 
        methodological limitations, and these limitations cannot be 
        overcome with additional study. Thus, the committee concludes 
        that there is no scientific justification for the Navy and 
        Marine Corps to wait for the results of additional health 
        studies before making decisions about how to follow up on the 
        evident solvent exposures on the base and their possible health 
        consequences. The services should undertake the assessments 
        they deem appropriate to determine how to respond in light of 
        the available information.<SUP>[1]
---------------------------------------------------------------------------
    [1]</SUP> NRC report, page 13

``Camp Lejeune: Historic Drinking Water, Questions and Answers,'' U.S. 
                    Marine Corps, July 2010

    The U.S. Marine Corps has attempted to mischaracterize the National 
Research Council (NRC) report as well as ATSDR's past health studies in 
their most recent public relations document regarding contaminated 
drinking water at Camp Lejeune. In July, the U.S. Marine Corps 
published a glossy booklet that sought to provide ``questions and 
answers'' regarding Camp Lejeune's drinking water history. But the 
booklet is misleading in several regards.
    The Marine Corps booklet asserts:

         Since 1991, several health initiatives have been conducted to 
        identify the possible effects of exposure to contaminated water 
        at Camp Lejeune. The studies conducted to date have not shown 
        any causal link between exposure to contaminated water at Camp 
        Lejeune and illnesses.\7\
---------------------------------------------------------------------------
    \7\ ``Camp Lejeune: Historic Drinking Water, Questions and 
Answers,'' U.S. Marine Corps, July 2010, p. 10.

    In fact, in at least three separate places in the short Marine 
Corps booklet they claim that no studies have shown an ``association 
between exposure to the contaminated water and health conditions 
reported by former residents of Camp Lejeune.'' However, ATSDR informed 
the Marine Corps on September 10, 2010, that these statements are 
incorrect and said the only completed health study at Camp Lejeune 
which was conducted by ATSDR did, in fact, find an association between 
adverse health effects and exposures to PCE on the base.
    ATSDR reminded the Marine Corps that in their report ``associations 
were found with Small for Gestational Age (SGA) and specific sub-
groupings of PCE-exposed mothers. SGA was not a health condition 
``reported by former residents'' but instead was an adverse outcome 
that has been found in other studies at other sites to be associated 
with environmental exposures including exposures to chemical drinking 
water contaminants,'' wrote ATSDR. ``Evidence exists, based mostly on 
occupational studies, of associations between these chemical 
contaminants and cancers and other adverse health outcomes.'' ATSDR 
recommended that the Marine Corps ``booklet should report these 
findings and state that research on other illnesses is still 
underway.''
    In addition, the Marine Corps booklet uses several arguments to 
explain why they did not immediately shut down water wells they knew 
were contaminated with toxic chemicals. They have argued that they 
immediately shut down the wells once they identified the ``source'' of 
the contamination. But this response fails to answer the question why 
they did not shut the wells down once they first learned that they were 
contaminated with hazardous chemicals.
    The Marine pamphlet suggests that the chemicals in the drinking 
water, at the time, were not regulated by the Safe Drinking Water Act 
so they had no obligation or legal responsibility to close them. ``In 
1982, the interfering chemicals in the base water system were 
identified as trichloroethylene (TCE) and perchloroethylene (PCE), 
which were not regulated by the Safe Drinking Water Act at the time,'' 
the Marine Corps booklet states. ``When contaminants were subsequently 
discovered in certain wells, these wells were promptly removed from 
service.''
    But back in 1982 when Navy chemist Elizabeth Betz wrote her 
memorandum on Grainger Laboratories' discovery of high levels of 
trichloroethylene (TCE) in the Camp Lejeune water supply she also noted 
that it was not regulated by the Safe Drinking Water Act at the time. 
Still, this did not obscure her knowledge that it was still hazardous 
to human health in spite of the lack of regulations governing human 
exposures to it. Even before TCE, PCE and benzene were added to the 
list of chemicals that were regulated by the Safe Drinking Water Act 
between 1989 and 1992, it was well established these chemicals were 
hazardous. It is important to remember that in 1982 when Betz wrote 
that memo warning of the health implications of exposures to these 
chemicals they were not regulated by the Safe Drinking Water Act, but 
were clearly dangerous to human health nonetheless. Betz warned:

         Trichloroethylene, like tetrachloroethylene and other 
        halogenated hyudrocarbons (ie Trihalomethands), at high levels, 
        has been reported to produce liver and kidney damage and 
        central nervous system disturbances in humans.\8\
---------------------------------------------------------------------------
    \8\ Memorandum, Subj: Grainger Laboratories Letter of 10 August 
1982, From: Ms. Betz, Quality Control Lab., Environmental Section, 
NREAB, BMaintDiv; To: Mr. Sharpe, Supervisory Ecologist, Environmental 
Section, NREAB, BMaintDiv, Date: 19 August 1982.

    Today, the Department of Veterans Affairs is beginning to provide 
benefits to Camp Lejeune veterans who were exposed to TCE, for 
instance, and developed kidney cancer as a result. One of the witnesses 
at the Subcommittee hearing, Jim Watters, is a Camp Lejeune vet who 
developed kidney cancer from his exposures to these chemicals at Camp 
Lejeune and received a 100-percent disability award from the VA last 
year.
    The unofficial motto of the U.S. Marine Corps is to ``never leave a 
Marine behind.'' This should be applied not just to the brave Marines 
that have fought for our nation around the world but for those at home 
as well. And Camp Lejeune veterans should be no exception.

Witnesses:

Panel I

Dr. Richard Clapp, Professor Emeritus, Department of Environmental 
Health, Boston University School of Public Health, environmental health 
policy consultant and member of the ATSDR Camp Lejeune Community 
Assistance Panel (CAP)

Mr. Mike Partain, Member, ATSDR Camp Lejeune Community Assistance Panel 
(CAP) and breast cancer survivor born on Camp Lejeune

Mr. Peter Devereaux, Former Marine Corps Corporal and Camp Lejeune 
veteran diagnosed with breast cancer

Mr. Jim Watters, Director, Graduate Medical Education, Texas Tech 
University Health Sciences Center, former Navy Lieutenant, retired 
Commander, Navy Reserve, Medical Service Corps and Camp Lejeune veteran 
diagnosed with kidney cancer

Mr. Michael Hargett, General Director, Anchimeric Associates and former 
co-owner of Grainger Laboratories

Panel II

Dr. Chris Portier, Director, Agency for Toxic Substances and Disease 
Registry (ATSDR)

Mr. Thomas J. Pamperin, Associate Deputy Under Secretary for Policy and 
Program Management, Veterans Benefits Administration, U.S. Department 
of Veterans Affairs

Major General Eugene G. Payne, Jr., Assistant Deputy Commandant for 
Installations and Logistics (Facilities), Headquarters, United States 
Marine Corps

10:00a.m. - 12:00p.m.
2318 Rayburn House Office Building (WEBCAST)
    Chairman Miller. This hearing will now come to order.
    Just a quick word on pronunciation. The Marines properly 
honored General Lejeune by naming an installation after him but 
they placed the installation in eastern North Carolina, where 
North Carolinians immediately called it Camp Lejeune. I suspect 
if they had located it in rural Georgia, Georgians would have 
said Camp Lejeune as well, and all of my life I have heard it 
called Camp Lejeune by North Carolinians and by Marines alike. 
I understand recently the Marines have decided that it would 
more appropriately honor General Lejeune if they called the 
base named after him Camp Lejeune. That is the way he 
pronounced his own name. He was from Louisiana. That is the 
proper French Creole pronunciation. That is the way his family 
pronounces his name. But I think the view of most North 
Carolinians is that if the Navy wanted to name a base Camp 
Lejeune, they should have put it in Louisiana. And just as soon 
as South Dakotans start calling their state capital Pierre 
instead of Pierre we would start saying Camp Lejeune. So it is 
with no disrespect to General Lejeune that I will say Camp 
Lejeune today because it would be changing the habits of a 
lifetime which would be difficult to do for today's hearing.
    Good morning, and welcome to today's hearing entitled 
``Camp Lejeune: Contamination and Compensation, Looking Back, 
Moving Forward.''
    For 30 years, as many as one million Marines and their 
families training and living on the base at Camp Lejeune were 
exposed to toxic chemicals in their drinking water. Solvents 
such as trichloroethylene (TCE) and perchloroethylene (PCE) and 
byproducts of fuel such as benzene leeched into the base water 
supply and were consumed by Marines, their wives, their 
children and by members of the community who worked on the 
base.
    We will never be certain about all the adverse health 
consequences that come from consuming that toxic cocktail, but 
we can be certain that some Marines and their dependants will 
develop cancers that will shorten their lives. In fact, that 
has already happened. We are certain that the Marine Corps 
failed to close the wells promptly when they were informed of 
the presence of TCE and PCE in their water. Instead, they 
provided that water to their people for two more years.
    The wells were shut down in the mid-1980s. For the two 
decades, the Marine Corps leadership and the Department of the 
Navy have denied that they had a water problem at Camp Lejeune. 
Because no law was broken and the contaminated wells were 
eventually shut down, the Navy continues to deny that they bear 
responsibility for taking care of those veterans, for those 
Marines and their families. Children have died from rare forms 
of leukemia, but the Navy says they are not responsible for 
that. Marines and their dependants have developed male breast 
cancer, but the Navy says it is not their problem. While the 
Department of Veterans Affairs has begun to extend benefits for 
cancers that they view as more likely than not caused by 
exposure to the toxic water, to drinking the toxic water, the 
Navy continues to wait for scientific certainty of causation. 
The Navy expresses deep concern, and waits on science to answer 
with certainty the question of whether the toxic chemicals they 
admit contaminated the water at Camp Lejeune are responsible 
for any adverse health conditions.
    As anyone who has followed science in public health should 
know, there will never be scientific certainty that any 
particular disease in any particular person is tied to any 
particular exposure. Toxic chemicals and human health tends to 
be about probabilities, not certainties. Science will never 
give the Navy certainty and so long as they wait, no veteran 
and no family member will ever receive their due from the Navy.
    The Marine Corps has recently put out a glossy booklet 
regarding the history of Camp Lejeune's drinking water and 
their response to the toxic contamination at the base. It is 
their side of the story, but it is not a complete factual 
history of what happened at Camp Lejeune, what happened to Camp 
Lejeune's drinking water supply, nor does it accurately portray 
when the Marines became aware of those hazards, those known 
hazards, how they responded to that information or the actual 
public health implications of those toxic chemicals on those 
exposed to them.
    Relying on the advice of lawyers, hiding behind science 
that is slow and uncertain, and spending more energy on public 
relations than on helping Marines and their families, the 
leadership of the Marine Corps and Navy appears to have 
qualified their sense of service and obligation by concerns 
about possible legal liability. They are faithful only to the 
point that their attorneys tell them not to admit 
responsibility or accept liability.
    The facts are these: The U.S. Marine Corps failed to act 
quickly or forcefully enough in the 1980s to close down water 
supply wells it knew were contaminated with toxic chemicals 
that were endangering the health and safety of its Marines and 
their families at Camp Lejeune.
    I would like to understand why it took so long for the 
Marine Corps to respond because they have so far failed to 
provide any adequate explanation to the public, Congress or the 
Marines who served at Camp Lejeune and their families. I hope 
that U.S. Marine Corps Major General Payne can address those 
issues today. He will be on the second panel.
    For its part, the Agency for Toxic Substances and Disease 
Registry (ATSDR), a sister agency of the Centers for Disease 
Control and Prevention (CDC), produced a public health 
assessment of human health hazards posed by Camp Lejeune's 
drinking water supply in 1997 that was inadequate. I am glad to 
see that the agency has acknowledged that inadequacy and had 
withdrawn this publication last year. The 1997 health 
assessment evaluated the public health impact from exposures to 
TCE and PCE that infiltrated the drinking water supply at Camp 
Lejeune up through the 1980s, but it failed to investigate and 
evaluate the effect of benzene contamination at the base at 
that time. It is critically important that ATSDR carry out its 
slate of proposed studies as quickly as possible. These studies 
will not provide the certainty regarding exposure and disease 
that some expect, but they should help identify the range of 
possible cancers and other conditions that could be produced 
from exposure to the polluted drinking water at Camp Lejeune.
    We will hear today from the Department of Veterans Affairs. 
I am pleased that the VA has begun to award some Camp Lejeune 
veterans for illnesses they developed that the VA has found 
were more likely than not caused by exposures to toxic 
chemicals in the drinking water at Camp Lejeune. Two of our 
witnesses are among the half dozen awards the VA has already 
granted. But that leaves dependants of Marine veterans who have 
been harmed by these exposures, like Mike Partain, to fall 
through the cracks.
    I introduced a bill last year called the Janey Ensminger 
Act that would have the VA provide health care services to both 
veterans and their family members who have experienced adverse 
health effects as a result of exposure to contaminated drinking 
water at Camp Lejeune. The bill is named for Janey Ensminger, a 
nine-year-old girl who died from childhood Leukemia in 1985 
after being exposed to the drinking water while her mother was 
pregnant with her. Her father is 24-year Marine veteran, Jerry 
Ensminger, who is here today, who has testified powerfully 
before this Committee in the past, and Jerry has been a 
tireless advocate for military families exposed to the 
contamination at Camp Lejeune.
    I believe the VA has begun to move in the right direction 
by awarding this small pool of veterans the compensation they 
need and deserve. I believe it is time that the Department of 
the Navy and U.S. Marine Corps stop fighting those efforts and 
focus their energies on taking care of their own now and in the 
future. It is time that the leadership of the Navy and Marine 
Corp lived up to the motto of the Corps. They could learn from 
the example of Jerry Ensminger, who has been faithful always to 
the memory of his daughter and to all the victims of the toxic 
drinking water at Camp Lejeune.
    [The prepared statement of Chairman Miller follows:]
               Prepared Statement of Chairman Brad Miller
    The title of today's hearing is: ``Camp Lejeune: Contamination and 
Compensation, Looking Back, Moving Forward.''
    For thirty years, as many as one million Marines and their families 
training and living on the base at Camp LeJeune were exposed to toxic 
chemicals in their drinking water. Solvents such as trichloroethylene 
(TCE) and perchloroethylene (PCE) and by-products of fuel such as 
benzene leeched into the base water supply and were consumed by 
Marines, their wives, their children and by members of the community 
who worked on the base.
    We will never be certain about all the adverse health consequences 
that come from consuming that toxic cocktail, but we can be certain 
that some Marines and some dependents will develop cancers that will 
shorten their lives. We are certain that the Marine Corp failed to 
close the wells promptly when they were informed of the presence of TCE 
and PCE in their water. Instead, they provided that water to their 
people for two more years.
    The wells were shut down in the mid-1980s. For the two decades 
since, the Marine Corp leadership and the Department of the Navy have 
denied that they have a water problem. Because ``no law was broken'' 
and the contaminated wells were, eventually, shut down, the Navy 
continues to deny that they bear responsibility for taking care of 
these veterans and their families. Children have died from rare forms 
of leukemia, but the Navy says they are not responsible. Marines and 
dependents have developed male breast cancer, but the Navy says, ``not 
our problem''. While the Department of Veterans Affairs has begun to 
extend benefits for cancers that they view as ``more likely than not'' 
caused by drinking the toxic water, the Navy continues to wait for 
scientific certainty of causation.
    The Navy expresses deep concern, and waits on science to answer 
with certainty the question of whether the toxic chemicals they admit 
contaminated the water at LeJeune are responsible for any adverse 
health conditions. As anyone who has followed science in public health 
should know, there will never be scientific certainty that any 
particular disease in any particular person is tied to any particular 
exposure. Toxic chemicals and human health tends to be about 
probabilities, not certainties. Science will never give the Navy 
certainty and so long as they wait, no veteran and no family members 
will ever receive their due from the Navy.
    The Marine Corps has recently put out a glossy booklet regarding 
the history of Camp Lejeune's drinking water and their response to the 
toxic contamination at the base. It may be their side of the story, but 
it is not the complete factual history of what happened to Camp 
Lejeune's drinking water supply, nor does it accurately portray when 
the Marines became aware of these known hazards, how they responded to 
this information or the actual public health implications of these 
toxic chemicals on those exposed to them.
    Relying on the advice of lawyers, hiding behind science that is 
slow and uncertain, and spending more energy on public relations than 
on helping Marines and their families, the leadership of the Marine 
Corps and Navy appears to have qualified their sense of service and 
obligation by concerns about possible legal liability. They are 
faithful only to the point where their attorneys tell them not to admit 
responsibility or accept liability.
    The facts are these: The U.S. Marine Corps failed to act quickly or 
forcefully enough in the 1980s to close down water supply wells it knew 
were contaminated with toxic chemicals that were endangering the health 
and safety of its Marines and their families on Camp Lejeune.
    I would like to understand why it took so long for the Marine Corps 
to respond because they have so far failed to provide an adequate 
explanation to the public, Congress or the Marines who served at Camp 
Lejeune and their families. I hope that U.S. Marine Corps Major General 
Payne can help address those issues today.
    For its part, the Agency for Toxic Substances and Disease Registry 
(ATSDR), a sister agency of the Centers for Disease Control and 
Prevention (CDC), produced a Public Health Assessment of human health 
hazards posed by Camp Lejeune's drinking water supply in 1997 that was 
inadequate. I am glad to see that the agency has acknowledged that 
inadequacy and withdrew this publication last year. The 1997 health 
assessment evaluated the public health impact from exposures to TCE and 
PCE that infiltrated the drinking water supply at Camp Lejeune up 
through the 1980s, but it failed to investigate and evaluate the effect 
of benzene contamination at the base at that time. It is critically 
important that ATSDR carry out its slate of promised studies as quickly 
as possible. These studies will not provide the certainty regarding 
exposure and disease that some expect, but they should help identify 
the range of possible cancers and other conditions that could be 
produced from exposure to the polluted drinking water at Camp LeJeune.
    We will also hear from the Department of Veterans Affairs today. I 
am pleased that the VA has begun to award some Camp Lejeune veterans 
for illnesses they developed that the VA has found were ``more likely 
than not'' caused by exposures to toxic chemical contamination in the 
drinking water at Camp Lejeune. Two of our witnesses are among the half 
dozen awards the VA has already granted. But that leaves dependents of 
Marine veterans who have been harmed by these exposures, like Mike 
Partain, to fall through the cracks.
    I introduced a bill last year called the Janey Ensminger Act that 
would have the VA provide health care services to both veterans and 
their family members who have experienced adverse health effects as a 
result of exposure to contaminated drinking water at Camp Lejeune. The 
bill is named for Janey Ensminger, a 9-year old girl who died from 
childhood Leukemia in 1985 after being exposed to the water at Camp 
Lejeune while in utero. Her father is 24-year Marine Corps veteran 
Jerry Ensminger who has been a tireless advocate for military families 
exposed to contamination at Camp Lejeune.
    I believe the VA has begun to move in the right direction by 
awarding this small pool of veterans the compensation they need and 
deserve. I believe it is time that the Department of the Navy and U.S. 
Marine Corps stop fighting these efforts, and focus their energies on 
taking care of their own now and in the future. It is time that the 
leadership of the Navy and Marine Corp lived up to the motto of the 
Corps.
    They could learn from the example of Jerry Ensminger, who has been 
faithful always to the memory of his daughter and to all the victims of 
the toxic drinking water at Camp Lejeune.

    Chairman Miller. The Chair now recognizes our ranking 
member from Georgia, Dr. Broun, for an opening statement.
    Mr. Broun. Thank you, Mr. Chairman. Speculating how people 
in Georgia would pronounce General Lejeune's name is just 
speculation. We have a city called Cairo, Georgia. Most people 
would pronounce that Cairo. We have the University of Georgia 
in Albany, Georgia, where General Payne admirably served down 
there. But as a Marine, I know it as Camp Lejeune.
    Good morning. I want to thank our witnesses for appearing 
today and also want to thank the chairman for holding this 
hearing. As a Marine, a family doctor and a legislator, I am 
very sensitive to the health of our service members and our 
veterans and to their families. We owe them a debt of gratitude 
for their service, a debt that must include vigilance in caring 
for them after leaving the military. It's a sacred obligation 
of this government to take care of our troops not only while 
they are on active duty but as well after they leave active 
duty.
    Camp Lejeune has a proud history of training Marines to 
defend our Nation. Unfortunately, throughout that history the 
drinking water consumed on Camp Lejeune was contaminated by 
numerous chemicals such as TCE, DCE, PCE and benzene. Since the 
early 1990s, there have been multiple agencies that have looked 
into this issue including ATSDR, EPA, GAO and the National 
Academies, just to name a few. In 1997, ATSDR issued a public 
health assessment required under the Superfund statute. This 
assessment was eventually retracted in 2009 because of new 
information on the amount of benzene contamination that may 
challenge the results of that study. However, since that 
initial report was issued, ATSDR has initiated several other 
studies related to the effect of these chemicals on fetuses and 
the subsequent health problems of children born to mothers 
living and working on the base.
    ATSDR is the principal investigator of the health effects 
related to the contamination at Camp Lejeune and there are 
positive steps being taken to ensure that the agency has all 
the information it needs to evaluate the exposures and 
potential health impacts but all parties must continue to 
cooperate. The Navy and Marine Corps have become more 
forthcoming with documents and data, and I applaud that. ATSDR 
is working to improve their processes and I hope their document 
retention protocols.
    While I am pleased that ATSDR is continuing to look into 
this issue and that the VA seems to be moving in a proactive 
manner to ensure that veterans and their families are taken 
care of, this issue simply will not go away. Progress needs to 
continue to a successful conclusion.
    When the chemicals were discovered in the water supply, the 
Navy and the Marine Corps shut down the contaminated wells. 
Whether or not this reaction was immediate or permanent is not 
as important as the fact that we now know that possibly 
hundreds of thousands may have been exposed to harmful 
chemicals that could have lasting impacts upon their health and 
their lives.
    When our service members provide a blanket of security for 
us abroad, they reasonably expect us to ensure their safety as 
well as the safety of their families here at home even if the 
threat is from environmental hazards. Fulfilling that 
expectation is the least we can do.
    I look forward to hearing from our witnesses.
    Mr. Chairman, I yield back the balance of my time. Thank 
you, sir.
    [The prepared statement of Mr. Broun follows:]
           Prepared Statement of Representative Paul C. Broun
    Good morning. I want to thank our witnesses for appearing today. I 
also want to thank the Chairman for holding this hearing. As a Marine, 
family doctor, and a legislator, I am very sensitive to the health of 
our service members, our veterans, and their families. We owe them a 
debt of gratitude for their service, a debt that must include vigilance 
in caring for them after leaving the military.
    Camp Lejeune has a proud history of training Marines to defend our 
nation. Unfortunately, throughout that history, the drinking water 
consumed on Camp Lejeune was contaminated with numerous chemicals such 
as TCE, DCE, PCE, and benzene. Since the early 1990s, there have been 
multiple agencies that have looked into this issue, including ATSDR, 
EPA, GAO, and the National Academies--to name just a few.
    In 1997, ATSDR issued a Public Health Assessment required under the 
Superfund statute. This Assessment was eventually retracted in 2009 
because of new information on the amount of benzene contamination that 
may challenge the results of the 1997 study. However, since that 
initial report was issued, ATSDR has initiated several other studies 
related to the effects of these chemicals on fetuses and the subsequent 
health problems of children born to mothers living and working on the 
base.
    ATSDR is the principle investigator of the health effects related 
to the contamination at Camp Lejeune, and there are positive steps 
being taken to ensure that the agency has all the information it needs 
to evaluate the exposures and potential health impacts, but all parties 
must continue to cooperate.
    The Navy and Marine Corps have become more forthcoming with 
documents and data, and ATSDR is working to improve their processes 
and--I hope--their document retention protocols. While I am pleased 
that ATSDR is continuing to look at the issue, and that the VA seems to 
be moving in a proactive manner to ensure veterans and their families 
are taken care of, this issue won't simply go away. Progress needs to 
continue to a successful conclusion.
    When the chemicals were discovered in the water supply, the Navy 
and the Marine Corps shut down the contaminated wells. Whether or not 
this reaction was immediate or permanent is not as important as the 
fact that we now know that possibly hundreds of thousands may have been 
exposed to harmful chemicals that could have lasting impacts on their 
health. When our service members provide a blanket of security for us 
abroad, they reasonably expect us to ensure their safety, as well as 
the safety of their families, at home--even if the threat is from 
environmental hazards. Fulfilling that expectation is the LEAST we can 
do.
    I look forward to hearing from our witnesses and yield back the 
balance of my time.
    Thank you.

    Chairman Miller. Thank you, Dr. Broun.
    There is one inexcusable error in my printed statement that 
I did correct orally but I cannot believe I let go through in 
editing the statement. There is a reference to soldiers. Please 
strike that word and insert instead the word ``Marines.''
    Thank you, sir.
    Any additional opening statements submitted by members will 
be included in the record.
    We do have a set of documents to be included in the record. 
Without objection, they will be ordered included.\1\
---------------------------------------------------------------------------
    \1\ Please see Appendix 2: Additional Material for the Record.

Panel I
    Chairman Miller. It is now my pleasure to introduce our 
first panel of witnesses. Mr. Mike Partain was diagnosed with 
male breast cancer in 2007 and he has since become a community 
advocate and representative of the ATSDR Camp Lejeune Community 
Assistance Panel. Mr. Jim Watters is the Assistant Dean for 
Graduate Medical Education at Texas Tech University Health 
Sciences Center School of Medicine. As a former Navy lieutenant 
and retired commander, Mr. Watters also served in the U.S. 
Army, U.S. Navy and the U.S. Naval Reserve and is a Camp 
Lejeune veteran diagnosed with kidney cancer. Mr. Peter 
Devereux is a former Marine Corps corporal who was diagnosed 
with male breast cancer in 2008. In August of this year, the 
Department of Veterans Affairs granted him 100 percent 
disability linking Mr. Devereux's breast cancer to his exposure 
to toxic chemicals in Camp Lejeune's drinking water during his 
military service. Dr. Richard Clapp is Professor Emeritus of 
the Department of Environmental Health at Boston University's 
School of Public Health. He is an environmental health policy 
consultant and a member of the ATSDR Camp Lejeune Community 
Advisory Panel. And Mr. Michael Hargett, who I have not had a 
chance to greet, is the General Director of Anchimeric 
Associates and former co-owner of Grainger Laboratories, which 
performed tests for Lejeune drinking water in the 1980s.
    As our witnesses should know, you have five minutes for 
your spoken testimony. Your written testimony will be included 
in its entirety in the record for the hearing. When you all 
have completed your spoken testimony, we will begin with 
questions. Each member will have five minutes to question the 
panel. It is the practice of the Subcommittee on Investigations 
and Oversight to receive testimony under oath. Do any of you 
have any objection to taking an oath? Okay. The record should 
show, should reflect that all the witnesses were willing to 
take an oath. You may also be represented by counsel. Do any of 
you have counsel here? The record should reflect that none of 
the witnesses have counsel.
    If would now please stand and raise your right hand. Do you 
swear to tell the truth and nothing but the truth? The record 
should reflect that all those witnesses, all the witnesses 
participating have taken the oath. We will start with Mr. 
Partain. Mr. Partain, you are recognized for five minutes.

   STATEMENT OF MICHAEL PARTAIN, MEMBER, ATSDR CAMP LEJEUNE 
  COMMUNITY ASSISTANCE PANEL (CAP) AND BREAST CANCER SURVIVOR 
                      BORN ON CAMP LEJEUNE

    Mr. Partain. Thank you, Mr. Chairman and Ranking Member.
    ``You have male breast cancer'' were the words which 
greeted me and my wife on our 18th wedding anniversary. My name 
is Michael Partain and I am the son and grandson of United 
States Marine Corps officers. My parents were stationed aboard 
Marine Corps Base Camp Lejeune shortly after my father 
graduated from the United States Naval Academy. I was 
conceived, carried and then born at the base Naval Hospital 
during the drinking water contamination period at Camp Lejeune.
    Three years ago, I was diagnosed with male breast cancer at 
the age of 39. In fact, I am one of 64 men who share the unique 
commonality of male breast cancer and exposure to the 
contaminated water aboard Camp Lejeune. There is no history of 
the disease in my family, and I have tested negative for the 
hereditary breast cancer markers BRCA1 and BRCA2. I do not 
drink nor do I smoke.
    The history of the Camp Lejeune drinking water 
contamination has been chronicled in many forms over the past 
26 years. Currently, the Department of the Navy and the Marine 
Corps constantly beat a drum that the health, safety and 
welfare of their Marines, sailors and families has been and 
always will be a top priority for the Marine Corps. Two months 
ago, the Marine Corps distributed an informational booklet 
detailing their version of the Camp Lejeune drinking water 
contamination to every Member of Congress. This booklet is a 
written testament to the mountain of lies and years of open 
deceit that the servicemen, the servicewomen and their families 
have endured since the drinking water contamination was first 
announced in December of 1984.
    The initial warnings that Camp Lejeune's drinking water 
contamination began in October of 1980. A representative from 
the Navy's Atlantic Division, LantDiv, arrived at Camp Lejeune 
to collect composite samples to ensure there was no Love Canal 
present aboard the base. TCE and PCE were specifically detected 
in this base-wide composite sample. No further action was 
taken.
    Later that month, an Army laboratory base out of Fort 
McPherson, Georgia, tested the tap water for Hadnot Point's 
water distribution system. The laboratory was unable to obtain 
accurate readings because of interferences in the samples and 
was apparently concerned enough to handwrite ``water is highly 
contaminated with low molecular weight halogenated carbons.'' A 
series of warnings then ensued: ``Heavy organic interference. 
You need to analyze for chlorinated organics'' by GCMS, 
December 1980. ``You need to analyze for chlorinated organics'' 
by GCMS February 1981. ``Your water is highly contaminated with 
chlorinated hydrocarbons,'' and then they put in parentheses in 
capital letters the word ``solvents'' with an exclamation 
point, March 1981. ``Interferences on this peak'' December 
1981. No further action was taken.
    Concurrently with the warnings from the Army lab, another 
problem was discovered at the base's rifle range water 
treatment plant. Something different occurred at the rifle 
range that did not happen at Hadnot Point. The rifle range 
water treatment plant and well fields were tested. The 
offending well was identified and action taken to eliminate the 
problem. Why the different standard of care?
    Grainger Laboratory was the third laboratory to test Camp 
Lejeune's water. With their very first sample, the VOC 
contamination was again confirmed. The owner of the laboratory, 
who will testify later, informed the base chemist, Elizabeth 
Betz, that PCE and TCE were contaminating the tap water 
samples. The findings were reported up the chain of command, 
and 8 days later Mrs. Betz was summoned to a briefing with the 
Assistant Chief of Staff, Facilities, and his assistant. Ms. 
Betz stated in her memorandum for the record, ``It appeared to 
me that they had not been informed about the findings. I did 
not inform them.''
    As a result of Mr. Hargett's efforts, the respective well 
fields for Tarawa Terrance were identified as the source of the 
contamination. Despite the immediate danger of exposure to the 
personnel on the base, no further action was taken.
    Furthermore, a change order for the Navy environmental 
program was executed in December of 1982. Grainger's findings 
were not included in this change order. Nowhere in the 1983 
initial assessment study for Camp Lejeune was there any 
discussion concerning the VOCs found by the three laboratories. 
Instead, the report concluded, ``that while none of these sites 
pose an immediate threat to human health or the environment, 22 
warrant further investigation on the Navy Assessment and 
Control of Installation Pollutants Program.''
    The leadership of the United States Navy and Marine Corps 
repeatedly assert that the chemicals found in the tap water at 
Camp Lejeune were not specifically regulated in the Safe 
Drinking Water Act. While this may be true, they consistently 
failed to recognize their own naval potable water regulation 
BUMED 6240.3b and 6240.3c which date back to 1963. These 
regulations contain a set of definitions to clearly specify the 
meaning of key terms used within the document. Three key terms 
illustrate and provide a clear understanding that the Marine 
Corps had the ability to protect their Marines and sailors and 
their families as early as 1963.
    Health hazards as defined in the instructions means any 
conditions, devices or practices in the water supply system and 
its operation which create or may create a danger to the health 
and well-being of the water consumer. An example of a health 
hazard is a defect in the water supply system whether of 
location, design or construction which may regularly or 
occasionally prevent satisfactory purification of the water 
supply or cause it to be polluted from extraneous sources, as 
is the case at Camp Lejeune. Pollution is defined in the 
standards means the presence of any foreign substance organic, 
inorganic, radiological or biological in water which tends to 
degrade its quality so as to constitute a hazard to impair the 
users of the water. Chemical characteristics: substances which 
may have a deleterious physiological effect or for which the 
effects are not known shall not be introduced into the water 
system in a manner which would permit them to reach the 
consumer.
    During the course of our research, we discovered an order 
issued by the commanding general of Camp Lejeune regarding 
organic solvents. Base Order 5100.13b was written to inform the 
general's command about the safe disposal of contaminants or 
hazardous waste. The order declared organic solvents as 
hazardous and that improper disposal of hazardous materials 
could lead to drinking water contamination.
    Last year, the Marine Corps was asked by Senators Burr and 
Hagan from North Carolina whether the Marine Corps agreed that 
base order 5100.13b declared organic solvents hazardous. The 
official Marine Corps response signed by Brigadier General 
Regner was: ``The 1974 Base Order speaks for itself.''
    Why the leadership of the United States Marine Corps failed 
to follow these orders and protect our health remains a 
mystery. Whatever happened to, we take care of our own. If the 
United States Marine Corps is so concerned about the health and 
safety and welfare of their Marine Corps family, then why is it 
so hard for them to tell the truth?
    This quote appeared in a June 1984 article announcing the 
commencement of the confirmation study: ``While contractors 
will routinely wear personal protective equipment such as 
chemical resistant overalls, we do not expect to expose anyone 
to contaminants. The results of the survey are due in August 
1984. If any contaminations are discovered, a review of 
alternatives will determine action necessary to meet the health 
and environmental standards.'' What the article didn't tell the 
personnel on the base was that they were already exposed.
    July 6, 1984, Hadnot Point well 602 was tested by a Navy 
contractor. Many of this contractor's subsequent reports are 
missing. However, their final report concluded that of extreme 
importance is the high level of benzenes, 380 parts per 
billion, detected in the sample collected from the deepwater 
well number 602. This benzene--I am sorry. The use of this well 
should be discontinued immediately. The well was closed in 
November of 1984. To date, the Marine Corps cannot produce any 
documentation, written documentation to show their notification 
that the well was contaminated.
    December 1984, the first article appeared in the press 
about the announcement of the contamination. As a result of the 
water samples taken on December 3rd, not July 6th, four wells 
in the Hadnot Point industrial area were found to contain some 
traces of organic contamination. None of the compounds noted in 
the test samples are listed in the regulations under the Safe 
Drinking Water Act. Daily water samples are being taken from 
the water treatment plant to ensure drinking water remains 
within prescribed federal and state regulations established by 
the Safe Drinking Water Act. Every effort will be made to 
maintain the excellent quality of water supply provided to the 
residents of Camp Lejeune.
    April 1985, notice from the commanding general to the 
residents of Tarawa Terrace. Two of the wells that supplied 
Tarawa Terrace have been taken offline because of minute trace 
amounts of organic solvents--sorry--organic chemicals have been 
detected in the water.
    May 1985, a Marine Corps public affairs spokesman, Gunnery 
Sergeant Simmons, said he had no information on whether the 
well water was dangerous to humans. Simmons stated that while 
there were no State or Federal regulations that maintained an 
acceptable level of such contaminants in the drinking water, 
``we ordered the closure of all wells that showed even a trace 
amount.''
    September 1985, the base Environmental Engineer, Robert 
Alexander, was quoted in the paper as saying, ``We sampled 
nearly wells and one near the fuel farm. We did not detect fuel 
but we detected organic solvents.'' And then he went on to say 
that no one had been harmed.
    Chairman Miller. I am sorry. Can you begin to wrap up?
    Mr. Partain. Okay. Also in September 1985, Mr. Alexander 
advised the residents of the base that no one had been exposed, 
directly exposed to the pollutants.
    Is this how the leadership of the United States Marine 
Corps demonstrates their concern for the Marine Corps family?
    Last year the ATSDR withdrew their flawed Public Health 
Assessment for Camp Lejeune due to benzene contamination. Prior 
to 2010, the United States Marine Corps admitted to losing up 
to 50,000 gallons at the Hadnot Point fuel farm during the 49-
year history of the facility. That number has now changed to 
1.1 million gallons of fuel released into the groundwater at 
Hadnot Point. Shortly afterwards--sorry. That number has now 
changed to 1.1 million gallons of fuel released into the 
groundwater at Hadnot Point. Last year, ATSDR stumbled across a 
previously undisclosed Navy electronic library. Also within 
this portal were documents detailing the former fleet refueling 
and service area with seven underground storage tanks located 
within 300 feet of well 602. We would like to know when the 
leadership of the United States Marine Corps and Navy were 
planning to inform ATSDR of these vital facts. Where was their 
written notification to ATSDR that 1 million gallons of fuel 
were released into the groundwater and the existence of the new 
fuel contamination at building 1115? As the old adage goes, 
actions speak louder than words. Trying to pin down the truth 
with the leadership of the Marine Corps is like trying to nail 
Jell-O to the wall.
    In conclusion, our country has seen a renewed appreciation 
for our volunteer military and the sacrifices made by our 
fighting men, women and their families. It is hard to drive 
down the road without seeing a ``Support the Troops'' ribbon on 
someone's car. How can we profess a respect for our military 
personnel and families when in their time of need this country 
not only abandoned them but abandoned their families. We 
trusted the Marine Corps would do the right thing for the 
Marines and their families.
    The subtitle of this hearing is ``Looking Back, Moving 
Forward.'' We looked back and found the Marine Corps statements 
do not match the historical documents. We cannot move forward 
with understanding Camp Lejeune's drinking water contamination 
unless there is a full disclosure from the Navy Marine Corps. 
Congress is where this issue must be resolved. Our exposures 
are established and well documented. The negligence of the 
Marine Corps is clear. There are thousands of Marines, sailors, 
family members and base employees who were sickened by the foul 
water at Camp Lejeune. When will our country fulfill our 
commitment to support the troops?
    Thank you, sir.
    [The prepared statement of Mr. Partain follows:]
                 Prepared Statement of Michael Partain
    My Name is Michael Partain and I am the son and grandson of United 
States Marine Corps Officers. My parents were stationed aboard Marine 
Corps Base Camp Lejeune shortly after my father graduated from the 
United States Naval Academy. I was conceived, carried and then born at 
the base Naval Hospital while my parents lived in base housing. During 
the time of my mother's pregnancy, we were exposed to high levels of 
tetrachloroethylene (PCE), trichloroethylene (TCE), dichloroethylene 
(DCE), benzene and vinyl chloride in the tap water provided to my 
family by the Marine Corps. Three years ago, I was diagnosed with male 
breast cancer at the age of thirty nine. In fact, I am one of about 
sixty four men who share this unique commonality of male breast cancer 
and exposure to contaminated tap water aboard Camp Lejeune. There is no 
history of the disease in my family and I tested negative for the 
hereditary breast cancer markers BRCA 1 and 2. I do not drink nor do I 
smoke.
    The history of the Camp Lejeune drinking water contamination has 
been chronicled in many forms over the past twenty six years since the 
first announcement made by the United States Marine Corps revealing the 
existence of drinking contamination problem aboard the base. Currently, 
the Department of the Navy and the Marine Corps beat a constant drum 
that the health, safety and welfare of their Marines, Sailors and their 
families has been and always will be a top priority for the Marine 
Corps \1\. In July of this year, the USMC distributed an informational 
booklet on the Camp Lejeune drinking water contamination to every 
member of Congress. This booklet is a testament to the mountain of lies 
and years of open deceit the service men, women and their families have 
endured since the drinking water contamination was first revealed.
---------------------------------------------------------------------------
    \1\ USMC Camp Lejeune Historic Drinking Water Q&A Booklet, USMC 
July 2010.

Discovery of Camp Lejeune's Drinking Water Contamination.

    The recent Marine Corps informational booklet first describes the 
discovery of the Volatile Organic Compound (VOC) problem at the base in 
the Executive Timeline by stating that ``unidentified VOC's interfered 
with total trihalomethane (TTHM) testing between 1980-1982.\2\ A few 
pages later, the reader then discovers that ``targeted'' sampling in 
August 1982 identified the contaminants as tetrachloroethylene (PCE) 
and trichloroethylene (TCE). The reader is then told the chemicals were 
unregulated by the Safe Drinking Water Act at the time.\3\ A careful 
examination of Marine Corps and Navy documents reveal a totally 
different scenario unfolded at Naval Facilities and Engineering Command 
(LantDiv) and the base after the initial warnings about the 
contamination poisoning the drinking water surfaced.
---------------------------------------------------------------------------
    \2\ USMC CL Booklet page 4.
    \3\ USMC CL Booklet page 6.
---------------------------------------------------------------------------
    On 1 October 1980 a representative from LantDiv arrived at Camp 
Lejeune to collect a composite sample from all eight water treatment 
plants in an effort to ensure there was no ``Love Canal'' present 
aboard the base.\4\ Seven months prior to this visit, the State of 
North Carolina assumed primacy for the enforcement of the Safe Drinking 
Water Act.\5\ Officials at LantDiv were worried that the State might 
find a problem with Camp Lejeune's water that the Navy had not 
previously uncovered. If a problem was discovered, then further 
analysis of the eight individual systems would be done to locate the 
source of the problem.\6\ The results from the composite sample were 
released to LantDiv on 31 October 1980 and the composite samples showed 
contamination of the drinking water from PCE, TCE, dichloroethylene 
(DCE), and vinyl chloride just under the detection limits set for the 
laboratory.\7\ According to the Base Supervisory Chemist, Elizabeth 
Betz, these results were not received at Camp Lejeune until June 1982. 
Ms. Betz documented in her memorandum for the record that she did not 
know how LantDiv determined the amount of water to take from each 
system to comprise the volume used in making the composite sample. Betz 
also recognized the percentage of total volume did not accurately 
reflect the corresponding usage for each system sampled or the daily 
flow of each system. Ms. Betz ominously noted that the 1980 analysis 
showed no problems for the priority pollutants listed for the eight 
water treatment systems aboard Camp Lejeune as a whole, but the same 
may not necessarily be true for each individual water treatment system 
aboard the base.\8\ No further investigation was initiated.
---------------------------------------------------------------------------
    \4\ Camp Lejeune Water (CLW) USMC document 1818, Pdf page 2, April 
1989. These documents are found on an electronic library from ATSDR in 
the form of DVD discs accompanying the release of the Tarawa Terrace 
Water Model in 2007.
    \5\ CLW 425, March 1980.
    \6\ CLW 613, August 1982.
    \7\ 430 October 1980 and CLW 613 August 1982.
    \8\ CLW 613 August 1982.
---------------------------------------------------------------------------
    The second laboratory to find contamination in Camp Lejeune's 
drinking water was the U.S. Army Environmental Hygiene Agency (USAEHA 
lab) located in Ft. McPherson, Georgia. The laboratory was tasked by 
LantDiv to sample Camp Lejeune's treated water for an upcoming EPA 
regulation concerning dangerous compounds formed during the treatment 
of potable water known as trihalomethanes (TTHMs). The initial samples 
were collected on 21 October of 1980 and the sample was read on 31 
October 1980. The water system sampled was Hadnot Point and the 
sampling included a sample collected from the Naval Hospital's 
emergency room sink. The Laboratory Chief, William Neal, was apparently 
concerned enough to take the time to hand write:

         ``Water is highly contaminated with low molecular weight 
        halogenated hydrocarbons''

upon the analytical sheet delivered to LantDiv.\9\ This initial warning 
began a series from the USAEHA laboratory about the treated water 
produced by the Hadnot Point water treatment plant (WTP). These 
warnings took place between October 1980 through December 1981.
---------------------------------------------------------------------------
    \9\ CLW 436, October 1980.

        1.  ``Heavy Organic Interference at CHCL2BR, You Need to 
        Analyze for Chlorinated Organics by GCMS.'' \10\
---------------------------------------------------------------------------
    \10\ CLW 438, January 1981

        2.  ``You need to Analyze for Chlorinated Organics by GC/MC.'' 
        \11\
---------------------------------------------------------------------------
    \11\ CLW 441, February 1981

        3.  ``Water Highly Contaminated with other Chlorinated 
        Hydrocarbons (SOLVENTS)!'' \12\
---------------------------------------------------------------------------
    \12\ CLW 443, March 1981

        4.  ``Interferences on this Peak (CHCL2BR).'' \13\
---------------------------------------------------------------------------
    \13\ CLW 5739, December 1981, PDF page 2.

    Concurrently with the warnings from the USAEHA lab, another problem 
was discovered at the base's Rifle Range water treatment plant (WTP). 
Potable water sampling was initiated at the Rifle Range WTP in 1981 at 
the request of LantDiv. The tests were ordered in response to concerns 
about the water system's location to a nearby chemical dump.\14\ This 
chemical dump was registered with the EPA and had been in operation 
from sometime in 1959 until 1976.\15\ Between March and May of 1981 a 
series of potable water sampling revealed a similar organic 
contamination within the Rifle Range water distribution system. The 
findings precipitated a letter from LantDiv in July of 1981 which 
stated that Rifle Range well RR-97 contained low levels of organic 
contamination and two other wells were to be operated in preference to 
well RR-97.\16\ The Commanding General of Camp Lejeune then wrote the 
State of North Carolina and informed the state regulators that:
---------------------------------------------------------------------------
    \14\ CLW 5791, July 1981.
    \15\ Comprehensive Environmental Response, Compensation and 
Liability Act (Cercla) document 226, Pdf page 13, March 1982. These 
documents are found on an electronic library from ATSDR in the form of 
DVD discs accompanying the release of the Tarawa Terrace Water Model in 
2007.
    \16\ CLW 3757, Pdf page 3, July 1981.

         ``based on the laboratory analyses mentioned above and on-site 
        inspections of the landfill and the Rifle Range system, 
        LANTNAVFACENGCOM (LantDiv) officials have concluded that the 
        Rifle Range drinking water meets current drinking water 
---------------------------------------------------------------------------
        standards.''

    There was no mention to the State of the organic contamination 
found at the Rifle Range potable water system between March 1981 and 
May 1981.\17\ During this time, no known testing was performed on any 
of the 35 Hadnot Point potable water supply wells despite concurrent 
warnings from the USAEHA laboratory that Hadnot Point treated water was 
highly contaminated with (SOLVENTS)! Surprisingly, LantDiv did have 
prior experience with VOC/organic contamination problems within Naval 
owned and operated water distribution systems. One year prior to the 
discovery of VOCs in Camp Lejeune drinking water systems, two Naval 
installations experienced PCE and TCE contamination. However, something 
different occurred at Warminster Naval Air Warfare Center and Willow 
Grove Naval Air Station. The contaminated wells producing PCE and TCE 
in the base's drinking water were identified and closed.\18\ Why did 
the Navy fail to implement testing of the potable water wells for each 
water distribution system aboard Camp Lejeune after the first 
indication of contamination was discovered? Why was the Rifle Range 
potable water distribution system treated differently from the Hadnot 
Point potable water distribution system? At the time of the testing in 
1981, the Rifle Range WTP served only a few permanent houses and 
Marines temporarily training at the range. During this same time, the 
Hadnot Point WTP served the what is known as Main-side which included 
the base barracks, the Naval Hospital, and with that thousands of 
Marines, Sailors and their families. Where was the Marine Corps' 
concern for the health, safety and welfare for their Marines, Sailors 
and their families?
---------------------------------------------------------------------------
    \17\ CLW 6124, Pdf page 1, August 1981.
    \18\ Public Health Assessments for Willow Grove NAS and Warminster 
Naval Air Warfare Center, The Agency for Toxic Substance and Disease 
Registry, 2002.
---------------------------------------------------------------------------
    By the Fall of 1981, the USAEHA laboratory experienced an equipment 
breakdown which resulted in a back log of work from Camp Lejeune and 
other Department of Defense installations.\19\ A replacement laboratory 
was needed and a state certified laboratory was selected to continue 
Camp Lejeune's mandated TTHM testing. Grainger Laboratory was owned by 
Fred Grainger and Mike Hargett. The laboratory entered into a contract 
with Camp Lejeune to test the Tarawa Terrace and Hadnot point WTPs for 
TTHMs. This testing did not include testing for VOCs. The first sample 
for each of the distribution systems was collected in late April of 
1982. The samples were analyzed for TTHMs, and as was the case with the 
USAEHA lab, solvents were found not only in the Hadnot Point samples 
but also in the newly tested Tarawa Terrace water distribution system. 
Mr. Hargett then contacted Camp Lejeune's Base Supervisory Chemist, 
Elizabeth Betz, and informed her that the synthetic organic cleaning 
solvents PCE and TCE were found in both samples submitted for both 
Handot Point and Tarawa Terrace. Ms. Betz then reported the findings to 
her supervisor, Danny Sharpe who then pushed them up the chain of 
command which included the base Utilities director Fred Cone. Eight 
days later, Ms. Betz briefed Col Millice, Assistant Chief of Staff, 
Facilities, and LtCol. Fitzgerald about the April TTHM test results. Ms 
Betz stated in her memorandum for the record that:
---------------------------------------------------------------------------
    \19\ CLW 468, Pdf page 2, February 1982.

         ``It Appeared to me that they had not been informed about the 
        findings, I didn't inform them.'' \20\
---------------------------------------------------------------------------
    \20\ CLW 5176, Pdf page 5, May 1982.

    Later that same month, a second series of samples were taken from 
the Hadnot Point and Tarawa Terrace water distributions systems. This 
time there was a problem with the caps for the samples taken. However, 
Mr. Hargett advised Ms. Betz the solvents noted on the 6 May phone call 
were still present.\21\ A second Grainger contract was written in July 
1982 for additional testing of four samples taken from the water 
treatment plants for Tarawa Terrace and Hadnot Point. The first set of 
samples were collected from the raw water line which fed each plant 
from a distinct well field. The second set of samples were collected 
from the respective plant's reservoir containing treated water.\22\ The 
results of this special testing for the Hadnot Point and Tarawa Terrace 
WTPs were compiled in a formal letter to the base on 10 August 1982 by 
Grainger Laboratory chemist Bruce Babson. Mr. Babson wrote the 
Assistant Chief of Staff, Facilities:
---------------------------------------------------------------------------
    \21\ CLW 564, June 1982.
    \22\ CLW 589, July 1982.

         ``Interferences which were thought to be chlorinated 
        hydrocarbons hindered the quantification of certain 
        Trihalomethanes. These appeared to be at high levels and hence 
        more important from a health standpoint than the total 
        Trihalomethane content. For these reasons we called the 
        situation to the attention of Camp Lejeune personnel.'' \23\
---------------------------------------------------------------------------
    \23\ CLW 592, August 1982.

    Mr. Babson also concluded that the well fields for the WTPs were 
the source of the contamination found in the water treatment plants. He 
identified the contaminants as PCE and TCE.\24\ Disturbingly, Grainger 
Laboratory quantified TCE in a sample taken from the Camp Lejeune Naval 
Hospital at 1,400 ppb. Instead of immediate action to test each and 
every potable water well for VOCs/organic and ensure the health, safety 
and welfare of the service personnel and their families aboard Camp 
Lejeune was protected, an excuse was given to explain away Grainger's 
confirmation of what the USAEHA and Jennings Laboratories both found in 
the potable water samplings from October of 1980.
---------------------------------------------------------------------------
    \24\ CLW 592, August 1982.
---------------------------------------------------------------------------
    According to the recent USMC informational booklet for the Camp 
Lejeune Historic Drinking Water problem:

         ``Base officials compared these results against EPA 
        recommended levels and found the average levels of TCE and PCE 
        were within those levels and thus not thought to be a health 
        concern.'' \25\
---------------------------------------------------------------------------
    \25\ USMC CL Booklet, Page 7, July 2010.

    The immediate problem with the current Marine Corps rendition of 
why no further action was taken after Grainger's warnings is that their 
assertion that the TCE and PCE levels were within the EPA's recommended 
levels is not true. The Base Supervisory Chemist, Elizabeth Betz noted 
in her findings that the levels of PCE at Tarawa Terrace exceeded the 
EPA's recommended level of 40 ppb for long term exposures. Furthermore, 
the May TCE reading of 1,400 ppb taken from the Emergency Room sink of 
the base Naval Hospital was summarily dismissed with no explanation 
offered to explain the existence of the extreme levels of the chemical 
found in the sample or why the levels dropped to 20 ppb in subsequent 
testing. Only by arbitrarily dismissing the May 1,400 ppb TCE value 
does the Hadnot Point sampling fall into line with the EPA's 
recommended values for chronic exposure to TCE.\26\ Three months after 
Betz's August 1982 memorandum for the record, the base performed the 
quarterly testing for TTHMs and sent the samples to Grainger 
Laboratory. Once again the analytical data sheets noted interference in 
the samples from Tarawa Terrace and Hadnot Point.\27\ Ms. Betz then 
called the Grainger Chemist, Bruce Babson to discuss a typographical 
error on his report. Mr. Babson then expressed his concern that the 
solvents which interfered in Hadnot Point's testing which had 
previously dropped were relatively high again.\28\ Ms. Betz memorandum 
was forwarded to the Assistant Chief of Staff, Facilities and then on 
to the newly hired base Environmental Engineer, Robert Alexander.\29\ 
From that point on, the prolific note keeping and memorandums written 
by Elizabeth Betz inexplicably cease.
---------------------------------------------------------------------------
    \26\ CLW 606, Pdf page 2, August 1982.
    \27\ CLW 5183. Pdf page 25, December 1982.
    \28\ CLW 698, December 1982.
    \29\ CLW 703, January 1983.
---------------------------------------------------------------------------
    A prior flawed Government Accountability Office (GAO) sponsored 
investigation into the Camp Lejeune drinking water contamination cited 
entirely different reasons why the base failed to act after Grainger's 
warnings in August 1982:

         ``they had limited knowledge of these chemicals; second there 
        were no regulations establishing enforceable limits for these 
        chemicals in the drinking water; and third they made 
        assumptions about why the levels of TCE and PCE varied and 
        about the possible sources of the TCE and PCE.''

         ``Specifically, because the levels of TCE and PCE varied, they 
        attributed the higher levels to short term environmental 
        exposures, such as spilled paint inside a water treatment 
        plant, or to laboratory or sampling errors. Additionally, in an 
        August 1982 memorandum, a Camp Lejeune official suggested that, 
        based on the sampling results provided by the private 
        laboratory, the levels of PCE detected could be the result of 
        using coated pipes in the untreated water lines at Tarawa 
        Terrace.\30\
---------------------------------------------------------------------------
    \30\ Report Defense Health Care: Activities related to Past 
Drinking Water Contamination at Marine Corps Base Camp Lejeune, 
Government Accountability Office, Pdf Page 30, May 2007.

    Missing from the GAO's limited review of the Camp Lejeune document 
inventory are two key documents which undermine the validity of the GAO 
investigation. The first document is an unusual Base Order written in 
1974. Unlike most military orders, there are no references indicating 
on what authority or guidance the general issued the order. Base Order 
5100.13B was written to inform the general's command about the ``Safe 
Disposal of Contaminants or Hazardous Waste.'' What is significant 
about this order was that it clearly demonstrated that the Marine Corps 
knew at least by 1974, or perhaps earlier if the prior copies of this 
---------------------------------------------------------------------------
order are ever found:

        <bullet>  Organic solvents were hazardous materials, and

        <bullet>  Improper disposal practices create hazards such as 
        the contamination of drinking water.

    The designated disposal sites were the dumps located at the Rifle 
Range.\31\ Last year the Marine was asked by Senators Burr and Hagan 
from North Carolina whether the Marine Corps agreed that Base Order 
5100.13B declared organic solvents hazardous. The official Marine Corps 
reply signed by Brigadier General Regner was:
---------------------------------------------------------------------------
    \31\ CLW 5996, Pdf page 2, June 1974.

         ``The 1974 Base Order Speaks for itself.'' \32\
---------------------------------------------------------------------------
    \32\ USMC Response to Senator Burr and Hagan Queries on Camp 
Lejeune, Pdf page 3, July 2009.

    The second document was a set of potable water instructions dating 
back to 1963. The instructions are known as BUMED 6240.3B (1963) and 
revision 3C (1972). The Bureau of Medicine and Surgery (BUMED) was the 
entity within the Department of the Navy responsible for setting 
potable water standards for the Navy. While there were no set specific 
standards for VOCs/organic solvents within the instruction, there were 
preventive measures and requirements that if followed should have led 
to the disqualification for use, of most if not all, of the 
contaminated wells found at Camp Lejeune. The regulations contained a 
set of definitions to clearly specify the meaning of terms used within 
the document. Three key terms illustrate and provide a clear 
understanding that the Marine Corps had the ability to protect their 
---------------------------------------------------------------------------
Marines, Sailors, and families as early as 1963.

         Health Hazards means any conditions, devices or practices in 
        the water supply system and its operation which create, or may 
        create, a danger to the health and well-being of the water 
        consumer. An example of a health hazard is a structural defect 
        in the water supply system whether of location, design, or 
        construction, which may regularly or occasionally prevent 
        satisfactory purification of the water supply or cause it to be 
        polluted from extraneous sources.

         Pollution as used in these standards, means the presence of 
        any foreign substance (organic, inorganic, radiological, or 
        biological) in water which tends to degrade its quality so as 
        to constitute a hazard or impair the usefulness of the water.
         Chemical Characteristics Drinking water shall not contain 
        impurities in concentrations which may be hazardous to the 
        health of the consumers. It should not be excessively corrosive 
        to the water supply system. Substances used in its treatment 
        shall not remain in the water in concentrations greater than 
        required by good practice. Substances which may have 
        deleterious physiological effect or for which physiological 
        effects are not known, shall not be introduced into the system 
        in a manner which would permit them to reach the consumer.\33\
---------------------------------------------------------------------------
    \33\ CLW 144, December 1972

    To date, the Marine Corps has failed to provide Congress, the media 
and their Marines, Sailors and their families with a clear answer as to 
why these orders were not reviewed in the Commandant's Blue Ribbon 
panel and why the Navy's BUMED 6240.3B and 3C regulations were not 
followed. Four years after the closure of Hadnot Point well HP 602, the 
BUMED 6240.3C order was canceled and revised with NAVMEDCOMIST 6240.1. 
Missing from the new instructions were the definitions for Health 
Hazards, Pollution and the strong language found within the Chemical 
Characteristics section of BUMED 6240.3B and C. The new regulations 
replaced what was then a more advance and comprehensive potable water 
standard with a new standard which was in agreement with the Safe 
Drinking Water Act.\34\ The existence of Base Order 5100.13B married 
with BUMED 6240.3B and C meant that the Marine Corps possessed at least 
an operational knowledge that organic solvents and other hazardous 
materials could and did contaminate the groundwater aboard Camp Lejeune 
as early as 1974 and as such their groundwater wells were vulnerable. 
Another word for this type of knowledge and lack of due care is called 
gross negligence.
---------------------------------------------------------------------------
    \34\ Naval Medical Command Instruction 6240.1, Naval Military 
Personnel Command, December 1988.
---------------------------------------------------------------------------
    The other fallacy cited above and contained in the GAO report was 
the assertion that vinyl lined asbestos coated pipes were the possible 
source for PCE contamination for the base. The basis for this fallacy 
is contained in a memorandum written by Elizabeth Betz asserting her 
opinion that she believed the contamination was possibly the result of 
vinyl line asbestos coated pipes in the raw water lines at Tarawa 
Terrace.\35\ The basis for this assumption was apparently due to a 9 
April 1980 EPA bulletin which cited vinyl lined asbestos coated pipes 
as a source for drinking water contamination. The EPA also noted that 
their suggested action guidance did not condone the presence of any 
level of PCE contamination in drinking water.\36\ The problem with 
Betz's conclusion was that according to base construction records, no 
vinyl lined asbestos coated pipes were ever used in any of the base's 
potable water distribution systems.\37\
---------------------------------------------------------------------------
    \35\ CLW 5176, Pdf page7, August 1982.
    \36\ CLW 391, April 1980.
    \37\ CLW 3884, Pdf page 4, September 1982
---------------------------------------------------------------------------
    Shortly after the Bruce Babson's August Grainger Laboratory report 
arrived on the desk of the Assistant Chief of Staff, Facilities, a 
draft copy of the Navy's Naval Assessment and Control of Installation 
Pollutants (NACIP) Initial Assessment Study (IAS) for Camp Lejeune 
arrived as an attachment to a 5 August 1982 letter from Wallace Eakes 
of LantDiv to Col Marshall at Camp Lejeune. Mr. Eakes requested Col. J. 
T Marshall, Assistant Chief of Staff, Facilities to review the Draft 
IAS for completeness, accuracy and concurrence for recommendations no 
later than 25 August 1982.\38\ Col. Marshall completed his assigned 
task and replied on 25 August 1982. Contained in his comments for the 
Draft IAS:
---------------------------------------------------------------------------
    \38\ CLW 6332, Pdf page 3, August 1982.

         ``It is important to note that accuracy of the data provided 
        by U.S. Army Laboratory is questionable. It is recommended that 
        TTHM information be de-emphasized throughout the report.'' \39\
---------------------------------------------------------------------------
    \39\ CLW 6332, Pdf page 2, August 1982.

    There was no mention of the August 1982 Grainger letter confirming 
the U.S. Army laboratory's findings from October 1980 and warning him 
that the potable water for Hadnot Point and Tarawa Terrace was highly 
contaminated with VOCs/Organic solvents in the Colonel's 25 August 
reply to LantDiv. Four months later a change order to the IAS was 
executed to include two new disposal sites located on the base after 
the IAS team departed in March 1982. The base's potable water 
contamination was not mentioned in the change order, nor were there any 
requests made to test the wells for Hadnot Point and Tarawa Terrace to 
locate the specific wells with VOC/Organic solvent contamination.\40\
---------------------------------------------------------------------------
    \40\ Cercla 2059, December 1982.
---------------------------------------------------------------------------
    The Initial Assessment Study for Camp Lejeune was released in April 
of 1983 and listed 76 potentially contaminated sites aboard the base 
and 22 of these sites warranted further investigation in the form of a 
Confirmation Study phase of the NACIP program.

         ``The Study concludes that, while none of the sites pose an 
        immediate threat to human health or the environment, 22 warrant 
        further investigation under the Navy Assessment and Control of 
        Installation Pollutants (NACIP) Program to assess potential 
        long-term impacts. A confirmation study is recommended to 
        confirm or deny the existence of the suspected contamination 
        and quantify the extent of any problems which may exist.'' \41\
---------------------------------------------------------------------------
    \41\ CLW 709, Pdf page 3, April 1983.

    Nowhere in the 221 page document were there any recommendations to 
test any of the potable water wells for Tarawa Terrace and only 2 out 
of 35 wells were recommended for testing at Hadnot Point.\42\ How could 
the official Navy environmental (NACIP IAS) study for Camp Lejeune 
conclude there was no immediate threat to human health aboard the base 
if the report failed to address the Army and Grainger laboratory's 
findings of VOC/Organic solvents in two of the base's potable water 
system? A month after the release of the IAS, LantDiv Environmental 
Engineer and Engineer in charge of the Confirmation study for Camp 
Lejeune wrote a letter apparently addressing the ongoing VOC/Organic 
solvent contamination aboard the base. Unfortunately, that letter has 
since vanished. Sixteen years later the Wallmeyer letter, as it has 
since come to be known, was the subject of a four week document search 
at LantDiv.\43\ The letter was reportedly never found. According to a 
subsequent reference in a message from April of 1985, the Wallmeyer 
letter attempted to address the VOC/Organic Solvent contamination 
problem with the base's potable water system.\44\ The problem was that 
the official Confirmation Study did not include any of the measures 
described in the message referencing the Wallmeyer letter. Was LantDiv 
attempting to quietly remediate the VOC/Organic solvent drinking water 
contamination without full disclosure of the problem to the State and 
Federal agencies?
---------------------------------------------------------------------------
    \42\ CLW 709. Pdf page 29, April 1983.
    \43\ CLW 3039, Pdf pp 5&6, February 1999.
    \44\ CLW 1195, April 1985.
---------------------------------------------------------------------------
    As part of our investigation into what transpired aboard Camp 
Lejeune prior to the official announcement of the drinking water 
contamination in December 1984, we located and interviewed Mike Hargett 
and Bruce Babson, both formerly of Grainger Laboratory. Curiously, 
neither of them were ever contacted by either the GAO or the 
Commandant's investigations into the Camp Lejeune drinking water 
contamination. Mr. Hargett informed me that he had been asked by the 
Base Supervisory Chemist to accompany her in a meeting to explain the 
significance of Grainger's findings. Mr. Hargett stated that the 
meeting lasted less than five minutes before they were dismissed. 
Frustrated by the Marine Corps' recalcitrance, Mr. Hargett then tipped 
off the State of North Carolina about the problems with the base's 
potable water system. In June of 1983, a letter from the State's 
environmental engineer, Mr. Elmore, arrived on Col. Marshall's desk 
requesting the original copies of Grainger's analytical data sheets 
instead of the tables summarizing them previously submitted by the 
Marine Corps.\45\ The analytical data sheets were exclusive property of 
the Marine Corps and written upon them were Bruce Babson's warnings 
that PCE and TCE were interfering with the TTHM testing. Six months 
later this request was formally denied by the new Assistant Chief of 
Staff, Facilities, Col. Lilley. Col. Lilley advised Mr. Elmore that the 
original reports were not required and thus not submitted to the 
state.\46\ Sadly, the State of North Carolina agreed with the Marine 
Corps assertion and another opportunity to stop the drinking water 
contamination aboard Camp Lejeune slipped by and was forgotten. Bruce 
Babson's notations and warnings were toned down but the asterisk 
notating interferences with the TTHM testing remained on almost every 
known Grainger Laboratory analytical data sheet through the Summer of 
1984. Ironically, it was another contamination problem with a different 
chemical which forced the VOC/Organic solvent drinking water 
contamination issue to the surface. When it did surface, the VOC/
Organic solvent drinking water contamination was subsequently used to 
hide a more sinister contaminant, benzene.
---------------------------------------------------------------------------
    \45\ CLW 940, June 1983.
    \46\ CLW 6348, December 1983.

Massive fuel leaks at the Hadnot Point Fuel Farm.

    The Hadnot Point Fuel Farm (HPFF) was constructed on the Southeast 
corner of Holcomb Blvd and Ash Street sometime in 1941. The fuel farm 
was comprised of fourteen fuel tanks buried in the ground and one large 
600,000 gallon tank located above ground. The fuel farm was located in 
what is now known as the Hadnot Point Industrial area and within 1,200 
feet from potable water well HP-602 which was also constructed in 
1941.\47\ The first documented fuel leak at the HPFF occurred in 1979 
when an estimated 20,000 to 30,000 gallons of fuel leaked from an 
underground valve.\48\ A condition survey for the HPFF was scheduled 
the following year and other problems were found at the HPFF. The 
LantDiv engineer concluded that because of age, failure to clean the 
tanks, and lack of maintenance, there had been a general condition of 
corrosion and deterioration of the tanks and connecting pipelines. Many 
of the interconnecting valves and flanges could not be inspected 
because they were buried and/or could not be located. The engineer 
recommended replacing the connecting piping, the inspection of all of 
the tanks for leaks and repair existing leaks.\49\ The Condition Survey 
was followed in 1981 with a Military Construction Data project number 
LE201M to repair the HPFF facilities and $537,200 was then allocated to 
clean and repair the petroleum tanks.\50\ By March of 1983, Navy and 
Marine Corps officials determined that piece meal rehabilitation of the 
HPFF was not cost effective and in 1985, the recommendation was made to 
replace the HPFF with a new facility.\51\ The fuel farm was finally 
replaced in 1990.
---------------------------------------------------------------------------
    \47\ Cerlca 417, Pdf page 5, December 1988.
    \48\ CLW 709. Pdf page 133, April 1983.
    \49\ Cercla 96, Pdf pp 11-16, June 1980
    \50\ Cerlca 96, Pdf page 17, March 1981.
    \51\ Cerlca 96, Pdf page 29, August 1989.
---------------------------------------------------------------------------
    There are no known records indicating that the Marine Corps made 
any attempt to remediate the 20,000 to 30,000 gallon 1979 fuel leak 
between 1980 and 1988. In May 1988 correspondence, the Assistant Chief 
of Staff, Facilities finally notified the State of North Carolina that 
a 15 foot thick fuel plume was contaminating the groundwater underlying 
the bulk fuel facility.\52\ The base Staff Judge Advocate, Col. Tokarz, 
noted that the fuel farm was losing fuel into the groundwater at the 
rate of 1,500 gallons per month. The colonel also warned that delays 
will result in an indefensible waste of money and a continuing threat 
to human health and the environment.\53\
---------------------------------------------------------------------------
    \52\ Cercla 96, Pdf page 30, August 1989.
    \53\ Cercla 96 Pdf page 34, March 1988
---------------------------------------------------------------------------
    Knowing the existence of a massive 20,000-30,000 gallon fuel leak 
in 1979 which drained into the ground at the Hadnot Point Industrial 
area with no attempts to remediate or recover the lost fuel until at 
least 1989, leads a rational, prudent person to speculate why it took 
the Marine Corps five years to sample the nearest potable water well 
(HP-602) to ensure the well was free of fuel contamination. After all, 
BUMED 6240.3B and version C carried an obligation for the Marine Corps 
to make sure potable water was obtained from the most desirable source 
feasible and efforts be made to prevent or control pollution of the 
source.\54\ Where are the documents detailing these required efforts? 
Instead, the Marine Corps relies on their assertion that VOCs, 
including the SVOC benzene, were not regulated by the Safe Drinking 
Water Act until the late 1980's and early 1990's to avoid addressing 
the issue.\55\ Does there have to be a set standard or maximum 
containment level for a polluter to be negligent in their duties to 
protect human health? Where does common sense enter into the equation? 
Prior to 1984, there are no known records indicating that the Marine 
Corps took any action to protect the water supply for well HP-602 from 
fuel contamination and consequently the entire Hadnot Point water 
distribution system.
---------------------------------------------------------------------------
    \54\ CLW 144, Pdf page 3, August 1972.
    \55\ USMC CL Booklet, page 8, July 2010.
---------------------------------------------------------------------------
    One of the few potable water wells selected for sampling by the 
Navy's NACIP program was well HP-602. The 1982 draft copy of the IAS 
report stated that well HP-602 was designated for sampling in the 
Confirmation study because it was located 1,100 feet down-gradient from 
the HPFF and actively pumping.\56\ The final IAS report released in 
April 1983 detailed the fuel losses for the HPFF totaled somewhere 
between 20,000 to 50,000 gallons of fuel. This figure became the basis 
for the fuel loss estimates for the public, Congress and more 
importantly, the Agency for Toxic Substances and Disease Registry 
(ATSDR), the agency tasked with studying the health effects resulting 
from the potential exposures at Camp Lejeune. This misconception 
remained until 2010 when it was discovered that the fuel losses at the 
HPFF amounted to much more than what was previously disclosed by the 
Navy and the Marine Corps. Once again a reference from the current Camp 
Lejeune informational brochure is appropriate. According to the Marine 
Corps:
---------------------------------------------------------------------------
    \56\ Cercla 332, Pdf page 52, June 1982.

         ``Question: Has the Marine Corps intentionally withheld 
---------------------------------------------------------------------------
        information from ATSDR in order to delay their studies?

         Answer: No. The Marine Corps has made extraordinary efforts to 
        provide ATSDR access to any potentially relevant information we 
        control. We recognize that this issue deals with complex 
        science, and we have been working with ATSDR to get our former 
        residents the answers they deserve in a timely manner.
         The Marine Corps does not benefit in any way from delays to 
        ATSDR's work. The people who were exposed are our family 
        members and fellow Marines. We are much as anyone, want to be 
        able to give them accurate answers in a timely manner.'' \57\
---------------------------------------------------------------------------
    \57\ USMC CL Booklet, page 18, July 2010.

    In March of last year, the ATSDR stumbled across a previously 
undisclosed web portal belonging to the Navy. A sub contractor to ATSDR 
was inadvertently given access to this portal by a Marine Corps' 
librarian. Contained within the NavFacEngCom's Underground Storage Tank 
(UST) web portal were documents previously withheld from the ATSDR 
including details on the size and scope of the fuel loss from the 
Hadnot Point Fuel Farm underground storage tanks. According to 
documents discovered in the portal, the Marine Corps lost 1.1 million 
gallons of fuel at the HPFF over the course of the 49 year operational 
history of the facility. Much of this fuel was located within 300-1,100 
feet away from well HP-602. The fuel was found at all levels in the 
aquifer including the deep aquifer.\58\ Where is the Navy's 
notification to ATSDR advising them of the existence of this portal and 
the 1.1 million gallons of fuel trapped in the ground at Hadnot Point? 
What does the Navy and the Marine Corps stand to gain if the public, 
the scientists and Congress were not aware of the extreme nature of the 
loss fuel at the HPFF?
---------------------------------------------------------------------------
    \58\ Excerpt from Document #1185. This document was found by ATSDR 
within the recently discovered limited access web portal for the Navy's 
Underground Storage Tank Program, NavFacEngCom.
---------------------------------------------------------------------------
    The Confirmation Study for Camp Lejeune commenced in May of 1984 
with the release of the Work and Safety Plan. The work plan detailed 
how and where the sampling for the Confirmation Study was executed. The 
plan also detailed the schedule of the project and what reports were 
required by the contractor. The contractor was an Environmental 
Engineering firm from Gainesville, Florida known as Environmental 
Sciences Engineering (ESE). A monthly progress report was required by 
the 15th day of each month for the duration of the contract. The tests 
results were scheduled to be evaluated between June and August and a 
draft report prepared by the end of August. The Final report was 
scheduled to be completed by 10 September 1984 and the presentation 
made on the same date.\59\ According to the May/June progress report, 
work was underway and 14 ground water monitoring wells were installed. 
The engineer noted a one week delay due to decontamination of 
equipment.\60\ The June/July progress report advised the LantDiv 
engineer in charge of the Confirmation study that 36 of 75 wells (this 
number included monitoring wells drilled for the study) were sampled. 
The sampling included site 22, the Hadnot Point Fuel Farm and well HP-
602 (sampled 6 July 1984). A two week delay was noted due to equipment 
problems and the re-drilling of five new wells to replace wells 
inadvertently contaminated by an ESE subcontractor. The project was 
scheduled for completion on 4 August 1984. The samples were shipped to 
ESE laboratory in Gainesville, Florida for analysis.\61\ After the 15 
July progress report all documentation regarding ESE's efforts on the 
Confirmation Study ceased until January of 1985. The August progress 
report and all subsequent progress reports are missing, as is the draft 
report summarizing the evaluation of data from the sampling.
---------------------------------------------------------------------------
    \59\ Cerlca 337, Pdf page 33, May 1984.
    \60\ Cercla 3428, June 1984.
    \61\ Cercla 3429, July 1984.
---------------------------------------------------------------------------
    The only clue to what transpired during the missing months between 
July 1984 and December 1984 recently surfaced a few months ago when we 
located a State of North Carolina document written by Rick Shiver, N.C. 
Regional Hydrologist. The document was titled Groundwater Pollution 
Source Inventory and discussed the HPFF and the multiple leaking 
underground storage tanks (UST). The inventory is dated 1 August 1984 
and located in the groundwater pollution box is a handwritten circle 
indicating that the groundwater pollution was confirmed.\62\ At the 
time of this report, the State of North Carolina was supposedly not 
privy to the details of the Confirmation Study then underway at Camp 
Lejeune. The contractor was not required and did not report their 
findings to anyone else but the Navy personnel at LantDiv. What basis 
did Mr. Shiver have to conclude that the groundwater at the HPFF was 
contaminated with gasoline three months before the Marine Corps 
allegedly received ESE's Confirmation Study report revealing fuel 
contamination at the HPFF and potable well HP-602.
---------------------------------------------------------------------------
    \62\ North Carolina Groundwater Pollution Inventory, Rick Shiver, 
August 1980
---------------------------------------------------------------------------
    Last year Senators Burr and Hagan posed a series of questions about 
Camp Lejeune to the Marine Corps. One of these questions asked why the 
Navy and Marine Corps waited until 30 November 1984 to close well HP-
602. The Navy/Marine Corps replied:

         ``According to the record, the Marine Corps did not ``wait'' 
        to shut down well HP-602. Well HP-602 was taken out of service 
        as of 21 November 1984 as part of the normal rotation of well 
        (CLW 1089). Records indicate that the results from the 6 July 
        1984 sample were received by the base on 30 November 1984 (CLW 
        4546). Upon receipt of the sample results, well HP-602 was 
        never reactivated and was permanently taken out of service.'' 
        \63\
---------------------------------------------------------------------------
    \63\ USMC Response to Senator Burr and Hagan Queries on Camp 
Lejeune, Pdf page 11, July 2009.

    The document titled CLW 1089 is a Question and Answer sheet 
prepared for the base Environmental Engineer, Robert Alexander in 
advance of a media interview concerning the contamination found at Camp 
Lejeune. Judging from the context of the document, mainly the omission 
of well HP-651 discovered contaminated in February 1985, the document 
was most likely written in December 1984. Mr. Alexander stated that 
benzene and industrial solvents were found in well HP-602 and then 
cited test results implying they were the results which closed well HP-
602 in November of 1984. In fact, the test results on the Q&A sheet 
were collected on 3 December 1984, after the 30 November 1984 date in 
which the Marine Corps states that the base was allegedly notified that 
well HP-602 was contaminated and then closed. This mischaracterization 
of why well HP-602 was closed remained a fact until 2009. Mr. Alexander 
then wove a false sense of security for those potentially exposed by 
informing the community that all of the wells were located in the 
industrial area approximately 1 mile from the barracks.\64\ Did this 
mean that the wells only served the shops and offices in the industrial 
area and not the barracks? If well 602 was closed as a result of the 
receipt of ESE's Confirmation Study results, then why was the July 1984 
380 ppb finding omitted from the Q&A sheet? If well HP-602 was taken 
off line due to a normal rotation, then where are the well and plant 
production log books to support the Navy/USMC position? To date, the 
log books are all missing from the historical record for Camp Lejeune. 
The Navy and Marine Corps also cite CLW 4546 as evidence that they 
closed well HP-602 upon receipt of the ESE Confirmation Study. The 
document was written after the Bob Alexander Q&A sheet and at least 
three months after well HP-602 was closed.\65\ The lack of primary 
supporting evidence on how the contamination at Hadnot Point was 
discovered is extremely disturbing. Why is everyone trusting the very 
entity who polluted the drinking water aboard Camp Lejeune to tell and 
not show us how it happened? Where is the November transmittal sheet 
for the ESE Confirmation Study? Where is the draft ESE Confirmation 
Study due in August 1984? Where is the telephone record log or 
memorandum to the base ordering them to close well HP-602 on 30 
November 1984? Why was the Hadnot Point WTP tested for benzene only 
after the contaminated well was closed? Where are the missing progress 
reports from ESE? Where are the missing well and plant production log 
books? Every shred of evidence which would either condemn the Navy and 
Marine Corps or exonerate them is missing. Why?
---------------------------------------------------------------------------
    \64\ CLW 1089, December 1984.
    \65\ CLW 4546, February 1985.
---------------------------------------------------------------------------
    A December 1984 base news paper article assured their readers that 
none of the organic compounds found in the base's water were listed 
under the Safe Drinking Water Act. The article ended with a chilling 
quote from the base environmental engineer, Robert Alexander:

         ``Every effort will be made to maintain the excellent quality 
        water supply traditionally provided to the residents of Camp 
        Lejeune.'' \66\
---------------------------------------------------------------------------
    \66\ Cercla, 523, December 1984.

    Finally on 8 January 1985 a memo from LantDiv indicated that the 
Navy agreed to officially look at the other systems on the base for 
possible drinking water contamination. ESE, the Confirmation Study 
contractor was then assigned the task to sample all of the wells on the 
base for VOCs.\67\ The ESE Evaluation of Data Report was released a 
week later. According to the project schedule previously discussed, the 
report was due in September 1984 and was four months late. Within the 
report, ESE indicated that there was extensive fuel contamination at 
the HPFF. The contractor wrote in their report:
---------------------------------------------------------------------------
    \67\ CLW 1105, January 1985.

         ``Of extreme importance is the high level of benzene (380 ppb) 
        detected in the sample collected from the deep water supply 
        well No. 602 (Well 22GW3). This benzene concentration far 
        exceeds the 10 to minus 5 human health risk limit of 6.6 ppb; 
        therefore, the use of this well should be discontinued 
---------------------------------------------------------------------------
        immediately.''

    On the margin a curious handwritten from an unknown LantDiv 
official note reads:

         ``We must send them our (1141's) report on well data, what it 
        means and what wells to keep shut down.''

         ``The absence of contamination at Well 22GW2 indicates that 
        the migration pathway is deep and not shallow.'' \68\
---------------------------------------------------------------------------
    \68\ Cercla 388, Pdf pp 48-52, January 1985.

    The Evaluation of Data report did not discuss the VOCs found in 
Tarawa Terrace beginning in 1982 and no wells in that system were 
sampled during the July 1984 testing period. The report also noted that 
subsequent to the July 1984 testing, well HP 602 experienced a dramatic 
increase in organic solvents after further testing by LantDiv. They 
concluded that the main industrial area was a logical source of the 
solvents.\69\ This industrial area included the HPFF, the base 
maintenance shops, and building 1115 (the former Fleet Refueling and 
Service area). Also included in the industrial area were several water 
supply wells, among them was well HP-602. These wells all served the 
Hadnot Point WTP and were a source of drinking water for the service 
men, women and their families living within the treatment plant's 
service area. Later that year, when the State of North Carolina asked 
for copies of the ESE report, the Marine Corps refused:
---------------------------------------------------------------------------
    \69\ Cercla 388, Pdf page 52, January 1985.

         ``as the Marine Corps disagrees with the conclusions in this 
        report, it will not release a copy of it to any outside 
        agency.'' \70\
---------------------------------------------------------------------------
    \70\ CLW 4869, Pdf page 5, October 1985.

VOC contamination in well HP-651 and Tarawa Terrace

    By then end of January 1985 it appeared that LantDiv and base 
officials had a handle on the VOC contamination found at Hadnot Point. 
They had closed 10 supply wells for the system and the water treatment 
plant appeared to be free of benzene and TCE. Two phone calls from 
residents in Paradise and Berkley manner set off a series of events 
which ultimately changed the course of the contamination story. The 
calls were concerning a gasoline smell in the drinking water provided 
by the Holcomb Boulevard WTP. The calls resulted in the discovery of a 
leaking generator fuel line at the treatment plant allowing gasoline to 
collect in the plant's reservoir. The plant was shut down and two 
connecting transfer valves were opened allowing Hadnot Point to supply 
water to the service area served by Holcomb Boulevard.\71\ Prior to 
1972, the Holcomb Blvd area was serviced by the Hadnot Point WTP and 
the intra-connection was preserved when the new plant began production. 
From January 27th through February 4th, Hadnot Point supplied all the 
treated water for Hadnot Point and the Holcomb Blvd systems. During 
this time, the Holcomb Blvd system was repeatedly flushed and cleaned. 
The state was brought in and split water samples were taken after the 
plant was cleaned.\72\ However, unbeknownst to Navy and Marine Corps 
officials, one contaminated well had been missed in earlier testing for 
VOCs.
---------------------------------------------------------------------------
    \71\ CLW 4514, February 1985.
    \72\ CLW 4546, February 1985.
---------------------------------------------------------------------------
    Well HP-651 was located along Piney Green Road and immediately 
adjacent to Lots 201 and 203, the base junkyard. Lots 201 and 203 was 
one of the 22 sites targeted for additional study but for some reason, 
well HP-651 was not selected to be sampled in July 1984.\73\ The well 
site selected in 1971 by LantDiv engineers and installed in 1972. It is 
not known whether the engineers involved in selecting the site for well 
HP-651were knew of BUMED 6240.3c and the preventive measures built into 
the Navy's potable water regulations. It was their job to know and 
comply with these regulations. How could they possibly begin to justify 
the selection of a potable water supply well site less than 300 feet 
from the base junk yard and the base VOC disposal area (site 82).\74\ 
This one well was the sole source for the horrific VOC readings found 
in the January 1985 samples taken from the Holcomb and Hadnot Point WTP 
service areas received in February of 1985.\75\
---------------------------------------------------------------------------
    \73\ CLW 709, Pdf page 18, April 1983.
    \74\ Cercla 429, Pdf page 43, August 1991.
    \75\ CLW 2253, Pdf page 2, May 1993.
    <SUP>76</SUP> CLW 5594, Pdf page 34, February 1985.
    <SUP>77</SUP> CLW 5237, Pdf page 23, February 1985.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Well 651 was sampled and closed on 4 February 1985. The tests were 
completed on 8 February 1985. Both the January and February samples 
taken from well HP-651 were contaminated with extreme amounts of 
organic solvents.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In their apparent attempt to demonstrate to the State of North 
Carolina their good stewardship of the environment, the Navy and Marine 
Corps inadvertently and independently documented the worst VOC 
contaminated supply well on the base and its corresponding affect on 
the finished water supplied to the residents of Camp Lejeune.
    The Tarawa Terrace (TT) water distribution system test results for 
VOCs were received on the heels of the confirmation of contamination in 
well HP-651. Just as Mike Hargett and Bruce Babson had warned the base 
in 1982, The Tarawa Terrace well field was highly contaminated with 
VOCs, Specifically wells TT-26 and TT-23.\78\
---------------------------------------------------------------------------
    \78\ CLW 5570, Pdf pp 18& 24, February 1985.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    A subsequent test found the finished water provided to the families 
at Tarawa Terrace contained 215 ppb of PCE.\79\ The contaminated wells 
were then immediately closed, almost three years after the initial 
warning from Mike Hargett and Grainger Laboratory.
---------------------------------------------------------------------------
    \79\ CLW 5237, Pdf page 33, February 1985.
---------------------------------------------------------------------------
    The water supply problems at Tarawa Terrace presented the Navy and 
Marine Corps a different and more complex problem than with the Hadnot 
Point and Holcomb Blvd WTPs. Like the other treatment plants, the TT 
system served a large residential population with treated water. Unlike 
the other two systems on main-side, there was not intra-connection in 
the advent of an emergency. To further complicate the issue, the 
availability of raw water for the TT well fields was limited. Even 
before the closure of wells TT-26 and 23, TT was experiencing trouble 
with the availability of raw water for the treatment plant. A memo from 
W. R. Price, the Utility System Operator General Foreman, warned that 
the existing well field was unable to keep with the demands placed on 
the TT system and that continued over use of the wells in the system 
without periodic rest could lead to well failures.\80\ With the closure 
of wells TT-26 and TT-23, Tarawa Terrace was expected to experience a 
300,000 gallon per day shortfall of water for the residents of TT.
---------------------------------------------------------------------------
    \80\ CLW 707, March 1983.
---------------------------------------------------------------------------
    On 1 March 1985, a staff meeting for the Assistant Chief of Staff, 
Facilities was held on the base. The purpose of the meeting was to 
discuss water alternatives for Tarawa Terrace. A list of seven 
alternatives was developed by Colonel Lilley, Assistant Chief of Staff, 
Facilities.

        1.  Install a new well at Tarawa Terrace. The problem with a 
        newer well was that water, in significant quantities was 
        difficult to locate at Tarawa Terrace. Estimate cost: $80,000.

        2.  Transport water via tanker trucks from other water plants. 
        However, the logistic of hauling 300,000 gallons per day was 
        questionable. Estimated cost: $2,000 per day.

        3.  Tap into existing City of Jacksonville water line under 
        Lejeune Blvd. There was a concern that the city may not be able 
        to provide the water and there was a fear that the city would 
        request reciprocating favors to the Marine Corps. Estimated 
        cost: Unknown.

        4.  Change the existing contract for Holcomb Blvd to construct 
        a water line to Tarawa Terrace immediately. The contractor was 
        thought to be unable to perform this option in the time frame 
        required. Estimate cost: Unknown.

        5.  Construction of a 8inch raw water line from Brewster Blvd 
        to Tarawa Terrace across the railroad trestle on Northeast 
        Creek. At the time, it was unknown if the state would approve 
        the measure. Estimated Cost: $75,000.

        6.  Modify Tarawa Terrace plant to include aeration or granular 
        activated carbon unit capable of removing VOCs. The alternative 
        was rejected because of they felt the modifications could not 
        be made in the time frame required. Estimated Cost: $300,000.

        7.  Re-activate and use contaminated well(s) that have been 
        closed if required to maintain adequate water levels and 
        pressure. Lack of Federal MCLs for VOCs or restrictions for 
        using VOC contaminated water is used to justify this measure. 
        However, the brief also reads ``the potential health hazards 
        must be weighed against the need and cost of providing water 
        from other sources.'' (Please see entry for BUMED 6240.3B and 
        6240.3C and note the language concerning chemicals in the 
        water: ``substances which may have a deleterious (harmful) 
        physiological effect or for which the physiological effects are 
        not known, shall not be introduced into the water system in a 
        manner which would permit them to reach the consumer.'' 
        Estimated Cost: zero.

    Alternative 5 was selected for implementation but the estimated 
completion date was 5 June 1985 and state approval for the project was 
needed. There was no discussion concerning how to provide for the 
impending water shortage during while the auxiliary line was under 
construction.\81\ Two days prior to the meeting, a letter from the 
Calgon Activated Carbon Division in response to a LantDiv inquiry about 
emergency potable water treatment systems for VOCs arrived at LantDiv. 
Calgon advised LantDiv that based on the organic solvent and its 
corresponding concentration supplied by LantDiv, they could deliver as 
system capable of treating the potable water within 24-48 hours.\82\ 
The Calgon system was never ordered According to Marine Corps 
documents, VOC contaminated well TT-23 was operated and supplied water 
to the residents of Tarawa Terrace on at least three different 
occasions until the temporary water line was completed in June of 
1985.\83\ The Tarawa Terrace WTP was finally closed on 1 March 1987. 
According to the water model completed by ATSDR in 2007, Tarawa Terrace 
remained contaminated with VOCs throughout this time period.
---------------------------------------------------------------------------
    \81\ CLW 1129, March 1985.
    \82\ CLW 6520, February 1985.
    \83\ CLW 1237, May 1985.

The USMC's Camp Lejeune contaminated drinking water media and public 
                    relations campaign.

    At no point between the first warning of a problem with the base 
water supply discovered in October 1980 and the appearance of the first 
announcement informing the residents of the base that their drinking 
water was contaminated in December 1984, were any of the residents and 
the State of North Carolina informed about the contaminants found in 
the Hadnot Point and Tarawa Terrace drinking water systems. The first 
indication of a problem from the Marine Corps was an article announcing 
the commencement of the Confirmation Study. The article appeared in the 
base newspaper and was titled ``Environmental Study kicks-off'' Col. 
Lilley advised the residents of the base that''

         ``while contractors will routinely wear personal protective 
        equipment such as chemical resistant overalls, we do not expect 
        to expose anyone to any contaminants. The results of the survey 
        are due in August 1984. If any contaminants are discovered, a 
        review of alternatives will determine action necessary to meet 
        health and environmental standards.'' \84\
---------------------------------------------------------------------------
    \84\ Cercla 132, Pdf page 6, June 1984

    What the Colonel failed to inform the residents was that they were 
already being exposed. The survey referenced in the article was the 
Confirmation Study.
    The first announcement of drinking water contamination occurred in 
December 1984 when the base newspaper informed the residents of Camp 
Lejeune that:

         ``Environmental officials here are taking precautionary 
        measures to ensure drinking water is free from possible 
        contamination.''

         ``As a result of water sampling taken on 3 December, four 
        wells in the Hadnot Point industrial area were found to contain 
        some traces of organic contamination.''

         ``none of the compounds noted in the test samples are listed 
        in the regulations under the Safe Drinking Water Act.''

         ``Testing is being conducted as part of a basewide 
        confirmation study which is currently underway to verify 
        whether any groundwater contamination exists.''

         ``Daily water samples are being taken from the water treatment 
        plant to ensure drinking water remains within prescribed 
        federal and state guidelines established by the Safe Drinking 
        Water Act.''

         ``Every effort will be made to maintain the excellent quality 
        water supply traditionally provided to the residents of Camp 
        Lejeune.'' \85\
---------------------------------------------------------------------------
    \85\ Cercla, 523, December 1984.

    On 30 April 1985, the Commanding General of Camp Lejeune issued a 
Notice to Residents of Tarawa Terrace informing them that two supply 
wells for TT were taken off line because ``minute (trace) amounts of 
several organic chemicals have been detected in the water.'' The 
general then stated there were no definitive State of Federal 
regulations for the ``compounds'' and that as a ``precaution'' he 
ordered them closed. The remainder of the memo discussed the impending 
water shortages expected at Tarawa Terrace. At no point were the 
residents informed that well TT-23 had been used to supply water to 
them after its closure.\86\ The next series of newspaper articles 
appeared in May 1985. The Jacksonville Daily News titled their article 
``Chemical discovered in Lejeune water wells.'' The article informed 
the reader that:
---------------------------------------------------------------------------
    \86\ CLW 1191, April 1985.

         ``Substances found in the wells were described today as 
        volatile organic chemical by Gunnery Sgt John Simmons of 
        Lejeune's Joint Public Affairs Office. He said he had no 
        information on whether the well water was dangerous to 
        humans.'' \87\
---------------------------------------------------------------------------
    \87\ Cercla 132, Pdf page 7, May 1985.

    The Wilmington Morning Star's article was contained more details 
and false assurances than the Daily News. The State head of the Water 
Supply Branch which regulates drinking water in North Carolina was 
---------------------------------------------------------------------------
quoted as stating''

         ``he did not think Camp Lejeune residents need to worry about 
        getting bad drinking water. I think we kind of caught it right 
        at the beginning.''

         Another paper expanded this quote to include ``It's not 
        something that has been running for two or three years.'' \88\
---------------------------------------------------------------------------
    \88\ Cercla 132, Pdf page 11, May 1985.

    Base Spokesman Gunnery Sergeant John Simmons ended the article with 
what has become a standard Marine Corps anthem regarding the Camp 
Lejeune drinking water contamination and then wrapped it in a total 
---------------------------------------------------------------------------
fabrication.

         ``Simmons stated that while there were no state or federal 
        regulations that mandate an unacceptable level of such 
        contaminants in drinking water, ``we ordered the closure of all 
        wells that showed even a trace amount.'' \89\
---------------------------------------------------------------------------
    \89\ Cercla 132, Pdf page 7, May 1985.

    These three articles and the general's notice to Tarawa Terrace 
constituted the first notifications that personnel and their families 
aboard Camp Lejeune received for an exposure that they could not touch, 
taste, see nor hear. They were relying on the Marine Corps to protect 
them and their families and for their trust they received and continue 
to receive betrayal.
    As time passed between the discovery of the drinking water 
contamination and the news reports the Marine Corps' story began to 
change. An important point to remember is that Camp Lejeune, like many 
military bases, has a large mobile population. Some families spent 
years at the base while others rotated out over a period from months to 
years. By September of 1985, the Marine Corps' story became more direct 
as evidenced by a quote from the base Environmental Engineer, Robert 
Alexander, the same person who received Betz's memo in January 1983 
concerning Grainger's tests performed on the Hadnot Point and Tarawa 
Terrace WTPs and the water provided to the system's consumers:

         ``Alexander said the 22 sites are not considered dangerous 
        because only trace amounts of contamination have been found to 
        have escaped from the dumps. He said that people had not been 
        directly exposed to the pollutants.''

         ``the last thing we want to find is that there is a large 
        piece of Camp Lejeune that can't be used because of toxic waste 
        disposal.''

         ``Alexander said there is no clear relationship between the 
        closing of the wells and any specific waste site.''

         ``The way we got onto the well problem was in sampling near 
        one of our fuel farms, or fuel storage facilities. We sampled 
        nearby wells. In one near the fuel farm, we didn't detect fuel 
        but did detect organic solvents.'' \90\
---------------------------------------------------------------------------
    \90\ CLW 4855, September 1985.

---------------------------------------------------------------------------
    The same article also informed the reader that:

         ``Eight (wells) had been tainted by small amounts of fuel and 
        solvents used to clean weapons and vehicles. Solvents found in 
        two of the wells, in a residential neighborhood at the northern 
        edge of the base, have been tentatively linked to civilian dry-
        cleaning firms in nearby Jacksonville.''

         ``No one has been harmed by the wastes.''

         ``Linton (EPA) said the most serious problem at Camp Lejeune 
        was contamination of the groundwater with solvents that are 
        suspected of causing cancer.''

         ``Col. Tiebout, Camp Lejeune's assistant chief of staff for 
        facilities characterized all of the actions so far_closing 
        wells, relocating the day care center, and extensive testing_as 
        precautionary measures.'' \91\
---------------------------------------------------------------------------
    \91\ CLW 4855. September 1985.

    In the public arena, fact was becoming fiction and the Marine 
Corps' spin on what transpired at the base between 1980 and 1984 was 
rapidly solidifying into reality. Behind the scenes, the EPA moved to 
force Camp Lejeune onto the National Priority List (NPL) also known as 
the Superfund list. In a meeting which took place at the base in 
November of 1985, Robert Alexander told the EPA that their contractor's 
report was in error and resisted the idea of placing the base on the 
NPL.\92\ Somehow or another, the EPA walked away with the idea that no 
contamination was detected in treated potable water at the Hadnot Point 
WTP.\93\ Two weeks after this meeting, the treated water at the Hadnot 
Point WTP was sampled and found to contain benzene in the extreme 
amount of 2,500 ppb.\94\ The analytical data sheets for this test and a 
subsequent benzene finding several weeks later are both missing. There 
are no known notifications of this finding to the residents at Camp 
Lejeune and the words ``Not Representative'' were handwritten over the 
14 November 1985 test results for the Hadnot Point WTP. The false 
contention that people were not directly exposed to the pollutants 
appeared again in a media story detailing the contamination written in 
January 1986.\95\
---------------------------------------------------------------------------
    \92\ CLW 4903. November 1985.
    \93\ CLW 5430, February 1986.
    \94\ CLW 1406, January 1986.
    \95\ Cercla 132, Pdf page 18, January 1986.
---------------------------------------------------------------------------
    On Christmas Eve 1987, the Jacksonville Daily News again repeated 
Robert Alexander's September 1985 assertion that people had not been 
directly exposed to the pollutants. The paper also informed the public 
that the EPA was considering Camp Lejeune for the NPL. The 
contamination steadily devolved into ``traces of TCE, DCE and PCE.'' 
The fuel found at Hadnot Point had entirely disappeared in the 
media.\96\
---------------------------------------------------------------------------
    \96\ Cercla 132, Pdf page 20, December 1987.
---------------------------------------------------------------------------
    Colonel Thomas Dalzell, Assistant Chief of Staff, Facilities was 
designated as the overall coordinator for Camp Lejeune's incorporation 
onto the National Priorities List. In February 1988, he was featured in 
a question and answer press release which became the basis for several 
media news stories on the drinking water contamination aboard the base.

         ``Q. Is my health or the health of my family in any danger?

         A. No it's not. All the wells which we get our raw water out 
        of are continually tested and the wells that were identified as 
        being contaminated have been closed off.''

         ``Q. What about prior to 1983?

         A. At that time we were not aware of any of these particular 
        compounds that might have been in the ground water and we have 
        no information that anyone's health was in any danger at that 
        time.''

         ``Q. What are the long term effects of exposure to these 
        contaminants?

         A. Heavy long term exposure to these chemicals could cause 
        some health hazards, depending on the amount of chemical 
        ingested.''

         Q. What was the source of the contamination?

         A. Most of the sources of contamination were the motor pools 
        that existed down in the Hadnot Point area. At that time oil, 
        greases, solvents, gasoline and cleaning fluids and other types 
        of chemicals were just being dumped in the ground or dumped in 
        sewers or things like that; and we were really not aware back 
        in the 60's and 70's of the effects on groundwater 
        contamination. Now we are more aware of these things and have 
        taken appropriate precautions to ensure the ground water 
        contamination is not progressing any further.'' \97\
---------------------------------------------------------------------------
    \97\ Cercla 132, Pdf page 28, February 1988.

    How could the man placed in charge of coordinating the placement of 
Camp Lejeune on the NPL be ignorant of the fact that warnings about the 
contamination began in October of 1980? Was his claim that there was no 
knowledge of the drinking water contamination prior to 1983? Was this 
misrepresentation fabricated by design or ignorance?
    The massive Hadnot Point Fuel Farm fuel spill surfaced again in 
late 1988. The attention was more than likely due to the impending 
release of O'Brien and Gere's Final Report for the Contaminated Ground 
Water Study at Hadnot Point.\98\ The engineer's report detailed large 
losses of fuel from the HPFF and a fuel plume 15ft thick was identified 
floating in the semi confined aquifer at Hadnot Point. Once again, 
Marine Corps statements in the media did not match up what was actually 
known at the time. A Jacksonville Daily News article titled ``Base 
officials study cleanup of fuel leaks'' appeared in print in October.
---------------------------------------------------------------------------
    \98\ Cercla 417, December 1988.

         ``leaks from an underground tank system were confined to an 
---------------------------------------------------------------------------
        are two square blocks around the fuel farm.''

         ``The spill is contained by the section's natural flat terrain 
        and water table conditions.''

         ``the number of gallons leaked is unknown.''

         ``Cleanup is expected to start after final design of glue/ 
        recovery system. Recovered gasoline products are expected to be 
        recycled for use on the base.'' \99\
---------------------------------------------------------------------------
    \99\ Cercla 132, Pdf page 36, October 1988.

    By the following year, the base was ready for listing on the NPL 
and the old pattern of ``no single source had been found for the 
chemicals (solvents) along with the 1983 IAS conclusion that none of 
the 22 sites selected for further investigation posed an immediate 
threat to human health were rehashed in the media.\100\ Of the 22 
sites, the Hadnot Point Fuel Farm was designated as the first site to 
be cleaned up once Lejeune was placed on the Superfund list.\101\ Camp 
Lejeune was officially added to the NPL in October 1989. Shortly before 
the base was listed on the NPL an article appeared in the base 
newspaper featuring Base Supervisory Chemist, Elizabeth Betz who had 
laboriously documented the early stages of the contamination from May 
1982 through January 1983.
---------------------------------------------------------------------------
    \100\ Cercla 132, Pdf page 47, August 1989.
    \101\ Cercla 132, Pdf page 57, October 1989.

         ``You'd have to look at each VOC individually, but many of 
        them are carcinogens. That's the main reason we immediately 
        shut the wells down, although the levels we found in the tests 
---------------------------------------------------------------------------
        were not near the EPA limit.''

         ``We were puzzled when the chemicals showed up. At first, we 
        couldn't figure out how it had gotten into the Tarawa Terrace 
        system. Then we looked across Highway 24. There were dry-
        cleaning businesses right across the road from the housing 
        area.''

         ``Once you have identified where the potential for a threat 
        is, you start taking action to correct it. You can not leave a 
        contaminant in the groundwater.'' \102\
---------------------------------------------------------------------------
    \102\ CLW 1854, August 1989.

    The Marine Corps controlled the message and information surrounding 
the details of the drinking water contamination at Camp Lejeune. With 
the addition of Camp Lejeune onto the NPL, the Marine Corps was 
required to establish and administrative record for public use. This 
repository is located in the Onslow County Public Library. The problem 
is that a large number of personnel and families exposed at Camp 
Lejeune no longer live near the base to have access and view the CERCLA 
library. Beginning in the mid to late 2000's, the Marine Corps placed 
portions of the administrative record on the internet. The online 
library is known as the ``Baker website.'' This website is cumbersome 
and largely unusable. A brief document library appeared on the USMC's 
website but was removed after the Congressional hearing in 2007. 
Without access to original sources of information, the affected 
community is left to the mercy and whim of the Marine Corps. A 
breakthrough in gathering information occurred in 2007 with the release 
of ATSDR's water model for Tarawa Terrace. The corresponding discs 
contained electronic files of the Marine Corps' Camp Lejeune Water 
document library and the Cercla administrative record. Through these 
discs the affected community has had the opportunity to educate 
ourselves and revisit the Marine Corps' version of what happened at 
Camp Lejeune.
    Our advantage is the Corps told their lies up front. The truth is 
in their documents and they do tell a far different story than what the 
Marine Corps has asserted to the media and Congress. What is now needed 
is for an authoritative body such as Congress to work objectively with 
the Marine Corps and the affected community to ascertain what really 
happened at Camp Lejeune and what chemicals we were exposed to in our 
drinking water aboard the base. The stumbling block is that our 
government is the source and remedy for this issue and there is an 
inherent conflict of interest in securing the full and objective co-
operation of the various agencies capable of providing the answer and 
ultimate relief from our exposures.
    The recent Marine Corps informational brochure proudly boasts that 
the USMC has investigated three separate times and found to be 
exonerated of blame in the contamination.\103\ Each of these prior 
investigations occurred before the release of the initial electronic 
document library to the public and our subsequent enlightenment of what 
transpired at Camp Lejeune during the contamination period. Both the 
Commandant's 2004 Blue Ribbon panel and the Government Accountability 
Office (GAO) 2007 Report on Camp Lejeune share a common fatal flaw. 
Each report failed to identify the true extent of the fuel problem at 
Hadnot Point, the Navy and Marine Corps' own internal directives and 
standards for potable water systems aboard Naval vessels and 
facilities, including Camp Lejeune and the Marine Corps's 1974 Base 
Order identifying Organic Solvents as hazardous materials. Each report 
failed to locate and interview the owner and lead chemist from Grainger 
Laboratory concerning the events in 1982. Instead, the reports relied 
on LantDiv and base employees who, to one degree or another, seemed to 
suffer a collective form of selective memory. In fact, during the 2007 
Congressional ``Poisoned Patriot's'' hearing, Chairman Bart Stupak 
asked the EPA's Special Agent, Tyler Amon if he had personally 
recommended that obstruction of justice charges be brought up against 
the former LantDiv and base personnel who appeared to have been coached 
and were uncooperative with his investigation. Agent Amon confirmed 
that he had identified areas of concern for obstruction of justice 
charges but these recommendations were overruled by the Department of 
Justice.\104\ This same department is currently tasked with 
representing the government (the Navy and USMC) for any and all Federal 
Tort claims filed because of the Camp Lejeune drinking water 
contamination. This blatant lack of objectivity by the Department of 
the Navy continues to this day. Early this summer, the Secretary of the 
Navy established a Camp Lejeune Assistance Team (CLAT) in response to 
the pressure placed upon the Navy by Congress, the media and the 
affected community over the recent discoveries pertaining to the Hadnot 
Point Fuel Farm and the electronic portal. The CLAT is tasked to 
provide a report to Secretary Mabus. There is no input whatsoever from 
the affected community nor is there any shred of independent oversight 
or objectivity. Members of the CLAT are required not to do anything 
which may compromise the Navy's legal defense against the families. All 
in all, the CLAT, as with the prior government investigations into Camp 
Lejeune's contaminated drinking water, sounds like a classic case of 
the ``Emperor's New Clothes''
---------------------------------------------------------------------------
    \103\ USMC CL Booklet, Page 13, July 2010.
    \104\ Official Transcripts for the ``Poisoned Patriots: 
Contaminated Drinking Water at Camp Lejeune'' hearing, Subcommittee on 
Oversight and Investigations of the Committee on Energy and Commerce, 
House of Representatives. Pdf page 144. June 2007.
---------------------------------------------------------------------------
    Perhaps one the most important single recent event in the Camp 
Lejeune contaminated drinking water story occurred last April when the 
ATSDR withdrew their flawed public health assessment (PHA) for Camp 
Lejeune. The assessment was fraught with errors including but not 
limited to, improper usage of exposure duration and dosage models used 
to characterize our risks for adverse health outcomes, the 
disappearance of the assessments supporting references and interviews, 
and the omission of benzene from the 1997 Camp Lejeune Public Health 
Assessment.\105\ The Camp Lejeune PHA failed to recognize that our 
exposures on the base surpassed mere occupational settings. The models 
used to evaluate our exposures failed to account for the fact that the 
resident population on the base was exposed 24 hours a day and 7 days a 
week throughout the year. The PHA also underestimated the amount of 
contaminated water consumed by the personnel exposed on the base. To 
add insult to injury, the supporting interviews and documentation for 
the agency's work on the assessment were allegedly ``accidently 
destroyed'' by a contractor after the assessment was published. What 
this meant, was that there was no way for other scientists or the 
affected community to fact check ATSDR's work. The breaking point for 
ATSDR came when members of the Community Assistance Panel (CAP) for 
Camp Lejeune correctly identified that well HP-602 was discovered 
contaminated with fuel products while the well was actively pumping 
water for the Hadnot Point Water Treatment Plant. ATSDR's leadership 
found their prior position that no direct proof existed that benzene 
was in our water, suddenly untenable. On 28 April 2009, the ATSDR 
withdrew their Camp Lejeune PHA at our CAP meeting held in Atlanta. 
This event was the first time a PHA was withdrawn in the agencies 
history.
---------------------------------------------------------------------------
    \105\ ATSDR Website, http://www.atsdr.cdc.gov/hac/pha/
pha.asp?docid=1082&pg=0
---------------------------------------------------------------------------
    The ATSDR PHA for Camp Lejeune was not the only report which failed 
to address the benzene exposure at Camp Lejeune. In June of last year, 
the National Research Council (NRC) released their controversial report 
on Camp Lejeune.\106\ This report was the result of well intended, but 
poorly overseen legislation, in which the Department of the Navy was 
allowed to write the charge, or directions to the scientist on how to 
conduct their review of scientific literature concerning the chemicals 
we were exposed to at Camp Lejeune. The committee focused their efforts 
on PCE and TCE and omitted benzene in their evaluations and 
assessments. I am not a scientist and thus not qualified to comment on 
the specifics of why the report is flawed. This area has been openly 
addressed by other scientists including one who participated in a peer 
review of the NRC report and who is present today as a witness before 
the committee. I will defer discussion of the scientific issues about 
the validity of the NRC to Dr. Richard Clapp of Boston University. 
However, there are some non scientific issues that have come to light 
concerning the report. First and foremost, shortly after the report was 
released to the public, we discovered that the National Academy of 
Science entered into a $600,000 contract with the Department of Defense 
to effectively serve as the DOD's hired gun and consultant for work at 
Camp Lejeune. What was more disturbing was that the contract was 
negotiated and signed while the NRC committee was engaged in their work 
on the Camp Lejeune NRC report.\107\ Earlier this year, we learned that 
the National Academies quietly dissolved the contract with the DOD.
---------------------------------------------------------------------------
    \106\ National Research Council, ``Contaminated Water Supplies at 
Camp Lejeune: Assessing Potential Health Affects, June 2009.
    \107\ Chairman Subcommittee on Investigation and Oversight, 
Committee on Science and Technology Brad Miller Letter to Dr. Ralph 
Cicerone, President National Academy of Sciences, November 2009. With 
attachments.
---------------------------------------------------------------------------
    Shortly after the NRC report was released, the Marine Corps mailed 
a letter signed by Major General Payne to every registrant with the 
Marine Corps for Camp Lejeune. The letter notified the registrants that 
ATSDR withdrew their PHA for Camp Lejeune because of the omission of 
benzene contamination but was written in such a way as to infer the NRC 
committee did review and assess the benzene exposures at Camp 
Lejeune.\108\ What is puzzling is that much of what we now know about 
the benzene contamination was not provided to the NRC reviewers. Like 
ATSDR, there are no supporting documents indicating that the NRC 
Committee members knew of the existence of up to 1.1 million gallons of 
fuel lost into the groundwater at Camp Lejeune.\109\ It is a mystery 
how the Marine Corps and Major General Payne are able to conclude that 
the NRC did indeed evaluate and assess our benzene exposures in the 
drinking water at Camp Lejeune.
---------------------------------------------------------------------------
    \108\ USMC letter to Camp Lejeune Registrants, General Payne USMC, 
June 2009.
    \109\ Excerpt from Document #1185. This document was found by ATSDR 
within the recently discovered limited access web portal for the Navy's 
Underground Storage Tank Program, NavFacEngCom.
---------------------------------------------------------------------------
    Just how did the Hadnot Point Fuel Farm's massive fuel loss escape 
the attention of ATSDR in their 1997 PHA? We may never know the 
complete answer to that question but what the historical documents make 
clear is that ATSDR should have known about our benzene exposures, 
investigated them and assessed the risk of those exposures. The Navy 
and Marine Corps were also complicit in casting a shroud over the fuel 
losses at the Hadnot Point Fuel Farm. It was their base, their facility 
where the contamination occurred, their documents detailed the extent 
of the contamination and their people were the ones exposed. The Navy 
and Marine Corps had a moral obligation to ensure the State and Federal 
regulatory agencies, especially the ATSDR knew we were exposed to 
benzene. If the subcontractor for the ATSDR had not found the UST 
portal in 2009, just when did the Navy and Marine Corps plan to 
disclose the fuel losses at Hadnot Point? Was this a game of catch me 
if you can?
    The defunct ATSDR PHA did contain a reference to a Marine Corps 
sponsored report on the Hadnot Point Industrial Area issued in May of 
1988. Contained on page 18 of 373 is a statement by the contractor in 
which benzene was described as a contaminant in well 602. The lost fuel 
was also found in the deep aquifer at Hadnot Point.\110\ There was no 
excuse for the personnel working for ATSDR at that time to have missed 
this vital fact which confirmed benzene was a major contaminant at Camp 
Lejeune. However, with this being said, once it was established that 
the ATSDR was in error, the 1997 PHA for Camp Lejeune was rescinded. 
The same was not true for the polluter. Instead of acknowledging their 
role in the omission of benzene in the PHA by ATSDR, the Navy and 
Marine Corps leveled sole blame at the ATSDR:
---------------------------------------------------------------------------
    \110\ Cercla 258, May 1988.

         ``If benzene was not fully addressed in the PHA, it was not 
        for lack of data.'' \111\
---------------------------------------------------------------------------
    \111\ USMC Response to Senator Burr and Hagan Queries on Camp 
Lejeune, Pdf page 10 July 2009.

    According to Col Tokarz's March 1988 letter concerning the Hadnot 
Point Fuel farm, the upcoming Technical Review Committee (TRC) was 
slated to discuss the details about the HPFF and fully explain the 
situation to the members of the committee which included the community 
and representatives of the EPA.\112\ Four months later, the first TRC 
meeting took place aboard Camp Lejeune. The TRC was a requirement of 
CERCLA and served to bring the affected community, DOD and EPA together 
to discuss developments for cleaning up the base. When the time came to 
discuss the Hadnot Point Fuel Farm, as promised in Tokarz's letter, 
something entirely different happened:
---------------------------------------------------------------------------
    \112\ Cercla 96, Pdf Page 33-34, March 1988.

         Cheryl Barnett, LantDiv: ``Well, they're part of the other 22 
        sites that we said we are looking at, we just don't have any 
        data to present to you today.'' \113\
---------------------------------------------------------------------------
    \113\ Cercla 496, Pdf page 74, August 1988.

    Earlier in the meeting, the base environmental engineer was asked 
what kind of readings were found in the water samples from the 1980's. 
Mr. Alexander who was present during that time period and fulfilled the 
---------------------------------------------------------------------------
role of base environmental engineer stated:

         ``We had very little, if any data, before we realized our 
        groundwater was contaminated.'' \114\
---------------------------------------------------------------------------
    \114\ Cercla 496, Pdf page 54, August 1988.

    Why the deception? In December 1988, the O'Brien and Gere 
Contaminated Ground Water Study for Camp Lejeune was released. The 
report identified two pools of free floating gasoline in the 
groundwater at Hadnot Point. The engineers were unable to clearly 
define the exact boundaries and extent of the plumes. Clearly, the fuel 
contamination was much worse than the 23,150 to 33,150 gallons cited in 
base inventory records.\115\
---------------------------------------------------------------------------
    \115\ Cercla 417, Pdf page 8 &24, December 1988.
---------------------------------------------------------------------------
    Sometime between 1985 and 1990, the Navy moved handling of the HPFF 
fuel loss problem to LantDiv's Underground Storage Tank Program. We 
have been unable to ascertain the exact date and how this was 
accomplished. The Navy stated in their 2009 written responses to 
Senator Burr and Hagan that:

         ``After 1986, the sites were evaluated to determine whether 
        they were under the CERCLA, in which the EPA or RCRA, in which 
        the state has primacy. In 1988 it was determined that 
        corrective action at the HPFF fell under RCRA and therefore the 
        State of North Carolina had primacy.'' \116\
---------------------------------------------------------------------------
    \116\ USMC Response to Senator Burr and Hagan Queries on Camp 
Lejeune, Pdf page 12, July 2009.

    Apparently, the Navy and Marine Corps forgot to inform the EPA of 
their evaluation. There was another problem with their arbitrary 
determination. The CERCLA vs. RCRA delineations did not apply if mixed 
contaminants were present. If mixed contaminants were present at a 
Superfund site, CERCLA is primary. The issue came to a head at a TRC 
meeting in July of 1990. During the meeting, Camp Lejeune officials 
informed the EPA representative that HPFF was not part of the Federal 
Facilities Agreement and thus out of the purview of the EPA. Base 
officials advised the EPA that a fuel recovery system for the HPFF was 
finalized and ready for bidding. Once bidding was completed, the Navy 
and Marine Corps were ready to begin remediation of the shallow aquifer 
around the HPFF. The EPA representative, Victor Weeks, disagreed and 
advised the attendees of the meeting there was a mixing of solvent 
plumes and fuel plumes and as such, the groundwater cleanup in the HPIA 
---------------------------------------------------------------------------
is all interconnected.

    ``Just because it's an underground storage tank at this point 
doesn't matter to us because we have a combined plume.'' Mr. Weeks went 
on to conclude: ``If this was an isolated area separated from Hadnot 
Point, we could agree with that (Handling under the state's UST 
program) we feel like it's part of the CERCLA program as well''. He 
also warned that the Navy was doing work at their own risk.\117\
---------------------------------------------------------------------------
    \117\ Cerlca 493, Pdf pp 4-11, July 1990.

    By April of 1992, Mr. Weeks was no longer the EPA representative 
working on Camp Lejeune. The EPA replacement received a letter from 
Paul Rakowski at LantDiv requesting that the HPFF be exempt from CERCLA 
under the petroleum exclusion because Jet Fuel was the only source of 
contamination at the HPFF.\118\ Shortly afterwards the HPFF was 
officially moved to the RCRA program and under the purview of the State 
of North Carolina. The result of this move was the HPFF was dropped 
from CERCLA and corresponding reports pertaining to CERCLA sites on the 
base. For example, the 1994 Final Remedial Investigation Report for 
Operable Unit 1 (Sites 21, 24 and 78 in the Hadnot Point Industrial 
Area) mentions the existence of the HPFF within the Operable Unit, but 
then the report added that:
---------------------------------------------------------------------------
    \118\ Cercla 724, April 1992.

         ``Since the fuel farm area is a UST problem, it is not 
        included as part of the CERCLA RI/FS process, but is being 
        handled as a separate study under the UST Program.'' \119\
---------------------------------------------------------------------------
    \119\ Cercla 1161, Pdf page 78, June 1994.

    Another result of the move from RCRA to CERCLA was that documents 
pertaining to the UST Program were not required to be filed for public 
view in the CERCLA Administrative Record. This is evident when one 
compares the CERCLA administrative records file to what was filed with 
the State of North Carolina. The end result was that control of 
information concerning the Hadnot Point Fuel Farm lay at the discretion 
of the Navy and what reports they chose to submit to the State of North 
Carolina. The EPA was effectively out of the HPFF picture.
    A July 1994 court recorded public hearing was held at Camp Lejeune 
concerning the proposed clean up for the Hadnot Point Industrial area, 
except the HPFF. A base representative was asked why there was no 
public hearing for the HPFF. Neal Paul, The base Installation 
Restoration Program Manager for Camp Lejeune responded:

         ``There are some public relations requirements and this 
        predates me.''

    Mr. Paul failed to answer the question and advised the attendees of 
the meeting:

         ``to date there's like 25,000 gallons of gasoline from the 
        inventory records that were shown to be missing. And to date we 
        have recovered about 20,000 gallons of gasoline.''

         ``but the plume treatment is pretty close to being 
        remediated.''

         ``If you get 75% of the free product that you think you 
        spilled into the groundwater, then you're doing a great job, 
        and 20 out of 25 is almost 80 percent. So, we done probably as 
        good as we can do.''

         ``And that is really one of our big success stories.''

         ``From the people I've talk to in the state agree it is a 
        success.'' \120\
---------------------------------------------------------------------------
    \120\ Cercla 366, Pdf pp 91-94, July 1994.

    Two years later a partnering meeting hosted by Mr. Paul was held at 
Camp Lejeune. The attendees included base officials, the Navy's 
contractor for the remediation work on the base, representatives from 
the State of North Carolina, EPA and personnel from LantDiv. The 
meeting was not open to the public. A contractor for the Navy advised 
the attendees that based on data from an engineering contractor working 
on the HPFF, an estimated 800,000 gallons of fuel had been lost at the 
HPFF and benzene was appearing in the deep aquifer.\121\ Notably absent 
from the meeting were representatives from the ATSDR. The ATSDR 1997 
PHA for Camp Lejeune was still in draft form at the time of the 
meeting. The brief reference to the 800,000 gallon fuel loss was the 
only place we have found in the entire CERCLA library which quantified 
the size and scope of the fuel plumes at Hadnot Point and is more than 
the disclosed 23,150 to 33,150 gallons lost in Marine Corps inventory 
records.
---------------------------------------------------------------------------
    \121\ Cercla, 1866, Pdf page 4, November 1996.
---------------------------------------------------------------------------
    The former base Fleet Service and Refueling area was located within 
300 feet and up-gradient from well HP-602. Buildings 1100, 1111, 1115 
and seven underground storage tanks comprised the facility. The USTs 
were intra-connected to the fuel farm by underground piping.\122\ The 
facility served as a service station from 1957-1965, and administrative 
office from 1965-1972, a data processing center 1972-1976 and a 
printing plant from 1976-1986.\123\ The tanks were removed from the 
ground in 1993 and the contents of the tanks were described as diesel 
fuel and gasoline.\124\ Building 1115 turned out to be a separate and 
distinct source of fuel loss at the Hadnot Point Industrial Area. Last 
week the Navy released many of the documents on the web portal 
discovered by ATSDR last year to the public. We are currently reviewing 
this previously undisclosed document library and we are finding 
indications organic solvents were mixed in the fuel plume at this site. 
As far as we know, no specific risk assessment or remedial 
investigation was ever performed for building 1115. Instead, the Navy 
sent a letter to the State of North Carolina advising the State that 
building 1115 was being incorporated into the Hadnot Point Fuel Farm 
and the two were handled as one site.\125\ Who gave the Navy the 
authority to make this decision and why was it not challenged by the 
EPA? Building 1115 was only mentioned in the CLW and CERLCA libraries. 
The extent of the contamination found in the groundwater underneath the 
former Fleet Service and Refueling Area was not previously disclosed to 
ATSDR. Details of the contaminants found at building 1115 are currently 
surfacing as we review the documents. The concealment of building 1115 
did not stop with ATSDR. In 1991 the EPA queried the Navy whether USTs 
existed at building 1100/1115.\126\ Paul Rakoswki from LantDiv 
responded that a leaking 55 gallon drum of PCE was found at the site 
but failed to answer the EPA's question on the USTs.\127\ If one agency 
of our government chooses to misrepresent and conceal material facts to 
Federal regulators in another agency and nothing happens when the truth 
is revealed, where is the accountability?
---------------------------------------------------------------------------
    \122\ Cercla 2358, Pdf page 289, January 1989.
    \123\ Cercla 651, October 1986.
    \124\ CLW 1917, March 1993.
    \125\ North Carolina UST Document Library, April 1994.
    \126\ Cercla 71, Pdf page 5, October 1991.
    \127\ Cercla 27, December 1991.
---------------------------------------------------------------------------
    It is now thirteen years since the release of the 1997 Public 
Health Assessment for Camp Lejeune and the community still has no clear 
answer to what happened to us while we or our loved ones served our 
country. Our country has seen a renewed appreciation for our volunteer 
military and the sacrifices made by our fighting men, women and their 
families. It is hard to drive down the road without seeing a ``support 
the troops'' ribbon on someone's car. How can we profess respect for 
our military personnel and families when in their time of need, this 
country not only abandoned them but abandoned their families as well. 
We trusted the Marine Corps would do the right thing for their Marines 
and their families. We trusted that the EPA and the State of North 
Carolina would ensure the Marine Corps fully disclosed the extent of 
the contamination at Camp Lejeune. The subtitle of this hearing is 
``Looking back, Moving Forward.'' We looked back and found the Marine 
Corps' statements do not match the historical documents. We can not 
move forward with understanding the Camp Lejeune drinking water 
contamination unless there is a full disclosure from the Navy and 
Marine Corps. We can not rely on the agencies of the Executive branch 
to provide our answers. The Department of Defense was the polluter. The 
Department of Justice represents the government for all claims brought 
against the Navy and Marine Corps and overruled the EPA special agent 
investigating government wrong doing at Camp Lejeune. Congress is where 
this issue must be resolved. What other measures has the DoJ taken to 
bolster their defense for the government? Our exposures are known and 
well documented. The negligence of the Marine Corps is clear. There are 
thousands of Marines, Sailors, their family members and base employees 
who were sickened by he fouled water at Camp Lejeune. When will this 
country fulfill our commitment to support the troops?

                     Biography for Michael Partain
    Michael Partain is the dependent son of Captain Warren Partain and 
was born at Camp Lejeune in 1968 during the drinking water 
contamination. His parents lived aboard the base at Tarawa Terrace. The 
Partain family settled in Florida in 1972 after leaving the Marine 
Corps. Three years ago Michael was diagnosed with male breast cancer at 
the age of 39. Since then he has located 63 other men from Camp Lejeune 
with the disease. Michael became involved with the Camp Lejeune after 
viewing a television report about Camp Lejeune while he was treating 
his breast cancer. Since then he has become a community advocate and a 
community representative of the ATSDR Community Assistance Panel (CAP) 
for Camp Lejeune.

    Chairman Miller. Thank you, Mr. Partain.
    We probably are going to be interrupted by votes, so we do 
need to try to keep some kind of schedule, and I appreciate 
your testimony. It is an important contribution to today's 
hearing.
    Mr. Watters, you are recognized for five minutes.

    STATEMENT OF JAMES WATTERS, DIRECTOR, GRADUATE MEDICAL 
EDUCATION, TEXAS TECH UNIVERSITY HEALTH SCIENCES CENTER, FORMER 
   NAVY LIEUTENANT, RETIRED COMMANDER, NAVY RESERVE, MEDICAL 
 SERVICE CORPS AND CAMP LEJEUNE VETERAN DIAGNOSED WITH KIDNEY 
                             CANCER

    Mr. Watters. Mr. Chairman, Ranking Member Broun, members of 
the Committee, thank you for taking the time to address this 
important issue and permitting me the honor of appearing before 
you to tell my story. I believe it is similar to the stories of 
thousands of others who were at Camp Lejeune.
    I am a retired Navy Medical Service Corps Commander who 
served at Naval Regional Medical Center, Marine Corps Base Camp 
Lejeune from June 1977 until November 1979. Prior to my naval 
service, I served in the U.S. Army Infantry in Vietnam from 
November 1969 until I was wounded in combat while walking point 
for my infantry company on September 6, 1970. When I was 
wounded, my commanding officer, Captain Allen G. Vitters, ran 
and crawled through enemy fire to drag me to safety. This is 
what a leader does.
    In November 2007, I was diagnosed with advanced renal cell 
carcinoma, stage 3, almost stage 4. I had a kidney removed in 
December 2007, and in January 2008 was told by my oncologist I 
had about a year to live. In approximately July 2008, I 
received an envelope from the IRS which contained a letter from 
General Payne advising me I had been exposed to 
trichlorethylene and other hazardous chemicals while serving at 
Camp Lejeune. It is important to note this letter came 21 years 
after the Marine Corps and the Department of the Navy knew in 
1987 that I and many others had been exposed to volatile 
organic compounds.
    I researched the possible link between TCE and RCC, renal 
cell carcinoma, and found a probability of the link between TCE 
and RCC. I then filed a claim with the Department of Veterans 
Affairs in order to obtain benefits for my family for after my 
death. The VA, of course, denied the claim. I resubmitted my VA 
claim including additional information about the link between 
TCE and renal cell carcinoma. The claim was again denied in 
March of 2009. I then consulted three science faculty, two of 
whom are toxicologists who work at the medical school where I 
work as an Assistant Dean for Graduate Medical Education. They 
wrote strong letters of support for my claim, and I requested a 
hearing with a decision review officer at the VA regional 
office in Waco, Texas. I was granted the opportunity to appear 
before the decision review officer in July--I am sorry--in June 
of 2009 to present my case. The evidence I presented met the VA 
criteria ``as likely as not'' so the claim was decided in my 
favor and I was granted 100 percent service-connected 
disability for the renal cell carcinoma as a result of my 
exposure to TCE at Camp Lejeune. Receiving this disability 
rating made my wife and my adult disabled son eligible for 
CHAMP VA insurance coverage for the rest of their lives, and 
CHAMP VA is similar to TRICARE.
    I would have appreciated being notified by the Marine Corps 
even 18 months before the July 2008 notice. It would have made 
a difference in when my kidney cancer was diagnosed and my 
prognosis.
    As I researched the Camp Lejeune situation, I was horrified 
to find out how many people the Marine Corps had poisoned and 
the obstructionist tactics the U.S. Marine Corps and Department 
of the Navy has used to avoid responsibility and avoid 
providing any type of assistance with health care or any 
financial assistance to those they have sickened and to the 
families of those whose deaths they have caused. Examples of 
obstructionist tactics include the Marine Corps's failure to 
cooperate with the State of North Carolina's efforts to analyze 
and address this problem in the 1980s, The 21 years it took for 
the Marine Corps to notify those they poisoned, the intense 
pressure it took to have the Marine Corps fund the ATSDR study, 
the failure of the Marine Corps to turn over critical documents 
until forced to do so, and numerous other examples of the 
Marine Corps and Department of the Navy strategy to deny and 
delay as long as possible.
    I firmly believe this strategy is based upon financial 
considerations and I do not know what role the Department of 
Defense has in this strategy. It is possible that the Marine 
Corps and Department of the Navy senior leaders are ``just 
following orders.''
    It is my firm belief that the United States Marine Corps 
and Department of the Navy leadership have abandoned and 
betrayed their wounded from Camp Lejeune including women and 
children and left them to suffer and die. I am very sensitive 
to caring for the wounded because in the Army we were trained 
to never leave our wounded behind. I saw men wounded and killed 
in Vietnam trying to recover our wounded. The U.S. Soldier's 
Creed specifically states, ``I will never leave a fallen 
comrade.'' If the Marines have a similar creed, their senior 
leaders seem to think it does not apply in this case.
    Suggestions for immediate action: Because it is crystal 
clear there is a leadership vacuum at the United States Marine 
Corps and Department of the Navy on this issue, I suggest 
Congress step in immediately to pass legislation to provide 
health care to those who have been sickened by the Camp Lejeune 
poisonings. Everyone in this room knows this is morally and 
ethically the right thing to do. The United States Marine Corps 
and Navy have proven they will not and cannot be trusted to do 
the right thing. Time is of the essence, so political party 
differences should not be permitted to delay taking effective 
action.
    Number two: The Department of Veterans Affairs should 
immediately consider how they can streamline the disability 
claims process for those who have been sickened by the Camp 
Lejeune poisons. The only reason I was able to win my claim was 
because of the resources at my disposal in the school of 
medicine where I work. Very few veterans have such resources 
available to them. Eventually the VA will develop a list of 
presumptive illnesses for those exposed at Camp Lejeune. It 
should not take 10 or 15 years as it did for Agent Orange. 
People are sick and they and their families need help now. 
Also, the VA should publicize this matter in their outpatient 
clinics and hospitals to alert those who were poisoned. I have 
tried for over one year to have my local VA hospital in 
Amarillo, Texas post notices of the Camp Lejeune situation to 
alert veterans who may have been exposed. When I told them that 
I was coming to this hearing, they decided to finally post the 
notices.
    Lastly, as you hear from the United States Marine Corps and 
the Department of the Navy about all they have done to address 
this matter, I would urge you to consider the evidence of the 
steps the U.S. Marine Corps and the Department of the Navy have 
taken to obstruct resolution of this very serious environmental 
disaster. This is basically a ``friendly fire'' incident in 
slow motion and every possible measure has been taken by the 
Marine Corps and the Department of the Navy to deny and delay 
providing any assistance whatsoever to their victims. The 
Marines claim to have spent $22 million to address this but I 
would point out that this amount over 20 to 25 years is a 
pittance and I would ask you to consider what amount of this 
total was the Marine Corps compelled to spend and how much was 
spent on obstructing any efforts to provide any assistance 
whatsoever to Marine Corps victims.
    Finally, the U.S. government has a very poor track record 
of assisting in a timely manner those who have been harmed by 
the Department of Defense. Examples include the atomic vets, 
the Agent Orange vets, the Gulf War syndrome vets, and now 
this. Congress has the opportunity to deal with this in a 
timely and effective manner and to do the right thing. I urge 
Members of Congress to do what you know should be done. Thank 
you.
    [The prepared statement of Mr. Watters follows:]
                 Prepared Statement of James L. Watters
    I start today by thanking the Members of this Congressional 
Committee for taking the time to address this important issue and 
permitting me the honor of appearing before you to tell my story.
    My name is James Watters and I am a retired U.S. Navy Medical 
Service Corps Commander who served at the Naval Regional Medical 
Center, Marine Corps Base Camp Lejeune from June, 1977 until November, 
1979. Prior to my Naval service I served in the U.S. Army infantry in 
Vietnam from November, 1969 until I was wounded in combat while walking 
point for my infantry company on September 6, 1970. When I was wounded, 
my commanding officer, Captain Allen G. Vitters ran and crawled through 
enemy fire to drag me to safety. That is what a leader does.
    In November, 2007 I was diagnosed with advanced (stage 3, almost 
stage 4) renal cell carcinoma (RCC). I had a kidney removed in 
December, 2007 and in January, 2008 was told by my oncologist I had 
about a year to live.
    My initial thought about the cause of the cancer was my exposure to 
agent orange because there is no history of renal cell carcinoma in my 
family. My research showed no link between agent orange and RCC.
    In approximately July, 2008 I received an envelope from the IRS 
which contained a letter from a Marine Corps General advising me I had 
been exposed to trichloroethylene (TCE) and other hazardous chemicals 
while serving at Camp Lejeune. It is important to note that this letter 
came 21 years after the USMC and the Department of the Navy knew, in 
1987, that I and many others had been exposed to volatile organic 
compounds. (VOCs) I researched the possible link between TCE and RCC 
and found a probability of the link between TCE and RCC. I then filed a 
claim with the Department of Veterans Affairs (VA) in order to obtain 
benefits for my family for after my death.
    The VA of course denied my claim. I resubmitted my VA claim 
including additional information about the link between TCE and RCC. 
The claim was again denied in March of 2009. I then consulted three 
science faculty, two of whom are toxicologists who work at the medical 
school where I work as an Assistant Dean for Graduate Medical 
Education. They wrote strong letters of support for my VA claim and I 
requested a hearing with a Decision Review Officer (DRO) at the VA 
Regional Office in Waco, Texas.
    I was granted the opportunity to appear before the DRO in June, 
2009 to present my case. The evidence I presented met the VA criterion 
``as likely as not'' so the claim was decided in my favor and I was 
granted 100% service connected disability for the RCC as a result of my 
exposure to TCE at Camp Lejeune. Receiving this disability rating made 
my wife and my adult disabled son eligible for CHAMPVA insurance 
coverage for the rest of their lives. (CHAMPVA is very similar to 
TRICARE.)
    I would have appreciated being notified by the USMC even 18 months 
before the July, 2008 notice. It would have made a difference in when 
my RCC was diagnosed and my prognosis.
    As I researched the Camp Lejeune situation I was horrified to find 
out how many people the USMC had poisoned and the obstructionist 
tactics the USMC and the Department of the Navy have used to avoid 
responsibility and avoid providing any type of assistance with health 
care or any financial assistance to those they have sickened, and to 
the families of those whose deaths they have caused. Examples of 
obstructionist tactics include the USMC's failure to cooperate with the 
State of North Carolina's efforts to analyze and address the problem in 
the 80s, the 21 years it took for the USMC to notify those they 
poisoned, the intense pressure it took to have the USMC fund the ATSDR 
study, the failure of the USMC to turn over critical documents until 
forced to do so and numerous other examples that the USMC's and 
Department of the Navy's strategy is to deny and delay as long as 
possible. I firmly believe this strategy is based upon financial 
considerations and I do not know what role the Department of Defense 
has in this strategy. It is possible the USMC and Department of the 
Navy senior leaders are ``just following orders.''

         It is my firm belief that the USMC and Department of the Navy 
        leadership have abandoned and betrayed their wounded from Camp 
        Lejeune, including women and children, and left them to suffer 
        and die!

    I am very sensitive to caring for the wounded because in the U. S. 
Army we were trained to never leave our wounded behind. I saw men 
wounded and killed in Vietnam trying to recover our wounded. The U.S. 
Soldier's Creed specifically states ``I will never leave a fallen 
comrade.'' If the Marines have a similar creed their senior leaders 
seem to think it does not apply in this case.
    Suggestions for immediate action:

        1.  Because it is crystal clear there is a leadership vacuum at 
        the USMC and the Department of the Navy on this issue I suggest 
        Congress step in immediately to pass legislation to provide 
        health care to those who have been sickened by the Camp Lejeune 
        poisonings. Everyone in this room knows this is morally and 
        ethically the right thing to do. The USMC and the Navy have 
        proven they will not and cannot be trusted to do the right 
        thing. Time is of the essence so political party differences 
        should not be permitted to delay taking effective action.

        2.  The Department of Veterans Affairs should immediately 
        consider how they can streamline the disability claims process 
        for those who have been sickened by the Camp Lejeune poisons. 
        The only reason I was able to ``win'' my claim was because of 
        the resources at my disposal in the school of medicine where I 
        work Very few veterans have such resources available to them.

    Eventually the VA will develop a list of presumptive illnesses for 
those exposed at Camp Lejeune. It should not take 10 or 15 years as it 
did for agent orange. People are sick and they and their families need 
help now.
    Also, the VA should publicize this matter in their outpatient 
clinics and hospitals to alert those who were poisoned. I have tried 
for over one year to have my local VA Hospital in Amarillo, Texas post 
notices of the Camp Lejeune situation to alert veterans who may have 
been exposed. Thus far they have refused to post any notices including 
VA information regarding this matter.
    Lastly, as you hear from the USMC and the Department of the Navy 
about all they have done to address this matter I would urge you to 
consider the evidence of the steps the USMC and the Department of the 
Navy have taken to obstruct resolution of this very serious 
environmental disaster. This is basically a ``friendly fire'' incident 
in slow motion and every possible measure has been taken by the USMC 
and the Department of the Navy to deny and delay providing any 
assistance whatsoever to their victims. The Marines claim to have spent 
$22,000,000 to address this but I would point out that this amount over 
20-25 years is a pittance and I would ask you to consider what amount 
of this total was the USMC compelled to spend and how much was spent on 
obstructing any efforts to provide any assistance whatsoever to the 
USMC's victims.
    Thank you for listening.

                     Biography for James L. Watters
Date of birth: April 20, 1950

Current residence: Lubbock, Texas

Current position: Assistant Dean for Graduate Medical Education
         Texas Tech University Health Sciences Center School of 
        Medicine

Education: B.S. Business Management--Roger Williams University
         Masters of Hospital Administration--VA. Commonwealth 
        University

Military Service: U.S. Army 1969-1972 (Vietnam 1969-1970)
         U.S. Navy active duty 1975-1981 (Camp Lejeune 1977-1979)
         U.S. Naval Reserve 1981-2000

Positions held: Hospital Administrator, Public Health Administrator, 
Consultant

    Chairman Miller. Thank you, Mr. Watters.
    Mr. Devereux, you are next. I assume with a name like 
Devereux, you may very well say Lejeune. If that is your 
preference, you may go right ahead. You are recognized for five 
minutes.

 STATEMENT OF PETER DEVEREUX, FORMER MARINE CORPS CORPORAL AND 
       CAMP LEJEUNE VETERAN DIAGNOSED WITH BREAST CANCER

    Mr. Devereux. Mr. Chairman and guests, good morning. My 
name is Peter Devereux. I was in the Marines from September 
1980 until December 1984. I was stationed at Camp Lejeune from 
December of 1980 until April of 1982. I was assigned to the 8th 
Communication Battalion in the French Creek area of Hadnot 
Point.
    I was diagnosed with invasive ductal carcinoma, a very 
aggressive form of breast cancer, on January 8, 2008. I had 
mastectomy surgery which removed my left breast along with 22 
cancerous lymph nodes on January 28, 2008. The following month 
I began a treatment regimen which consisted of 29 chemotherapy 
treatments, 30 radiation treatments along with daily 
medication.
    My treatment was scheduled to end April 8, 2009. At that 
point it was discovered my cancer had spread to my spine, my 
ribs and my hips. It is now classified metastatic breast 
cancer. There is no cure. The average life expectancy after 
metastasis is two to three years. Since my diagnosis, I have 
had 18 more chemotherapy treatments for a total of 47, 15 more 
radiation treatments to my spine and eight more to my hip for a 
total of 53 treatments. I will be in treatment until I die. I 
will be in treatment until I die. Presently I receive 
chemotherapy every three weeks and take prescription medicine 
daily.
    I am constantly fatigued both mentally and physically and 
need to take multiple rests daily. My body has changed 
tremendously and is always sore. Prior to my diagnosis I was in 
perfect health, always active between work and working out. I 
ate well, never smoked and hardly ever drank. I always had 
tremendous energy. Of course that is no longer true.
    I have a great wife and we have a 12-year-old daughter. 
This disease has not only ravaged me, it has ravaged my entire 
family. It has impacted my daughter severely. She is not 
confident of her future with me and I am not confident of my 
future with her. I have no idea if I will see my daughter 
graduate high school, go to college or get married.
    Before my diagnosis I had been a very productive person. I 
feel like such a burden to everyone especially my wife and 
daughter. I am no longer able to work due to the devastating 
side effects and physical limitations from my treatments and 
surgeries.
    The water contamination at Camp Lejeune has wreaked havoc 
on my family and me. On August 1, 2008, I received a letter 
from the Department of the Navy stating unregulated chemicals 
were discovered in some of the base drinking water systems in 
the early 1980s at Camp Lejeune. The Hadnot Point water 
distribution system was one of those.
    I had decided to move forward with genetic testing for the 
breast cancer gene at that point, which I tested negative for 
both of them. It was then that I really discovered and 
understood that my cancer came from my chemical exposure due to 
the chemicals in the drinking water at Camp Lejeune.
    The wells were discovered to be contaminated in 1980 when I 
arrived. The Marines knew about it and said nothing, knowing 
full well we were bathing in and drinking contaminated water on 
a daily basis. The water reports all state that the wells were 
contaminated and action needed to be taken and nothing was 
done.
    In March of 1982 a switch to Grainger Analytical 
Laboratories once again showed contamination and still nothing 
was done. I would also like to point out in 1974 the base 
commander declared organic solvents as a hazardous substance 
and then warned the commands at Camp Lejeune that improper 
disposal would result in the contamination of the drinking 
water.
    After receiving my letter in August in 2008, I filled out 
the United States Marine Corps Water Registry as requested. It 
was then that Mike Partain contacted me and let me know that I 
was the seventh man that was diagnosed with male breast cancer 
from Lejeune, and that was in August of 2008. There are now 
currently 64 men with male breast cancer from Camp Lejeune.
    I originally filed a claim for VA benefits on November 11, 
2008, to be denied in April of 2009. I appealed the claim and 
requested a hearing, which I received in May 2010 in Boston, 
Massachusetts. I had one hour to present my information about 
my case--the doctor's letters, letters from Dr. Clapp and 
Senator Kerry of Massachusetts.
    My case was approved with 100 percent disability in August 
of 2010. This will greatly help my wife, my daughter and 
myself, and I hope the VA will continue to help veterans and 
civilians affected by the contamination.
    Thank you for allowing me to speak.
    [The prepared statement of Mr. Devereux follows:]
                 Prepared Statement of Peter Devereaux
    Good morning, my name is Peter Devereaux I was in the Marines from 
Sep 1980-Dec 1984 and was stationed at Camp Lejeune from Dec 1980-April 
1982. I was assigned to the 8th Communication Battalion in the French 
Creek area of Hadnot Point.
    I was diagnosed with invasive ductal carcinoma, a very aggressive 
form of breast cancer on Jan 8th 2008. I had mastectomy surgery that 
involved removal of my left breast along with 22 cancerous lymph nodes 
on Jan 28th 2008.
    The following month I began a 14-month treatment regimen which 
consisted of 29 chemotherapy and 30 radiation treatments along with 
daily medication.
    My treatment was scheduled to end April 8th 2009 when it was 
discovered my cancer had spread to my spine, ribs and hip. It is now 
classified metastatic breast cancer, THERE IS NO CURE! The average life 
expectancy after Metastasis is 2-3 years. Since my metastatic diagnosis 
I have had 18 more chemotherapy treatments for a total of 47, and also 
15 more radiation treatments to my spine and 8 more to my hip for a 
total of 53.
    I will be in treatment until I die. Presently I receive 
chemotherapy every 3 weeks and take prescription medication daily.
    I am constantly fatigued both mentally and physically and need to 
take multiple rests daily; my body has changed completely and is always 
sore. Prior to my diagnosis I was in perfect health; always active 
between work and working out, I ate well, never smoked and hardly 
drank. I always had tremendous energy; of course that is no longer 
true.
    I have a great wife and we have a 12-year-old daughter. This 
disease has not only ravaged me it has also ravaged my entire family. 
It has impacted my daughter severely. She is not confident of her 
future with me nor am I of my own future with her. I have no idea if I 
will see my daughter graduate high school, go to college or get 
married.
    Before my diagnosis I had been a very productive person; I feel 
like such a burden to everyone especially my wife and daughter. I am no 
longer able to work due to the devastating side effects and physical 
limitations from my treatments and surgeries. The water contamination 
at Camp Lejeune has wreaked havoc on my family and me.
    August 1, 2008 I received a letter from the Department of the Navy 
stating ``unregulated chemicals were discovered in some of the base 
drinking water systems in the early 1980's at Camp Lejeune.'' The 
Hadnot Point Water Distribution system was one of those.
    I then decided to move forward with genetic testing for the breast 
cancer gene (BRCA 1 and BRCA 2), which I tested negative for both. It 
was then that I really understood my cancer came from my chemical 
exposure due to the chemicals in the drinking water at Camp Lejeune.
    The wells were discovered to be contaminated in1980 when I arrived, 
the Marines knew about it and said nothing, knowing full well we were 
bathing in and drinking contaminated water on a daily basis. The water 
reports all state that the wells were contaminated and action needed to 
be taken and nothing was done.
    In March of 1982 a switch to Grainger Analytical Laboratories once 
again showed contamination and still nothing was done. I would also 
like to point out in 1974 the Base Commander declared ``organic 
solvents as a hazardous substance'' and then warned the commands at 
Camp Lejeune that improper disposal practices could result in the 
contamination of the drinking water. (Ref: Base Order 5100.13B)

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    After receiving my letter in August in 2008, I filled out the USMC 
Water Registry as requested. It was then Mike Partain contacted me and 
let me know that I was the 7th man that was diagnosed with Male Breast 
Cancer that was in August of 2008. There are currently 64 men!
    I originally filed a VA claim for benefits on Nov 11, 2008 to be 
denied in April 2009. I appealed the claim and requested a hearing, 
which I received in May 2010 in Boston, MA. I had 1 hour to present new 
information about my case with my doctors letters, and letters from Dr 
Clapp and Senator Kerry of Massachusetts.
    My case was approved with 100% disability in August 2010. This will 
greatly help my wife, daughter and me and I hope the VA will continue 
to help veterans and civilians affected by the contamination.
    Thank you for allowing me to speak.

                     Biography for Peter Devereaux
    My name is Peter Devereaux I am 48 years old and I currently reside 
in Massachusetts. I was in the Marines from September 10, 1980 until 
December 7, 1984. I was assigned to Marine Corps Base Camp Lejeune in 
North Carolina and lived in the French Creek area of Hadnot Point from 
December 1980 until April 1982 with the 8th Communication Battalion. I 
was diagnosed with breast cancer on January 11, 2008. Seven months 
later I received a letter from the U.S. Marine Corps on August 1st, 
2008 informing me that I was exposed to unregulated chemicals at Camp 
Lejeune.
    My breast cancer has since metastasized to my spine, ribs and hip. 
On August 6, 2010, the Department of Veterans Affairs (VA) granted me a 
100% disability linking my breast cancer to toxic chemicals I was 
exposed to in the drinking water supply at Camp Lejeune during my 
military service.

    Chairman Miller. Thank you, Mr. Devereux. Mr. Devereux, Mr. 
Watters is not a Marine and you are. He said the Army has a 
slogan, ``Leave no comrade behind'' but did not know if the 
Marines have a similar slogan. Do the Marines have a similar 
slogan?
    Mr. Devereux. Yes. You know, semper fidelis, always 
faithful, and you never leave a man behind, absolutely. Always 
protect your own.
    Chairman Miller. Thank you.
    Dr. Clapp, you are now recognized for five minutes.

STATEMENT OF DR. RICHARD CLAPP, PROFESSOR EMERITUS, DEPARTMENT 
  OF ENVIRONMENTAL HEALTH, BOSTON UNIVERSITY SCHOOL OF PUBLIC 
 HEALTH, ENVIRONMENTAL HEALTH POLICY CONSULTANT AND MEMBER OF 
     THE ATSDR CAMP LEJEUNE COMMUNITY ASSISTANT PANEL (CAP)

    Dr. Clapp. Thank you, Mr. Chairman and Mrs. Dahlkemper and 
staff. I feel like I am an academic and almost never speak only 
for five minutes, but----
    Chairman Miller. Please try to keep it less than 50.
    Dr. Clapp. I think the real teachers have already spoken, 
so I will be brief.
    In your letter to me dated September 1st, you asked me to 
address several questions, so I will limit my oral comments to 
those questions.
    First, I became involved with Camp Lejeune issue in early 
2006 when I was asked by ATSDR to provide epidemiologic advice 
to the Community Assistance Panel. In the past 4-1/2 years 
since that time, I have attended meetings of the CAP, as we 
call it, meetings of other scientific advisory panels convened 
by ATSDR and in particular looking at epidemiologic and water 
modeling issues. My training is in epidemiology.
    In addition, I have given comments to the National Research 
Council of the National Academy of Sciences on their draft 
consideration of the issues regarding the Camp Lejeune water 
contamination and I was a peer reviewer on a draft of their 
document, and then subsequent to the release of their document 
in 2009, I and some colleagues of mine expressed our 
disappointment in that report, which I can provide to the 
committee if you are interested.
    The three specific questions that you asked me to address 
were the degree of contamination at Camp Lejeune. I think we 
have already heard that the degree of contamination was 
extraordinary in Camp Lejeune during the period especially 
while the measurements that were available were actually 
reported, as Mike Partain has indicated. At least one 
measurement in 1982 showed that in one of the drinking water 
treatment plants there was a 1,400-parts-per-billion level of 
trichlorethylene in the drinking water, and this is about 280 
times what would currently be allowed in drinking water in this 
country, and it is five times the level that was found at about 
that same time in the water in Woburn, Massachusetts, which was 
the location of a childhood leukemia cluster that was 
subsequently investigated by several agencies and about which 
there have been books and a movie.
    So I think that this was an extraordinary amount of 
contamination and one of the members of a 2005 National Academy 
of Sciences panel said that this was the largest drinking water 
contamination of any population of humans in this country from 
trichlorethylene. It turns out trichlorethylene is a widespread 
contaminant in this country but this was specifically referring 
to a discrete population with very high levels of 
trichlorethylene. This is the largest such exposure in our 
country's history.
    The second question that you asked me to address was, based 
on my experience as an epidemiologist, what types of health 
effects might be expected from this kind of contamination of 
these chemicals that have been documented and you documented, 
Mr. Chairman, and it would be in my view a variety of cancers, 
some of which have been mentioned here today--breast cancer in 
males and females, kidney cancer or renal cell carcinoma, non-
Hodgkin's lymphoma, bladder cancer, and then some reproductive 
effects in the offspring including childhood cancer, in my 
view, and also adverse reproductive outcomes such as birth 
defects, small for gestational age children, et cetera. These 
have been listed actually in a feasibility study that was done 
by ATSDR staff. I have great respect for the ATSDR staff that 
have been working on this Camp Lejeune series of studies and 
their feasibility assessment actually lists a fairly long list 
of cancers and other adverse health effects that I would 
endorse.
    And then the last question you asked me to address was, 
what steps might the Navy or the Department of Veterans Affairs 
take to determine presumptive disability in Camp Lejeune 
veterans, and the veterans themselves can avail themselves of 
the VA and the appeal process which has been described by two 
of the previous witnesses, and so I think that is already in 
motion. It is a case-by-case thing. I have participated in some 
of those cases myself as an expert providing information, but 
that takes too long, and I think that Congress needs to act, 
and an act that was done for Vietnam Veterans, the Agent Orange 
Act of 1991, may provide a model for actions such as could be 
taken with respect to Camp Lejeune.
    I understand there is an act that has been proposed. I 
don't--I am not going to comment on the details of that. I am 
not a legislator nor have I ever been a staff member, but 
either of those approaches seems to me would move this forward.
    Thank you for your time.
    [The prepared statement of Dr. Clapp follows:]
                  Prepared Statement of Richard Clapp
    I became involved with the Camp Lejeune issue in early 2006 when I 
was asked by ATSDR to provide epidemiologic advice to the Community 
Assistance Panel. In the past four and a half years, I have attended 
meetings of the CAP, meetings of other scientific advisory panels 
convened by ATSDR whose work focused on epidemiologic and water 
modeling issues at Camp Lejeune. In addition, I went on a tour of Camp 
Lejeune in February, 2008 and saw the various contamination sites and 
base components. Also in 2008, I provided input to the National 
Research Council committee considering the Camp Lejeune issues, and in 
2009, I provided peer review comments to the NRC prior to release of 
its report.
    1. The degree of contamination of drinking water at Camp Lejeune in 
the years between 1957 and 1985 is the highest I have observed in my 
career as an environmental epidemiologist. For example, the 
trichloroethylene concentration found in drinking water from one 
treatment plant in 1982 was 1,400 parts per billion. This is two 
hundred and eighty times the current allowable level of TCE in drinking 
water in the U.S. It is more than five times the highest level found in 
well water in Woburn, Massachusetts at about the same time as the 
childhood leukemia cluster was identified in that town.
    A member of a 2005 National Academy of Sciences panel assessing the 
scope of contamination issues at Camp Lejeune described it as the 
largest human exposure to TCE from drinking water in this nation's 
history. There were hundreds of thousands of Marines, civilians and 
dependents exposed to a variety of contaminants over nearly three 
decades at Camp Lejeune. The historical reconstruction and modeling of 
the likely extent of the exposure is not completed, but it is already 
clear that this is an unprecedented situation that demands the level of 
attention that it is currently getting from the Committee.
    2. Once the exposure modeling has been completed, it will be 
possible to examine the patterns of mortality from a wide range of 
cancers, including breast cancer, kidney cancer, and other diseases. 
The final water model can also be used in on-going studies of adverse 
reproductive outcomes and childhood cancer and in potential studies of 
other non-fatal conditions such as some cancers, kidney diseases, 
autoimmune diseases such as lupus and scleroderma, and neurological 
diseases such as Parkinson's Disease. The mortality study recommended 
in 2005 is currently underway and will likely be very informative. 
Additional studies of non-fatal conditions will depend on the outcome 
of a health survey which is also underway.
    3. Some of the steps that might be taken by the Navy or the Dept. 
of Veterans Affairs to determine presumptive disability in Camp Lejeune 
veterans have already begun. According to a presentation made to the 
Community Assistance Panel earlier this year, the VA considers veterans 
to have been ``exposed'' if they were resident at Camp Lejeune during a 
specific time period. The next requirement under the current VA 
procedures is a ``nexus letter'' from a competent medical authority 
that connects the specific disease or condition claimed by the veteran 
to the exposures documented at the base. This currently happens on a 
case-by-case basis and undoubtedly differs from one region or local 
office to another.
    A more comprehensive approach could be taken along the lines of the 
Agent Orange Act of 1991. This legislation listed three conditions (two 
cancers and chloracne) that would be considered service-connected in 
those veterans who could document service in Vietnam. It also 
established a process for periodically reviewing the literature about 
other health effects and adding to the list of Vietnam Agent Orange 
service-connected diseases or conditions. This review is conducted by 
independent panels established by the National Academy of Sciences and 
has resulted in several biannual reports and a longer list of 
compensable diseases over the past two decades. I have participated in 
various stages of the Vietnam veterans Agent Orange compensation 
program and I recommend it for your consideration.
    In addition to the above points, I was asked to comment on the 1997 
Public Health Assessment of Camp Lejeune released by ATSDR. This was 
retracted in 2009 once it was revealed that a much larger amount of 
benzene had been released into the ground than was recognized at the 
time of the original report. The decision to retract the report was 
clearly required by the facts, but it would not have been necessary had 
the full extent of the benzene contamination been known in 1997. The 
recent information will need to be incorporated into the water exposure 
model used in the on-going and proposed health studies.

                      Biography for Richard Clapp
    Dr. Clapp received his MPH degree from the Harvard School of Public 
Health in 1974 and his D.Sc. Degree in Epidemiology from B.U. School of 
Public Health in 1989. He was the founding Director of the 
Massachusetts Cancer Registry in the Department of Public Health from 
1980-1989. Dr. Clapp has worked at two non-profit consulting companies, 
the JSI Center for Environmental Health Studies, and Tellus Institute. 
He joined the B.U. School of Public Health Environmental Health 
Department as a full-time Faculty member in 1993, where he is now 
Professor Emeritus. He is also on the Adjunct Faculty at the U. of 
Massachusetts--Lowell School of Health and Environment.
    Dr. Clapp has done research and taught courses in epidemiology and 
environmental health. His research interests included the health 
effects of dioxin and Agent Orange, the health effects of ionizing and 
non-ionizing radiation, and other environmental exposures to toxic 
chemicals. He is a member of several professional organizations and 
served as an Associate Editor of Environmental Health Perspectives. Dr. 
Clapp is a member of the Community Assistance Panel for the Camp 
Lejeune health studies, for which he receives compensation from ATSDR.

    Chairman Miller. Thank you, Dr. Clapp.
    Mr. Hargett, you are now recognized for five minutes.

  STATEMENT OF MICHAEL HARGETT, GENERAL DIRECTOR, ANCHIMERIC 
    ASSOCIATES AND FORMER CO-OWNER OF GRAINGER LABORATORIES

    Mr. Hargett. Thank you, Mr. Chairman. I appreciate this 
opportunity to discuss the drinking water analyses performed by 
Grainger Laboratories at the request of the United States 
Marine Corps at Camp Lejeune.
    I am a former co-owner and vice president of Grainger 
Laboratories in Raleigh, North Carolina. Grainger Laboratories 
was founded in 1973 to provide analytical and consulting 
services to industry, government and commercial customers 
throughout the southeastern United States. Our services include 
drinking water analyses that were certified under the Safe 
Drinking Water Act, otherwise designated as Public Law 92-523. 
That Act has subsequently been amended and expanded several 
times.
    The Safe Drinking Water Act applies to every public water 
system in the United States. There are currently more than 
160,000 public water systems regulated by the Safe Drinking 
Water Act providing water to almost all Americans at some time 
during their lives. Safe Drinking Water Act and derivative 
legislation define public water systems as an entity that 
provides water for human consumption through pipes or other 
constructed conveyances to at least 15 service connections or 
serves an average of at least 25 people for at least 60 days 
per year.
    The Safe Drinking Water Act was at that time, at the time 
of our service to the Corps administered by the State of North 
Carolina, Public Water Supply Section of the Department of 
Environmental and Natural Resources. They had a Water Supply 
Protection Program under a primacy agreement with the 
Environmental Protection Agency.
    In 1970, Executive Order 11514 for Protection and 
Enhancement of Environmental Quality directed the Federal 
Government to provide leadership in protecting and enhancing 
the quality of our Nation's environment and to sustain and 
enrich human life. As a result, federal agencies initiated 
measures to direct their policies, plans and programs so as to 
meet national environmental goals. The Safe Drinking Water Act 
included clearly established goals that instituted standards 
for water quality, supply and appropriate distribution 
practices throughout the United States.
    United States Marine Corps personnel at Camp Lejeune 
initiated discussions with my office in 1982 to determine their 
compliance with the Safe Drinking Water Act. Over the months 
that followed, our team assisted personnel in defining their 
compliance with the expectations of the State of North Carolina 
and also the Safe Drinking Water Act. We assisted them in 
identification and quantification of contaminants in the 
drinking water and discussed operating practices that could 
avoid exposure for the Marines, dependants and base personnel 
that were consuming this potable water supply.
    Copies of our analytical reports and correspondence with 
base personnel have been provided to this committee and 
agencies and contractors reviewing the history of water quality 
at the base and its associated housing units. Additional 
telephone discussions, trips to the base for meetings with 
utility personnel, and an attempt to bring to the attention of 
base personnel the implications of the contaminated water were 
included in our support to the base utility program.
    The initial requests from the base required a statement of 
our qualifications as a certified laboratory to perform 
trihalomethane analysis under the Safe Drinking Water Act, 
sampling instructions, a formal price quotation and special 
sample containers that were both suitable and compliant with 
the established protocols for sampling, transport and 
preservation of the samples. The sampling required a bottle 
that would avoid the collection of bubbles or an air space so 
as to minimize the volatilization of the water content. This 
was a special technique that needed to apply a septum or 
membrane to the mouth of the bottle, and the sampling method 
was new to many utility personnel and frequently, training, re-
sampling, sampling again and discussions were required from our 
office to make sure that we had a representative sample.
    The first set of samples we received from the base were not 
in compliance with the Safe Drinking Water Act and had a very 
significant interference present. This interference was 
exceptional, and after discussions with the analytical chemist, 
Mr. Bruce Babson, and his supervisor, Mr. Paul Brafford, we 
decided to request an additional set of samples from the base. 
A second set of samples presented similar results. In 
discussions with our management team, a decision to define the 
interference at the expense of our company was made and 
chlorinated solvents were identified. We also determined the 
level of contamination in each of the samples. A decision to 
visit the base and initiate discussions. This decision was 
based on the potential health effects for the contaminants.
    I visited the base myself with fresh sample bottles and met 
with the base chemist, a Ms. Betsy Betz, to obtain a third set 
of samples and discuss the implications of the contaminated 
water. Chlorinated solvents in the drinking water was deemed a 
hazard to consumers at the base and warranted delineation, 
control and mitigation of the risk. A third set of samples 
taken by myself was also not in compliance with the Safe 
Drinking Water Act and a monthly sampling for trihalomethanes 
was initiated. A campaign to define the well or wells 
generating the highest levels of trihalomethanes and the 
chlorinated solvents was also started. From the analytical 
results, you can see that the wells with the highest levels of 
chlorinated solvents were clearly established.
    In a letter of August 10, 1982, Ms. Betz points out the 
health effects of exposure to the chlorinated solvents present 
in the drinking water and she appropriately points out that the 
pollutants are unregulated at that time. Her repeated reference 
to the toxicity of chlorinated solvents demonstrates concern 
and an awareness of the importance of the issue. I must ask why 
this urgent alarm was unanswered. Exposure to chlorinated 
solvents included liver, kidney, nervous system, and other 
disruptions to human physiology.
    Another trip to the base was made to meet with the water 
well operators who were civilian employees. They were 
responsible for the daily operation of the wells. We visited 
the wells with chlorinated solvents and discussed potential 
sources of the contamination. Information including 
hydrogeological data was not available that would have assisted 
in this determination. At the conclusion of the field 
discussions, I strongly suggested to Ms. Betz and the operator 
that the well field operation avoid those wells with high 
chlorinated solvent concentrations. It was agreed that it was a 
good idea and to quarantine that source. Afterward, in 
discussions with Ms. Betz, the health effects and issues of 
Safe Drinking Water Act compliance were further discussed.
    One week later, Ms. Betz called my office to request that I 
come to the base and meet with base personnel--base utility 
personnel. I agreed to do so and suggested that would be a good 
time for an additional sampling. We met with the deputy 
utilities manager. This person was a uniformed lieutenant 
colonel, and after much deliberation I am unable to remember 
his name but I do remember being ushered into his office, the 
introduction by Ms. Betz introducing me as a person that was 
very familiar with water supplies in eastern North Carolina, 
compliance with the Safe Drinking Water Act, State of North 
Carolina, requirements, and stating that I was present to 
discuss the water quality issues at Hadnot Point and other 
residential supplies. The lieutenant colonel responded that 
this was something he would have to look into and we were 
summarily dismissed. The total time in the lieutenant colonel's 
office was less than five minutes.
    Following the meeting, Ms. Betz apologized for the brusque 
treatment and explained that others would have to know about 
the problems. We went on to obtain additional samples that did 
show improvement in compliance with the Safe Drinking Water Act 
and a lower chlorinated solvent concentration. The operating 
well field conditions and parameters were unknown to me at the 
time of sampling.
    Sampling continued, and a few months later an engineer from 
the State of North Carolina, Mr. Mike Bell, asked me if 
Grainger Labs was performing the certified analyses for the 
Marine Corps Base. I responded yes, and he asked for a copy of 
the analysis. I said I could not provide this report since it 
was the property of the government and I provided him contact 
information for Ms. Betz. A few weeks later at a meeting of the 
American Water Works Association state chapter, Mr. Chuck 
Rundgren, who was the chief of the water supply branch and Mr. 
Bell's supervisor, again asked me the same question. I gave him 
the same response and he asked if I had provided any 
recommendations to the base. I replied, ``Yes, and I hope your 
new field office in Wilmington is working with them.'' Mr. 
Rundgren replied that they were. I further replied that base 
needed assistance and his department would be of great value.
    I left the laboratory in 1984 and the company was sold in 
1985. Until being contacted my Mr. Mike Partain in 2009, I am 
unaware of any communications concerning the water quality at 
the base, our analysis, recommendations for water quality 
improvement or supplemental discussions being directed to 
myself or former employees of Grainger Labs.
    Subsequent to leaving Grainger Labs, I continued an active 
profile in environmental compliance and consulting work and 
that included discussions with U.S. Navy personnel at the 
Atlantic Division, known as LantDiv, who were responsible for 
environmental cleanup at the base. I remember asking about the 
contaminated drinking water and being told that there were 
several problems to be addressed at the base. No details were 
provided except a passing reference that a dry cleaning 
operation near the base was determined to be responsible for 
some of the contamination.
    It is disappointing to know of an absence of response by 
the Marine Corps to the contaminated water conditions. I 
attribute this to be a lack of knowledge surrounding the Safe 
Drinking Water Act, conventional water utility operations and 
an unawareness of the toxicological potential of the 
contaminants. In retrospect, I genuinely regret that my 
organization and myself were not more diligent in presenting 
this hazard to base personnel for surely many would have been 
saved from this health hazard, the exposure, and if the Marine 
Corps was more alert and committed to corrective actions. The 
Marine Corps explanation in their historic dinking water 
brochure does not account for a direct historic perspective of 
the water quality and the exposure of base personnel. Instead, 
a reactive profile for corrections after the exposure of base 
personnel is present. There is no question that military 
personnel, dependants, and base personnel were exposed to a 
hazard and that corrections were eventually accomplished. The 
poor interest from the utility manager leads me to believe that 
the corrective actions were certainly slow and due to a lack of 
knowledge. I also question what the independent research 
initiative referenced in the brochure could accomplish with a 
literature study and no review of compliance analysis of the 
drinking water supply.
    The presence of any contaminant in a potable water supply 
should drive a diligent pursuit of the source of the 
contamination. The fact that a contaminant is not a regulated 
compound is not a reason to simply ignore it. That indicator 
says there is something else in the water, there is a source, 
and in normal operations, the practice is to pursue that 
source, define it completely and certainly quarantine that 
water supply until you make that determination.
    Most of the U.S. military bases were established as 
enclaves that were independent and self-sufficient. These same 
bases are now commonly bordered by municipalities with utility 
options that are superior to current base operations. The 
recent move for privatization by the Department of Defense may 
solve many of these operational problems.
    With whatever path the utility operations for military 
facilities is improved, an oversight should continue to assure 
that the well-being of military personnel, their dependants and 
base personnel will be sustained.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hargett follows:]
                Prepared Statement of Michael C. Hargett
    Subject: Drinking Water Analysis Performed by Grainger Laboratories 
for the United States Marine Corps Base, Camp Lejeune, North Carolina
    I am Michael C. Hargett a former co-owner and vice president of 
Grainger Laboratories in Raleigh, NC. Grainger Laboratories was founded 
in 1973 to provide analytical and consulting services to industry, 
government and commercial customers in the southeastern United States. 
Our services included drinking water analyses that were certified under 
the Safe Drinking Water Act (SDWA) otherwise designated as Public Law 
92-523.
    The SDWA applies to every public water system in the United States. 
There are currently more than 160,000 public water systems regulated by 
the SDWA providing water to almost all Americans at some time in their 
lives. The SDWA and derivative legislation define public water system 
as an entity that provides ``water for human consumption through pipes 
or other constructed conveyances to at least 15 service connections or 
serves an average of at least 25 people for at least 60 days a year.''
    The Safe Drinking Water Act was, at the time of our service to the 
US Marine Corps Base at Camp Lejeune, North Carolina (MCB) administered 
by the State of North Carolina, Public Water Supply Section of the 
Dept. of Environmental and Natural Resources, Water Supply Protection 
Program under a Primacy agreement that is still in place today.
    In 1970 Executive Order 11514 for Protection and enhancement of 
environmental quality directed The Federal Government to provide 
leadership in protecting and enhancing the quality of the Nation's 
environment to sustain and enrich human life. As a result, Federal 
agencies initiated measures to direct their policies, plans and 
programs so as to meet national environmental goals. The SDWA included 
clearly established goals that instituted standards for water quality, 
supply and distribution throughout the United States.
    In 1974 Congress enacted the Safe Drinking Water Act (SDWA) (P.L. 
93-523, 88 Stat. 1660) to protect the quality of both actual and 
potential drinking water in the United States. Congress had created the 
SDWA in response to a nationwide survey that revealed health risks from 
inadequate public water-supply facilities, polluted supplies, and 
operating procedures that did not achieve a safe water quality. To 
achieve its goal the SDWA provides water quality standards for 
drinking-water suppliers, protects underground drinking-water sources, 
and directs appropriate deep-well injection of wastes.
    The SDWA requires the U.S. Environmental Protection Agency (EPA) to 
regulate all ``public water systems,'' defined as systems that provide 
piped water for human consumption for at least sixty days a year to at 
least fifteen service connections or twenty-five people. The EPA does 
this through Primary Drinking Water Regulations, by which it first 
identifies contaminants that may pose a risk to human health and that 
occur in drinking water at potentially unsafe levels. Then the EPA 
specifies a Maximum Contaminant Level Goal (MCLG) for each contaminant, 
which is set at the level below which there is no predicted health 
risk. Finally the EPA creates a legally enforceable Maximum Contaminant 
Level (MCL), which is the greatest amount of contaminant that will be 
allowed in the public water supply. This MCL must be set as close as is 
feasible to the MCLG after taking into account the best technology, 
treatment techniques, and costs. Since the 1996 amendments discussed 
below, the EPA may instead require a Treatment Technique for removing 
the contaminant if there is neither an economically or technologically 
feasible MCL, nor an accurate way to measure the contaminant in water.
    States generally obtain primary authority to implement the SDWA 
after proving to the EPA that they will adopt and enforce standards at 
least as stringent as the national standards. While the states may 
oversee the program, the public water systems themselves physically 
ensure the safety of the tap water through treatment, testing, and 
reporting. In addition to these ``at the tap'' protections, the SDWA 
requires states and public water suppliers to protect initial water 
sources from contamination. In particular, the SDWA provides for an 
Underground Injection Control (UIC) program to prevent contamination of 
underground water sources by underground injection of contaminated 
fluids.
    Due to criticism that the original act was an inflexible, unfunded 
mandate with an unattainable regulatory schedule, the 104th Congress 
extensively amended the act in 1996 (P.L. 104-182, 110 Stat. 1613). 
These amendments included new pollution prevention approaches, public 
information requirements, added flexibility to the regulatory process, 
and a Drinking Water State Revolving Fund. Pollution prevention took 
the form primarily of source-water quality assessment programs to 
determine the current health of water supplies and delineate the area 
to be protected. In addition, public water suppliers were required to 
inform their year-round customers about the source and quality of their 
tap water with an annual consumer confidence report.
    The most important element of the amendments was the critically 
necessary funding mechanism added to the SDWA's stringent water quality 
requirements. This fund provided federal monetary aid to public water 
systems to repair and upgrade their facilities, focusing particularly 
on assisting small and disadvantaged communities that might otherwise 
find these repairs too expensive. The fund also gave priority to 
programs using pollution prevention to safeguard their drinking water 
supply.
    US Marine Corps Base personnel at Camp Lejeune, NC initiated 
discussions with my office in 1982 to determine compliance with the 
SDWA. Over the months that followed, our team assisted base personnel 
in defining their compliance with the expectations of the State of 
North Carolina and the SDWA, identification and quantification of 
contaminants in the drinking water supply, and discussions on operating 
practices that could avoid exposure for the Marines, dependants, and 
base personnel that were consuming this potable water supply.
    Copies of our analytical reports and correspondence with base 
personnel have been provided to this committee and agencies and 
contractors reviewing the history of water quality at the base and its 
associated housing units. Additional telephone discussions, trips to 
the base for meetings with utility personnel, and an attempt to bring 
to the attention of base utility personnel the implications of the 
contaminated water were included in our support of base personnel.
    The initial requests from the base required a statement of our 
qualifications as a certified laboratory to perform Trihalomethane 
(THM) analysis under the SDWA, sampling instructions, a formal price 
quotation, and special sample containers that were both suitable and 
compliant with established protocols for sampling, transport and 
preservation of the samples. The sampling required a sample withour 
bubbles or an air space above the sample to minimize volitization of 
the water content. A special technique was needed to apply a septum to 
the mouth of the sampling container for a full sample and later 
extraction through the septum without contaminating or releasing the 
targeted analytes. The sampling method was new to many utility 
personnel and frequently, training, resampling and discussions were 
needed to establish a representative sample.
    The first set of samples we received from the base were not in 
compliance with the SDWA and had a significant interference present. 
This interference was exceptional and after discussions with the 
analytical chemist, Mr. Bruce Babson and his supervisor, Mr. Paul 
Brafford, we decided to request additional samples from the base. A 
second set of samples presented similar results. In discussions with 
the Grainger Laboratories management team, a decision to define the 
interference at the expense of our company was made and the chlorinated 
solvents were identified and the contamination level was established. A 
decision to visit the base and initiate discussions resulted.
    I visited the base with fresh sample bottles and met with the Base 
Chemist, Ms. Betsy Betz, to obtain a third set of samples and discuss 
the implications of the contaminated water. Chlorinated solvents in the 
drinking water was deemed a hazard to consumers at the MCB and 
warranted delineation, control and mitigation of the risk. The third 
set of samples taken by myself was also not in compliance with the SDWA 
and the monthly sampling for THM. A campaign to define the well or 
wells generating the highest levels of THM and chlorinated solvents was 
started. From the analytical results you may see that the wells with 
chlorinated solvents were established.
    In a letter of August 10, 1982, Ms. Betz points out the health 
effects of exposure to the chlorinated solvents present in the drinking 
water and she appropriately points out that the pollutants were 
unregulated at that time. Her repeated reference to the toxicity of the 
chlorinated solvents demonstrates concern and an awareness of the 
importance of the issue. I must ask why this urgent alarm was 
unanswered. Exposure to chlorinated solvents incuded liver, kidney, 
nervous system, and other disruptions to human physiology. A more 
precise definition of the toxicological burden of these chemicals can 
be addressed by experts in this arena.
    Another trip to the base was made to meet with the water well 
operators (maintenance personnel) who were responsible for the wells. 
We visited the wells with chlorinated solvents and discussed potential 
sources of the contamination. Information including hydrologic data was 
not available that could assist in this determination. At the 
conclusion of the field discussions, I strongly suggested to Ms. Betz 
and the operator that the well field operation avoid the wells with 
high chlorinated solvent concentration. It was agreed that it was a 
good idea to quarantene this source. Afterwards, in discussions with 
Ms. Betz, the health effects and issues of SDWA compliance were 
discussed.
    A week later, Ms. Betz called my office to request that I come to 
the base to meet with base utility personnel. I agreed to do so and 
suggested that an additional sampling of current water quality would be 
appropriate. A meeting with the Deputy Utilities Manager for the base 
was set for the next week. This person was a Lt. Col. and after much 
deliberation I am unable to remember his name but I do remember being 
ushered into his office, Ms. Betz introducing me as a person that was 
very familiar with water supplies in eastern North Carolina, compliance 
with the SDWA and State of NC requirements, and stating that I was 
present to discuss the water quality issues at Hadnot Point and other 
residential water supplies. The Lt. Col. responded that this was 
something he would have to look into and we were dismissed. The total 
time in the Lt. Col.'s office chair was less than 5 minutes.
    Following the meeting, Ms. Betz apologized for the brusk treatment 
and explained that others would have to know about the problems. We 
went on to obtain additional samples that showed an improvement in 
compliance with SDWA and lower chlorinated solvent concentrations. The 
operating well field conditions and parameters were unknown at the time 
of sampling.
    Sampling at the MCB continued and a few months later, an engineer 
with the State of NC, Mr. Mike Bell, asked me if Grainger Laboratories 
was performing the water analysis for the MCB. I responded yes and he 
requested a copy of the analysis. I said I could not provide this 
report since it was the property of the Government and I provided the 
contact information for Ms. Betz. A few weeks later at a meeting of the 
American Water Works Association State Chapter, Mr. Chuck Rundgren, 
Chief of the Water Supply Branch and also Mr. Bell's supervisor, asked 
me the same question. I gave him the same response and he asked if I 
had provided any recommendations to the base. I replied ,'' . . . . 
.yes, and I hope your new field office in Wilmington is working with 
them.'' Mr. Rundgren replied that they were. I further replied that 
they (MCB) needed assistance and his department would be of great value 
to them. No further discussion with NC Government personnel concerning 
the MCB is recalled.
    I left the laboratory in 1984 and the company was sold in 1985. 
Until being contacted my Mr. Mike Partain in 2009, I am unaware of any 
communications concerning the water quality at the MCB, our analysis, 
recommendations for water quality improvement, or supplemental 
discussions directed to myself or any other former employees of 
Grainger Laboratories.
    Subsequent to leaving Grainger Laboratories, I continued an active 
profile in environmental compliance and consulting work that included 
discussions with U.S. Navy personnel at the Atlantic Division (LANTDIV) 
who were responsible for environmental cleanup at the MCB. I remember 
asking about the contaminated drinking water and being told that there 
were several problems that were to be addressed at the base. No details 
were provided except passing reference that a dry cleaning operation 
near the base was determined to be responsible for some of the 
contamination.
    It is disappointing to know of an absence of response by the MCB to 
the contaminated water conditions. I attribute this to be a lack of 
knowledge surrounding the SDWA, conventional water utility operations 
and an awareness of the toxicological potential of the contaminants.
    The Marine Corps explanation in the Camp Lejeune Historic Drinking 
Water brochure does not account for adirector historic perspective of 
the water quality and the exposure of base personnel. Instead a 
reactive profile for corrections after the exposure of base personnel 
is present. There is no question that military personnel, dependents, 
and base personnel were exposed to the hazard and that corrections were 
eventually accomplished. The poor interest from the Deputy Utilities 
Manager leads me to believe that the corrective actions were slow. I 
also question what the independent research initiative could accomplish 
with a literature study and no review of the compliance analysis of the 
distributed water supply;.
    Most of the US military bases were established as enclaves that 
were independent and self-sufficient. These same bases have now been 
surrounded by municipalities with utility operations that are superior 
to the independent, underfunded base utilities and with a higher 
quality set of resources than the Government installation. This 
deficiency is the responsibility of the US Congress and Department of 
Defense management.
    During the last 15 years the Congress has moved to privatize 
military base electrical, gas, water, wastewater and other utilities to 
commercial and utility companies with superior operational knowledge, 
engineering, system capabilities, and financial resources. It is 
possible that this transfer of Federal assets will improve the quality 
of utility operations including water supply to insure reliable, 
consistent water quality for our base personnel.
    With whatever path the utility operation for military facilities is 
improved, an oversight that assures the well being of military 
personnel, their dependants, and base personnel must be sustained.
    Thank you for this opportunity to address the committee and support 
its interest in the well being of the US warfighter.

                    Biography for Michael C. Hargett
    Mr. Hargett holds an undergraduate Bachelor of Science in Zoology 
and Masters Degree in Microbiology from North Carolina State 
University. For the last thirty eight years he has worked to apply new 
technologies to environmental challenges. He has been active in 
testing, evaluation, feasibility, demonstration and application of 
advanced technologies providing economical, reliable options for 
industrial, government and institutional compliance and environmental 
remediation problems.
    Mr. Hargett has successfully used innovative new solutions for his 
work with municipal and industrial water and wastewater plants, super-
fund site remediation, hazardous waste minimization, chemical weapons 
demilitarization, Chemical-Biological-Radiological-Nuclear-explosives 
protection and security, and refining of radioactively contaminated 
materials from nuclear operations for beneficial reuse as clean/safe 
metals.
    He is currently the General Director of Anchimeric Associates and 
provides consulting services for new technologies in emerging markets. 
His responsibilities include sponsorship, strategic planning and 
leadership of new products, technologies and programs for environmental 
problems and challenges.

    Chairman Miller. Thank you, Mr. Hargett.
    At this point we will begin our first round of questions. 
We will probably be interrupted by votes in a short while. The 
Chair now recognizes himself for five minutes.
    Dr. Clapp, I am not sure I have seen two witnesses' 
testimony that was as different as yours and General Payne's. 
In his written testimony, he says, ``Currently, scientific 
studies haven't determined reliably whether diseases and 
disorders experienced by former residents and workers at Camp 
Lejeune are associated with their exposure to contaminants in 
the water supply because of data shortcomings and 
methodological limitations.'' Do you agree with that?
    Dr. Clapp. Well, the studies of Camp Lejeune residents and 
family and dependants are still ongoing, so I suppose there are 
no finished--well, even studies that are finished are now being 
reevaluated because of additional information about what was in 
the water, so what we have to look at in coming to some kind of 
determination in this matter is other places where people have 
been exposed to these same chemicals. There is plenty in the 
literature about trichlorethylene, perchlorethylene and benzene 
and their health effects. So I guess it is true that the full 
scope of Camp Lejeune resident and dependent studies is not 
finished yet but that doesn't mean we don't know enough to act.
    Chairman Miller. So knowing what you do about the extent of 
the exposure, the levels of contamination of TCE, PCE and 
benzene, do you think it is correct that we do know that there 
are consequences?
    Dr. Clapp. Absolutely, yes.
    Chairman Miller. Okay. Also in his testimony, General Payne 
said, ``I want to begin by saying that the welfare of our 
Marines, their family members and our civilian employees is 
always of paramount importance to us in an organization and as 
individual Department of the Navy leaders,'' but at the same 
time does discuss the lack of regulations, that these chemicals 
were not subject to regulations, the Safe Drinking Water Act at 
the time. Mr. Hargett makes that point in his testimony. What 
was the state of the science in the early 1980s about the 
effect of TCE and PCE, even if they were not specifically 
forbidden by the Safe Drinking Water Act? What did we know 
about the consequences of exposure to those chemicals?
    Dr. Clapp. Well, and benzene. Benzene a lot was known about 
by the early 1980s. TCE was, as I mentioned, the contaminant of 
most concern in Woburn, Massachusetts, and that came to 
national attention in 1979, and in the early 1980s there were 
several studies actually, one by the state health department, 
one by researchers at Harvard School of Public Health, and the 
Dana Farber Cancer Institute, that suggested a number of 
childhood illnesses and childhood leukemia were associated with 
exposure to contaminated water, primarily with 
trichlorethylene, and that was known in the early 1980s. 
Studies in New Jersey had been done, or either had been done or 
were underway at that point, again showing adverse reproductive 
outcomes in people who lived in towns that had contaminated 
drinking water. Colleagues from ATSDR previously worked at the 
New Jersey Health Department and carried out those studies. So 
I would say that there was some convincing evidence in the 
early 1980s that these kinds of things in drinking water were 
harmful for at least children and perhaps adults as well. And 
then for workers, lots was known about both of these chemicals, 
all three of these chemicals.
    Chairman Miller. Mr. Partain, perhaps with the exception of 
lawyers and perhaps some of the ATSDR experts, you probably 
know more than anybody about the documents, Camp Lejeune's 
documents. You have emphasized in your testimony that many of 
the documents about the contamination of the drinking water 
have really just become public in the last year. Do you believe 
that the failure to discover those documents was that the Navy 
simply didn't know they had them or what do you think?
    Mr. Partain. Well, as the polluter, the Navy and the Marine 
Corps have the responsibility to retain these documents and 
know what they have, and this electronic portal that was 
discovered accidentally by ATSDR in March of 2009 was a 
repository for the Hadnot Point fuel farm UST program and 
contained in that repository was the documentation that the 
fuel loss at Hadnot Point was 1.1 million gallons of fuel. Now, 
prior to discovery of this information in that portal, the 
Marine Corps had informed the media, the public, Congress that 
according to their inventory records, up to 50,000 gallons of 
fuel had been lost at Hadnot Point. There is a big disparity 
between 50,000 gallons and 1.1 million gallons of fuel in the 
groundwater, and I would like to see the Navy and the Marine 
Corps produce written notification--or, I am sorry--produce 
documents, written documents showing that they notified the 
Marine Corps--I mean the ATSDR of this information, which has 
affected their studies.
    Chairman Miller. Thank you, Mr. Partain.
    My time is expired. I am going to set a good example to 
others. I will now recognize Dr. Broun for five minutes.
    Mr. Broun. Thank you, Mr. Chairman.
    I would like to ask the three patients, I consider 
patients, as well as your testimony, and I apologize for having 
to leave for a few minutes; I am very well aware of your 
testimony, but what is your assessment of the claims appeals 
process in which you have participated and succeeded as well as 
the ongoing status of disability approval for the rest of Camp 
Lejeune veterans? Let me start with Mr. Partain.
    Mr. Partain. Well, as a dependant child of a Marine 
officer, I do not qualify for VA care nor have I made a claim 
in the VA because of that. My care was given to me through my 
private insurance I had with my employer, and even with that, 
it put my family to the brink of bankruptcy.
    I have talked to Mr. Devereux and some of the other 
veterans who have gone through the VA process, and it has been 
nothing short of a nightmare, from what I understand. A lot of 
these people that do put the claims in are denied. Many of them 
give up and walk away thinking that there is no way they can 
prove this. They are frustrated by their medical doctors, you 
know, not being able to provide a nexus letter because of, for 
lack of a better word, fear that they will be ridiculed in the 
professional community.
    Mr. Broun. Mr. Devereux.
    Mr. Devereux. Yeah, I want to just say not only is it 
personally devastating to be diagnosed with something like this 
and then you feel like you have to beg, you know, for something 
like you have to prove that you are right, you know. It was 
really not only am I am physically challenged now, of course 
financially, it affected my family tremendous. We made 
unbelievable changes. So it was very difficult to go through 
this process, and I really hope that they can speed up the 
process for people. There is a lot of people in my situation 
that unfortunately don't have a lot of time to live based on 
the past results, you know, so it would be nice if they could 
really expedite the process for a lot of people and I commend 
them for at least allowing me benefits and a few other people. 
I hope they can continue this type of action in a more speedy 
process.
    Mr. Broun. Mr. Watters?
    Mr. Watters. My experience with the VA claims process was 
that the denials I got apparently came from people who were 
extremely inexperienced. There were lots of errors, lots of 
mistakes in the written reason for the denials, and it was only 
when I was able to talk with a decision review officer who is a 
senior person who has much more experience that I was able to 
get the message across.
    The other thing is, as I mentioned, I had resources 
available to me in the medical school that most veterans don't 
have. Had I not had those, I would still be fighting with the 
Veterans Administration on my claim. I think the speed of the 
process or the slowness of the process is a major issue, and as 
Mr. Partain knows, I had reached a level of frustration and I 
even stated this in writing, I was planning on going down to 
the VA office in Waco. I was going to publicly announce a 
hunger strike. I was going to stop all of my cancer medications 
in order to try to speed the process and get someone at the VA 
at the regional office in Waco to listen to what I had to say.
    Mr. Broun. Thank you, sir.
    Certainly, as one who believes very strongly in fulfilling 
the government's promise to veterans and their families, I am 
very eager to pursue this further with all of you all because I 
believe very firmly that the VA needs to take care of our 
veterans, once they have left the military, and their families 
also. It is a sacred duty that we have.
    Dr. Clapp, you suggested the Department of Veterans Affairs 
determine a presumption classification for veterans exposed 
while they were residents at Camp Lejeune similar to 
legislation that established the classification for Agent 
Orange. What is the difference in the scientific knowledge 
between these cases and how many veterans make claims to the VA 
for diseases resulting from exposure to Agent Orange before 
Congress passed that legislation?
    Dr. Clapp. Two very complicated questions. The state of the 
knowledge----
    Mr. Broun. You have 16 seconds to answer.
    Dr. Clapp. I would say the state of the knowledge is 
comparable actually. When we started out with the Agent Orange 
Act in 1991, there was quite a bit of published literature by 
then, including some of my own.
    And then how many claims have been filed by Agent Orange 
exposed, I don't have that off the top of my head. The VA 
certainly can tell you that.
    Mr. Broun. Thank you so much.
    Mr. Chairman, my time is expired. I yield back.
    Chairman Miller. Thank you.
    Mrs. Dahlkemper is recognized for five minutes.
    Mrs. Dahlkemper. Thank you, Mr. Chairman.
    I want to thank all of you for being here today. I am from 
western Pennsylvania, a fair distance from Camp Lejeune but I 
have a gentleman in my district who I have met who spent time 
at Camp Lejeune named Cliff Armstrong who has suffered terrible 
ailments which he believes are a direct result of the time that 
he has spent there. He fears it will be impossible for him to 
win a disability claim from the VA, so I appreciate the time 
each one of you has dedicated to the men, women and their 
families who spent time at Camp Lejeune during those years, and 
I applaud your courage in continuing to fight for your rights 
and the rights of all those who really do need a voice, and I 
thank you for being that voice for so many.
    Mr. Partain, you seem to have really got great information 
on this whole case. What is the incidence of breast cancer in 
the general public of men in our country?
    Mr. Partain. Well, according to SEER, which is the 
Surveillance Epidemiology and End Results, the occurrence of 
male breast cancer in the general population is generally one 
in 100,000. The average, the percent chance a male has of 
experiencing breast cancer in his lifetime from birth to age 85 
is .01 percent, and the younger the man is at diagnosis, the 
rarer the cancer. Generally, male breast cancer is seen in men 
at age 70 or older.
    Mrs. Dahlkemper. And of those who contract it at a younger 
age, do they normally have the marker, the genetic marker?
    Mr. Partain. Yeah, the BRCA markers are, like in women it 
is a significant marker for breast cancer risk. In men, a lot 
of the breast cancer in men are associated with the marker, and 
the absence of the markers does increase the rarity of the 
cancer.
    Mrs. Dahlkemper. You don't know what those figures are, do 
you?
    Mr. Partain. I don't have them off the top of my head.
    Mrs. Dahlkemper. Dr. Clapp, would you know that?
    Dr. Clapp. Not off the top of my head.
    Mr. Partain. I did have the genetic testing. The people 
told me there that without the markers, my chance would drop 
down to like .05 percent in the general population.
    Mrs. Dahlkemper. I mean, I know it is very rare in the 
general public.
    Mr. Partain. Yes, the average is about 1,900 men per year 
are diagnosed with breast cancer out of a total of 235,000 
people diagnosed with breast cancer annually.
    Mrs. Dahlkemper. Thank you.
    Dr. Clapp, in the two years that the Marine Corps knowingly 
allowed the Marines and their dependants to continue to drink 
that polluted water, do you have any how many Marines and their 
dependants would have been exposed to benzene, TCE or PCE?
    Dr. Clapp. I think the water modeling process that is going 
on right now would answer that question. It is not finished 
yet, especially the benzene part is still being worked on, so I 
don't think there is a way to answer that question quite yet.
    Mrs. Dahlkemper. When will we have that information and how 
soon do they think they will have that?
    Dr. Clapp. I think the next panel will have that.
    Mrs. Dahlkemper. Okay. I appreciate that. And so you 
already talked about some of the kinds of diseases that are 
associated with such exposures, and so you don't have any hard 
numbers on those diseases yet either?
    Dr. Clapp. That have occurred in Camp Lejeune veterans and 
families? Not yet.
    Mrs. Dahlkemper. Okay.
    Dr. Hargett, do you believe that the Marine Corps knew, 
that they understood when you came in front of them with your 
test results of the potential harm to human health of those 
that were being exposed?
    Mr. Hargett. That would be somewhat speculative on my part, 
but no, I don't think they had an awareness of the nature of 
the contaminant or its potential impact. I don't think I was 
dealing with utility personnel other than the base chemist that 
understood what a chlorinated solvent was. The priority for the 
base utility personnel is to make sure that, number one, the 
water was sanitary, and secondly, that there was an adequate 
supply in the line at all times. Those were the priorities for 
the operators. The chemical nature of the water was not a 
concern.
    Mrs. Dahlkemper. So the woman that you had met with----
    Mr. Hargett. Ms. Betsy Betz.
    Mrs. Dahlkemper. You don't believe that she understood?
    Mr. Hargett. She sought to understand. She asked many 
questions, and I gave her references, and indeed, she did her 
own research to determine what the impact of this contaminant 
was in the water, and I think she was genuinely concerned over 
the dependants and Marines that were consuming it.
    Mrs. Dahlkemper. And then in the short meeting that you had 
that lasted less than five minutes, as you said, I think it was 
with--was it with a----
    Mr. Hargett. A Lieutenant Colonel.
    Mrs. Dahlkemper. Were you able at all to talk about the 
effects of these chemicals?
    Mr. Hargett. No. Ms. Betz presented him a rather large 
stack of our reports and her own memos concerning the water and 
he simply put those to the side and then we were dismissed, but 
I did not have any opportunity to discuss the significance, and 
I had made some preparation to do so, but no, we did not have 
an opportunity to have a discussion about that water.
    Mrs. Dahlkemper. Well, my time has expired, and I will 
yield back.
    Chairman Miller. Thank you.
    We have been called to votes but we have some time to get 
there, so perhaps we can get a shortened second round of 
questions in, excuse this panel, then we need to go to votes, 
and then have the second panel when we return for votes.
    Mr. Watters and Mr. Devereux, both of you have now had your 
claims honored but Mr. Partain is not a veteran. He is a 
dependant. Do you think it is fair that you are being 
compensated and Mr. Partain is not?
    Mr. Devereux. No, I absolutely do not. I think even in my 
statement, if I didn't publish, I apologize, but one of the 
things that I did agree on, not only was it just the Marines, 
the dependants, the civilians, I mean, he was really still part 
of the Marine Corps really. At Camp Lejeune, I mean, there were 
civilians also that I think should be under this, absolutely, 
no question about it.
    Chairman Miller. Mr. Watters?
    Mr. Watters. I am very concerned about the dependants, 
about the folks who cannot file a claim with the VA. I am also 
very concerned about the civil service personnel. The base had 
a huge civil service population and those people, many of those 
people worked there for 20 or 30 years and they drank this 
water. You know, I don't even know what their status is but I 
think it would be unfair to not address their concerns and do 
something about their health issues.
    Chairman Miller. Mr. Hargett, one of the peculiar arguments 
is that the Marines did not act more quickly because they knew 
that the water was contaminated with PCE and TCE but didn't 
know the source of it and therefore they did not act because 
they didn't know the source. When I have seen a fire truck 
careening down the street with sirens going, I would assume 
that they were in a hurry to get to a fire to put it out, not 
to get to a fire to investigate the source of the fire. Does it 
make sense to you that they would not close the well when they 
knew that it was contaminated, even if they did not know the 
source?
    Mr. Hargett. Mr. Chairman, it was--this one particular 
well, the 602 well, was one of six or eight wells in the field. 
Now, this was a field of wells drawing water from a rather 
shallow aquifer. That contaminated area would have been 
influenced by a local source. It would have been very easy to 
simply shut that well down, and that was the recommendation 
that I gave Ms. Betz and the operator, to not use that well.
    Chairman Miller. Dr. Clapp, quickly on the same point.
    Dr. Clapp. I am sorry. The----
    Chairman Miller. Does it make sense not to close the well 
if you don't know the source of the contamination but you know 
that it is in fact contaminated at the levels that we now know 
what we knew then?
    Dr. Clapp. I think it makes no sense not to close such a 
well.
    Chairman Miller. Okay. Without knowing the source?
    Dr. Clapp. Correct.
    Chairman Miller. Okay. I will now recognize Dr. Broun for a 
shortened period of time.
    Mr. Broun. Thank you, Mr. Chairman.
    Mr. Hargett, did you test water samples from other sites 
listed on the national priority list, and if so, how did the 
Department of Defense's response to the results you 
communicated differ from the response from other government 
entities facing similar situations at the time?
    Mr. Hargett. Most of our services for Safe Drinking Water 
Act compliance were for municipalities. Those municipalities 
were very concerned of any contamination of any kind that would 
show up in their water supply. If, for example, the city of 
Jacksonville adjacent to the base would find a well with 
anything, any contaminant, either chemical or biological, they 
would isolate that well and take it out of service until they 
knew what was going on in that well. We did not do additional 
priority pollutant analyses or additional screening. Our focus 
from the start was identifying the interference to our 
trihalomethane analysis. We wanted to know why we had trouble 
in getting an accurate quantification. So we focused on that 
area, the chlorinated solvents, because it interfered with our 
tests. We did not do additional survey work. It was discussed 
with Ms. Betz that additional evaluation was needed but we had 
no further activity in that area.
    Mr. Broun. Did you test any other wells besides those on 
Camp Lejeune, any in the general area?
    Mr. Hargett. We did the neighboring wells for the city of 
Jacksonville. We did analyses throughout eastern North Carolina 
for compliance. This was a regulatory requirement from the 
State of North Carolina that they define the level of 
trihalomethanes and report to the state those results.
    By the way, there was some absence of reporting protocol 
from the base, and that was part of the reason that the water 
supply section was concerned. If we were doing the analyses, 
where were their quarterly reports?
    Mr. Broun. Did you find any contamination in other wells 
besides those specifically on the base that eventually were 
closed?
    Mr. Hargett. No.
    Mr. Broun. No other place?
    Mr. Hargett. No other water supply systems in that area did 
we find that contaminant.
    Mr. Broun. But you did extensive testing in areas other 
than at Camp Lejeune itself?
    Mr. Hargett. That is correct.
    Mr. Broun. Okay. I yield back, Mr. Chairman.
    Chairman Miller. Thank you.
    Mrs. Dahlkemper is now recognized for two minutes.
    Mrs. Dahlkemper. Thank you, Mr. Chairman.
    Dr. Clapp, both Mr. Watters and Mr. Devereux, and I would 
say probably Mr. Partain might say the same thing, that if they 
had known of their exposure earlier, that they would have been 
more careful in monitoring their physical state for any kind of 
cancers that possibly could be caused by benzene, TCE and PCE. 
As it is, their cancers were identified late and they now are 
suffering the terrible consequences of that. The Navy only 
notified Lejeune veterans of problems with benzene, TCE and PCE 
in 2008 after Congress made them do it. If the Navy had acted 
earlier, say in the 1990s even, do you believe that it would 
have made a difference in the lives of not only those who are 
sitting here on this panel but maybe the lives of people who 
are no longer with us?
    Dr. Clapp. Yes, I do. I mean, I think it is sort of 
axiomatic that earlier diagnosis produces a better outcome. So 
if people had been notified, had gone to their physicians, 
gotten checked for, for example, kidney cancer or even male 
breast cancer, there would have been an earlier diagnosis of 
those tumors and less damage as a result.
    Mrs. Dahlkemper. Can I just ask your opinion of this 
booklet?
    Dr. Clapp. I haven't had a chance to review it.
    Mrs. Dahlkemper. You haven't had a chance to review it. 
Okay. I just was wondering.
    Well, I know that our time is limited because we have to go 
vote, but the booklet claims that there is no scientific 
studies that have shown an association between pollutants in 
water and human health outcomes, and so is there no literature 
on the exposure to these chemicals?
    Dr. Clapp. There is lots of literature that I think I have 
referred to.
    Mrs. Dahlkemper. Thank you very much, and I yield back.
    Chairman Miller. Thank you.
    We now thank this panel, and they are excused, and when we 
return from votes, probably in perhaps half an hour, we will 
have the second panel. Thank you very much. We will be at ease.
    [Recess.]

Panel II
    Chairman Miller. We will now begin with the second panel 
and--yeah, but I haven't introduced them yet. It is my pleasure 
to introduce our second panel. First is Major General Eugene G. 
Payne, Jr., the Assistant Deputy Commandant for Installations 
and Logistics for the Headquarters of the United States Marine 
Corps. Dr. Chris Portier is the new Director of the Agency for 
Toxic Substances and Disease Registry (ATSDR). I have asked 
that he be accompanied by Mr. Frank Bove of (ATSDR) who is 
familiar with these issues. Dr. Portier is new to this task, 
but Mr. Bove has worked on Camp Lejeune analysis for many 
years. And Mr. Thomas Pamperin is the Assistant Director under 
Secretary for Policy and Program Management of the Veterans 
Benefits Administration for the U.S. Department of Veterans 
Affairs.
    As all of you should know by now you will have five minutes 
for your spoken testimony, your written testimony will be 
included in its entirety in the record for the hearing. And 
when you have completed your spoken testimony we will have 
questions from the members and each member will have five 
minutes to question the panel. It is the practice of this 
Subcommittee to take testimony under oath. Do any of you have 
any objection to taking an oath? Let the records reflect that 
none of the witnesses had any objection to taking an oath. You 
may also be represented by counsel. Do you have personal 
counsel here? And let the records reflect that all the witness 
said that they have no personal counsel here. If you will now 
please stand and Mr. Bove, if you could stand as well. Do you 
swear to tell the truth and nothing but the truth? Okay, the 
record should reflect that all the witnesses and Mr. Bove did 
take the oath. We will begin with General Payne. General Payne, 
you are recognized for five minutes.

  STATEMENT OF MAJOR GENERAL EUGENE G. PAYNE, JR., ASSISTANT 
DEPUTY COMMANDANT FOR INSTALLATIONS AND LOGISTICS (FACILITIES), 
            HEADQUARTERS, UNITED STATES MARINE CORPS

    General Payne. Chairman Miller, Congressman Broun, 
Distinguished Members of this Subcommittee, thank you for the 
opportunity to appear before you and to participate in this 
hearing regarding past drinking water exposures at Marine Corps 
base Camp Lejeune. My name is Major General Grey Payne, and 
until recently I was the Assistant Deputy Commandant for 
Installations and Logistics for Facilities. I was responsible 
for Marine Corps facilities and services issues on our 
installations and bases to include environmental protection. I 
want to begin by saying that the welfare of our Marines, their 
family members, and our civilian employees is always of 
paramount importance to us as an organization and as individual 
leaders in the Department of the Navy. The Marine Corps is 
deeply concerned for any military or civilian families who are 
experiencing or have experienced health issues for any reason, 
and we understand that some believe their health conditions may 
have resulted from past exposure to the water at Camp Lejeune.
    Beyond my duties as Assistant Deputy Commandant I also have 
a personal interest in this issue, as do many of us in the 
senior leadership of the Marine Corps. The Corps is and always 
has been a large family, and we all knew people who were 
stationed or worked at Camp Lejeune during their military 
careers. My first tour of duty was at Camp Lejeune in 1970. 
Many of my friends and most of the senior leadership of the 
Corps, both officers and enlisted were at Camp Lejeune during 
the period when this water was contaminated. We have a personal 
and professional interest in finding answers to questions about 
the health of our Marine families. The best way to provide 
those answers at the present time is for us to continue to 
support scientific studies that will improve our knowledge of 
the situation. The Department of the Navy has funded $22 
million in such scientific efforts and we are committed to 
working closely with ATSDR and other scientific organizations 
in the quest for answers.
    As for any issue that impacts the public, accurate 
dissemination of information is imperative. The Marine Corps 
takes this responsibility seriously and will continue to keep 
our Marine family informed of the scientific findings and 
reports regarding those studies. The Marine Corps continues to 
operate a call center, an internet based notification registry 
in conjunction with a robust radio, print, and internet 
advertising campaign that has resulted in over 163,000 
individuals on our registry.
    In closing, I want you to know that I have received and 
responded to many letters and have personally spoken with 
individuals who feel that they have been harmed by past Camp 
Lejeune water. Their situations are often sad and my heart goes 
out to them. The Marine Corps is committed to fully and 
properly utilizing the tools available to support our Marines, 
family members, and civilian employees. I look forward to 
answering your questions. Thank you.
    [The prepared statement of General Payne follows:]
               Prepared Statement of Eugene G. Payne, Jr.
    Representative Miller, Representative Broun, distinguished Members 
of the Subcommittee; thank you for the opportunity to appear before you 
and participate in this hearing regarding past drinking water exposures 
at Marine Corps Base Camp Lejeune. My name is Major General Gray Payne 
and until recently, I was the Assistant Deputy Commandant for 
Installations and Logistics for Facilities. I was responsible for 
Marine Corps facilities and services issues on our installations, to 
include environmental protection.
    I want to begin by saying that the welfare of our Marines, their 
family members, and our civilian employees is always of paramount 
importance to us as an organization and as individual Department of the 
Navy leaders. The Marine Corps is deeply concerned for any military or 
civilian families who are experiencing or have experienced health 
issues for any reason and we understand that some may believe their 
health conditions resulted from past exposure to the water at Camp 
Lejeune.
    Beyond my duties as Assistant Deputy Commandant, I also have a 
personal interest in this issue, as do many of us in the senior 
leadership of the Corps. The Marine Corps is and always has been a 
large family, and we all know people who were stationed or worked at 
Camp Lejeune during their military careers. My first tour of duty was 
at Camp Lejeune in 1970. Many of my friends and most of the senior 
leadership of the Marine Corps, both officer and enlisted, were at Camp 
Lejeune during the period when the water was contaminated. We have a 
personal and professional interest in finding factually and 
scientifically supported answers to questions about the health of our 
Marine families. The best way to provide those answers at the present 
time is to support scientific studies that will improve our knowledge 
of the situation. We will also keep our Marine family informed of the 
scientific findings and reports regarding these studies. The Marine 
Corps is primarily a war-fighting organization, not a scientific one. 
In order to accomplish this scientific mission for our people, we are 
funding and receiving assistance from independent, objective, well-
recognized leaders in the scientific community. In this situation we 
rely on the expertise of scientific organizations like the Agency for 
Toxic Substances and Disease Registry (ATSDR), in the Department of 
Health and Human Services, and the National Academies, National 
Research Council (NRC) to inform our understanding of the ``state of 
the science'' on these important issues. The Department of the Navy has 
funded $22 million in scientific efforts and has exhausted countless 
hours in direct support of research initiatives.
    As with any issue that impacts the public, prompt and accurate 
dissemination of information is imperative. The Marine Corps takes this 
responsibility seriously and will continue to inform those who lived or 
worked at Camp Lejeune about any new developments. The Marine Corps 
operates a call center and internet-based notification registry to 
collect contact information from anyone who may have concerns about 
past water contamination at Camp Lejeune in order to provide current 
information to them. The Marine Corps is also continuing its robust 
outreach campaign including radio, print and internet advertising. Our 
efforts have resulted in over 163,000 individuals joining our 
notification registry.
    In addition to our communications with the public, the Marine Corps 
will continue to support and cooperate with the independent 
organizations like the ATSDR, Department of Veteran's Affairs, and 
others in an effort to get answers for those of our Marine Corps family 
and keep them informed of our progress.

KNOWLEDGE OF PAST ENVIRONMENTAL CONTAMINATION

    In 1981, Camp Lejeune officials became aware that volatile organic 
compounds (VOCs) were interfering with the analysis of potable water 
samples that were being collected in preparation for the implementation 
of future drinking water standards for Total Trihalomethanes (TTHM). 
Sampling conducted by a Navy contractor revealed that another chemical 
present in the water sample was interfering with the analysis; however, 
the specific type of chemical and source were unknown. Base personnel 
continued to sample the water for TTHMs over the next several years 
using various laboratories with varying results. Through targeted 
sampling in 1982 the Base detected that two of Camp Lejeune's eight 
public drinking water systems contained trichloroethylene (TCE) and 
perchloroethylene (PCE). TCE and PCE are chemicals commonly found in 
degreasing agents and dry cleaning solvents, respectively. It is 
important to note two key points. First, there were no drinking water 
regulations in place for TCE or PCE at the time of this discovery. 
Second, although the chemicals were identified in the drinking water 
systems, their origin remained unknown.
    In the early 1980's, the Naval Assessment and Control of 
Installation Pollutants (NACIP) program, a predecessor of the current 
Department of the Navy (DON) Installation Restoration (cleanup) 
Program, was already in the process of identifying contaminated sites 
on Base for further sampling and investigation. Plans were in place to 
sample potable wells near the identified contaminated sites. It was 
this sampling that eventually identified, between late 1984 and early 
1985, individual wells drawing groundwater containing TCE, PCE and 
other VOC's such as benzene. Base officials engaged in a concentrated 
effort to sample all wells on the installation as soon as they learned 
that the first well was impacted in late 1984. The Base completed this 
evaluation effort in 1985. If and when the Base officials received 
information that a well was contaminated, it was promptly removed from 
service.\1\ Although the Base began its proactive responses in 1984, 
initial Safe Drinking Water Act regulation of these VOCs did not begin 
until three years later. Final regulations were not in force for TCE 
and benzene until 1989 and not until 1992 for PCE.
---------------------------------------------------------------------------
    \1\ A separate investigation by the State of North Carolina in 1985 
revealed leaks from an off-base dry cleaner had contaminated the wells 
near the Tarawa Terrace housing area. The Hadnot Point water system was 
contaminated by on-base sources.
---------------------------------------------------------------------------
    It is important to keep in mind that the events surrounding this 
situation occurred anywhere from 25 to over 50 years ago. Environmental 
standards and regulations have changed dramatically over the 
intervening years as a result of advances in scientific knowledge and 
increased awareness. The events at Camp Lejeune must be considered in 
light of the scientific knowledge, regulatory framework, and accepted 
practices that existed at the time, not in the context of today's 
standards.

NOTIFICATION

    Camp Lejeune first notified military personnel and family members 
about the drinking water issue on December 13, 1984 through an article 
appearing in Camp Lejeune's newspaper, The Globe. Camp Lejeune also 
distributed a public notice to residents of Tarawa Terrace on April 30, 
1985. In May 1985, Camp Lejeune issued a press release announcing the 
water contamination problem. In that press release the Base explained 
the steps planned to restore water services to the affected base 
residents. Following a May 1985 Camp Lejeune press event, the 
Jacksonville Daily News, Wilmington Morning Star, and Raleigh News and 
Observer printed several stories on the situation and further 
disseminated the information. These were just the early steps in what 
evolved into a 25 year public outreach campaign.
    From 2000 through 2001, the Marine Corps undertook an extensive 
outreach campaign in support of ATSDR's children's health survey - 
including press briefings and releases, messages to Marines world-wide, 
stories in base publications and websites, and a town hall meeting in 
Jacksonville, North Carolina. These efforts resulted in numerous 
stories in local and regional print and television news outlets across 
America. Because of the Marine Corps outreach efforts, ATSDR was able 
to obtain enough respondents to continue their current epidemiological 
study on birth defects and childhood cancers.
    Congress later became interested in the public outreach program, 
resulting in the FY08 National Defense Authorization Act mandate that 
the Secretary of the Navy attempt to directly notify former residents 
of Camp Lejeune of their potential exposure to the chemicals. The Act 
also required that ATSDR develop a health survey to be included with 
the notification letter. On September 14, 2007, the Marine Corps posted 
a link to the registration database on its website (www.marines.mil/
clsurvey) to provide easy access for former Camp Lejeune residents and 
workers, as well as other interested parties, to register to receive 
updates on the ongoing studies or information about other new 
developments on this important issue. The Marine Corps also created an 
enhanced call center, which became operational on September 17, 2007, 
to allow people to register by phone. Each new registrant receives a 
welcome packet that includes information about the issue and points of 
contact for additional information.
    The Marine Corps continues to encourage former base residents and 
workers to register through general notification efforts. These general 
notifications include articles and/or advertisements in newspapers such 
as USA Today; periodicals such as Time, Newsweek, Sports Illustrated, 
and Good Housekeeping; internet advertisements on general consumer 
websites such as WebMD, Weather.com, and NFL.com; military related 
websites such as the Leatherneck, U.S. Navy Institute, and the Vietnam 
Veterans Association; internet search engines such as Yahoo and Google; 
and radio broadcasts. In addition, the Marine Corps sendt posters to 
Veterans of Foreign Wars District Offices, Veterans' Centers, 
commissaries, and Veteran's Affairs treatment centers across the 
country. To date, more than 163,000 individuals are on the registry. We 
receive new registrations each week, and we continue our pro-active 
outreach efforts.

COORDINATION WITH DEPARTMENT OF VETERANS AFFAIRS

    As part of the Marine Corp's robust outreach and notification 
campaign we have worked extensively with various Veterans Affairs (VA) 
offices. In 2007 and 2008 we sent notification and registry posters to 
over 200 VA centers in all 50 states as well as the US Territories and 
Washington, DC. We also sent copies of posters in 2007 and 2008 to 
Veterans of Foreign Wars District Offices and Military Treatment 
Facilities. In March 2009, we worked with VA public affairs personnel 
to prepare an email to alert VA program directors and other executives 
of new information about the water contamination; in particular, the 
pending release of the National Research Council report regarding Camp 
Lejeune Water. The email established a direct communication mechanism 
for VA personnel to contact Headquarters Marine Corps for additional 
information and assistance. We currently provide periodic updates of 
our notification registry information to the VA to enable them to 
assist us in our outreach activities.

SUPPORT OF ATSDR HEALTH INITIATIVES

    All military installations on the National Priorities List of 
hazardous waste sites, including Camp Lejeune which was listed in 1989, 
undergo a Public Health Assessment (PHA) conducted by the ATSDR to 
determine if there are any current or past health concerns resulting 
from past practices.
    ATSDR first visited Camp Lejeune in 1991. Beginning with this trip, 
Camp Lejeune provided information to ATSDR as part of the development 
of the PHA; the Marine Corps continues to provide ATSDR open access to 
any potentially relevant data in our possession today. As a result of 
the PHA, the ATSDR recommended an epidemiological study of former Camp 
Lejeune residents to determine what effect, if any, the VOCs may have 
had on the health of children exposed prenatally, a population ATSDR 
considered to be the most susceptible to health impacts from VOCs. In 
support of this recommendation, a health survey was conducted in 1999 
to identify children with certain health conditions who might be 
included in a case control study.
    In 2000, ATSDR requested assistance from the Marine Corps to reach 
additional participants for the health survey started in 1999. At the 
time, ATSDR had approximately 6,500 participants and they needed more 
for a statistically valid study. The Marine Corps helped ATSDR identify 
participants eligible for the survey through targeted and global 
notifications. For example, in January 2000, Camp Lejeune held an 
``open house'' with base residents and the Jacksonville community to 
discuss issues about the drinking water previously discovered to 
contain VOCs. In August 2000, Headquarters Marine Corps sent a message 
to all Marines worldwide in an effort to reach potential ATSDR survey 
participants. The Marine Corps published articles in numerous base 
newspapers including the Quantico Sentry, Camp Lejeune Globe, and Camp 
Pendleton Scout. Camp Lejeune sent a press release to other military 
base publications. In November 2000, Headquarters Marine Corps held a 
press briefing at the Pentagon asking media to assist in helping to 
reach potential survey participants. On January 25, 2001, Headquarters 
Marine Corps sent a second message to all Marines worldwide in an 
effort to reach potential ATSDR survey participants. In February 2001, 
the Marine Corps began regional media outreach efforts, and reached the 
following outlets:

        (A)  TV Stations--1027 outlets

        (B)  Daily Newspapers--1373 outlets

        (C)  Weekly Newspapers--1171 outlets

        Total: 3571 media outlets contacted.

    In order to support the ATSDR survey, in 2001, Headquarters Marine 
Corps obtained approval from the Department of Defense for a limited 
release of Social Security Number information covered by the Privacy 
Act to the ATSDR. Headquarters Marine Corps conducted extensive data 
searches for contact information to help ATSDR locate potential survey 
participants.
    Partly as a result of these efforts, ATSDR closed their survey in 
January 2002 with 12,598 participants; enough to go forward with their 
current epidemiological study on birth defects and childhood cancers.
    In July 2003, the ATSDR released a progress report of the survey 
and concluded that a follow-on case control/epidemiological study was 
warranted. The Marine Corps actively participated in publicizing this 
report through a press release, a webcast by the Deputy Commandant for 
Installations and Logistics, and by posting survey information on the 
Marine Corps Camp Lejeune drinking water webpage. ATSDR also determined 
in 2003 that extensive water modeling would be needed at Camp Lejeune 
in support of the case control study. That water modeling continues 
today and is currently projected to be complete in mid to late 2011. 
The case control study will be completed sometime thereafter.
    In July 2005, in an effort to fully identify the universe of 
information related to the historic drinking water issue at Marine 
Corps Base Camp Lejeune (MCBCL), Headquarters Marine Corps (HQMC) 
contracted to provide a comprehensive, transparent document search and 
collection effort covering Camp Lejeune areas and facilities. The 
contractor conducted a preliminary assessment and on 7 November 2005, 
invited ATSDR to attend its kick-off brief for the base-wide document 
search. ATSDR staff made comments that the Marine Corps integrated into 
search parameters. In December of 2005, the Marine Corps provided ATSDR 
a copy of the ``Camp Lejeune Water'' (CLW) database on CD per ATSDR 
request.
    From February through July 2006, the contractor conducted an 
exhaustive search of MCBCL and its facilities. The Marine Corps 
intended to systematically identify and inventory pre-1988 documents 
pertinent or useful to analyzing the water issue at MCB Camp Lejeune. 
The search encompassed the contents of 718 buildings and resulted in 
locating 8,599 documents (390,782 PDF pages). In July 2006, ATSDR 
followed up this search with another visit to MCBCL to review more 
documents.
    From February 2008 through March 2009, the contractor converted 
documents into electronic formats by scanning, indexing, and image-
preserving, as part of the on-going records management initiatives in 
direct support of the document repository. In November 2008, ATSDR made 
another site visit to review collected documents. In early 2009, the 
Marine Corps provided ATSDR with user name and password access to 
hundreds of MCBCL environmental documents via a controlled internet 
gateway in order to facilitate ATSDR's receipt of information. 
Furthermore, ATSDR was provided with a full document repository index 
prior to another visit on 26-27 May 2009. ATSDR used this index to 
identify documents they wanted to review for further evaluation. ATSDR 
reviewed the documents while at Camp Lejeune and the Marine Corps again 
provided copies of requested documents.
    In June 2010, the Department of the Navy and ATSDR established a 
Data Mining Technical Workgroup to complete the identification, review, 
and exchange of documents, data, and information needed for ATSDR's 
studies. Both agencies felt that the most effective way for ATSDR to 
continue with its studies was to establish this Workgroup that will 
closely review all repositories of available data and information in 
order to identify any additional data and information that may be of 
value to ATSDR's health initiatives at Camp Lejeune. The Workgroup's 
efforts serve to formalize the existing shared commitment to complete 
the data mining activities to completion. The Workgroup has convened 
three times and has made significant progress to complete its goals.

INDEPENDENT REVIEWS AND INVESTIGATIONS

    Three independent reviews have been conducted of the actions taken 
by Marine Corps personnel on this matter: an independent Fact-Finding 
Panel chartered by the Commandant of the Marine Corps, an EPA Criminal 
Investigation Division (CID) investigation, and a Government 
Accountability Office (GAO) review.
    In 2004 the Fact-Finding Panel determined, among other things, that 
Camp Lejeune provided drinking water at a level of quality consistent 
with general water industry practices in light of the evolving 
regulatory requirements at the time.
    Among the EPA CID's 2005 conclusions was a determination that there 
had been no violations of the Safe Drinking Water Act, no conspiracy to 
withhold information, falsify data, or conceal evidence.
    In 2007 the GAO issued a report reviewing the Camp Lejeune drinking 
water factual history and technical aspects of ATSDR study. The report 
had no findings or recommendations for the Marine Corps.
    In accordance with the 2007 National Defense Authorization Act, the 
Marine Corps contracted with the National Academies' National Research 
Council (NRC) to review the evidence regarding potential associations 
between exposure to contaminated drinking water at Camp Lejeune and 
adverse health effects in prenatal children, children, and adults. The 
NRC review report concluded that while former Camp Lejeune residents 
and workers were exposed to unregulated solvents, the committee did not 
find sufficient evidence to justify causal inference for any health 
effects it reviewed. The report also noted that the exposures required 
to cause adverse effects in laboratory animals were much larger than 
the highest measurements available on the Camp Lejeune water supplies; 
evidence that humans have lower sensitivity to TCE and PCE than 
rodents; epidemiological data largely from occupational settings with 
higher, longer-term exposures to TCE and PCE that has not generated 
compelling evidence of adverse health effects; and the relatively 
short-term intermittent nature of the exposures incurred at Camp 
Lejeune. The review concluded, however, that adverse health effects 
could not be ruled out and that the DON (and other policy makers) 
should move forward with responses they deem appropriate based on 
available information.

CONCLUSION

    As I mentioned above at the beginning of my testimony, the welfare 
of our Marines, their family members, and our civilian employees is of 
paramount importance I have received many letters and have personally 
spoken with individuals who feel that they have been harmed by Camp 
Lejeune water. Their situations are often sad, and my heart goes out to 
them. The Marine Corps is committed to fully and properly utilizing the 
tools available to support our Marines and family members. However, 
under current law the Department of the Navy cannot provide 
compensation for claims for illness, disease, or injury without a 
demonstration of causation and we do not have that at this time. 
Currently, scientific studies haven't determined reliably whether 
diseases and disorders experienced by former residents and workers at 
Camp Lejeune are associated with their exposure to contaminants in the 
water supply because of data shortcomings and methodological 
limitations. We assure you that we will continue maximum efforts to 
take appropriate actions for our Marines, their family members, and 
civilian employees.

                   Biography for Eugene G. Payne, Jr.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Major General Payne currently serves as Assistant Deputy Commandant 
for Installations and Logistics (Facilities), Headquarters, United 
States Marine Corps.
    A graduate of North Carolina State University, Major General Payne 
entered the Marine Corps in 1970 as a recruit at Parris Island, SC. On 
January 1, 1976 he was promoted from Staff Sergeant to Second 
Lieutenant and received an Infantry Officer MOS.
    His nine command tours include three companies: Truck Company, 6th 
Motor Transport Battalion, Orlando, FL (October 1985 to May 1988); 
Company C, 4th Landing Support Battalion, Charleston, SC (October 1989 
to August 1990); and H&S Company, 2d Marine Expeditionary Brigade, Camp 
Lejeune, NC (September 1990 to July 1992). From October 1993 to October 
1995 he served as Commanding Officer, 4th Landing Support Battalion, 
4th FSSG, Seattle, WA. During this two-year tour, the Battalion won 
five major awards for excellence, including two Cates Awards, two 
Hanson Awards, and the Schmidt Award. Major General Payne served as 
Commanding Officer, 4th FSSG Forward (East), Camp Lejeune, NC, from 
March 1999 to March 2001, as Deputy Commander, 4th FSSG, New Orleans, 
LA from June 2001 to September 2002, Commanding General, Marine Corps 
Mobilization Command, Kansas City, MO from May 2003 to November 2004, 
as Commanding General, Marine Corps Logistics Command, Albany, GA from 
November 2004 to July 2005, and Commanding General 4th Marine Logistics 
Group, New Orleans, LA from July 2005 to August 2007.
    Major General Payne's staff billets include Operations Officer, 2d 
BTO, Savannah, GA; G-4 Ops and Deputy G-4, 2d MEB, Camp Lejeune, NC; G-
3 Plans, Deputy G-3, and Assistant Chief of Staff G-3, 4th FSSG, New 
Orleans, LA; Assistant Chief of Staff G-3, Marine Forces Korea; 
Assistant Chief of Staff G-4, II MEF, Camp Lejeune, NC; Chief of Staff, 
Marine Corps Reserve Support Command, Kansas City, MO; and Director of 
the CENTCOM Deployment and Distribution Operations Center, Kuwait.
    During his service in the Marine Corps Reserve, Major General Payne 
has completed numerous schools, including Amphibious Warfare School, 
Command and Staff College, Landing Force Staff Planning, LOGTECH, and 
the U. S. Army War College, where he was awarded a Masters Degree in 
Strategic Studies. He is President of the Marine Corps Reserve Policy 
Board and currently serves on the MCA Board of Governors. His personal 
awards include the Defense Superior Service Medal, Legion of Merit 
Medal, Meritorious Service Medal with two gold stars, and the Navy and 
Marine Corps Commendation Medal with gold star.

    Chairman Miller. Thank you, General Payne. Dr. Portier. Dr. 
Portier, I should note that you are new to this job and this 
Subcommittee, and I have been very critical of ATSDR in the 
past. And I appreciate your coming to meet with me, and you do 
come well recommended by people I know at NIEHS and NIH and 
certainly hope that the ATSDR performs at least--perform an 
important function. And there are many very dedicated 
professionals there who want--who believe in the mission of 
ATSDR and want to do better in the future. So I welcome you to 
your new role.

    STATEMENT OF CHRIS PORTIER, DIRECTOR, AGENCY FOR TOXIC 
            SUBSTANCES AND DISEASE REGISTRY (ATSDR)

    Dr. Portier. Thank you, Mr. Chairman, and I believe in that 
mission as well. Good morning Chairman Miller, Ranking Member 
Broun, and other Distinguished Members of this Subcommittee. On 
behalf of the CDC Director, ATSDR Administrator Dr. Thomas 
Friedan, I thank you for the opportunity to be here today. I am 
Dr. Christopher Portier, Director of the Agency for Toxic 
Substances and Disease Registry and Centers for Disease Control 
and Preventions National Center for Environmental Health; a 
position I have held since August of this year. Prior to that I 
served for 30--for over 30 years at the NIEHS. I am accompanied 
today by Dr. Frank Bove from our Division of Health Studies. As 
I approach my new position at ATSDR I am keenly aware of the 
agency's important role in providing public health assistance 
and expertise to people and communities affected by hazardous 
substances. And I am committed to continuing the critical work 
of the agency at Camp Lejeune.
    In my testimony I will discuss ATSDR's involvement at Camp 
Lejeune. First, I will provide background on our health 
assessments and on the primary drinking water contaminants at 
Camp Lejeune. I will then address ongoing agency activities 
related to the base focusing on the community assistance panel, 
water modeling and health studies.
    In 1989, EPA placed U.S. Marine Corps base Camp Lejeune and 
ABC One Hour Cleaners, which is located very close to the base, 
on its National Priorities List of hazardous waste sites. 
Shortly thereafter in August of 1990, ATSDR completed a PHA, a 
public health assessment, addressing contamination from the ABC 
One Hour Cleaners. This assessment found that 
tetrachloroethylene--or PCE--was in the Tarawa Terrace water 
system and its supply wells. In 1997, ATSDR completed a PHA 
addressing all of Camp Lejeune. ATSDR's investigation at Camp 
Lejeune identified potential exposures to drinking water 
contaminated with benzene, trichloroethylene, known as TCE, 
PCE, and their degradation products in a number of those. Long 
term exposure to benzene has effects on the bone marrow and can 
cause anemia and leukemia. The National Toxicology Program 
Report on Carcinogens recognizes benzene as a known human 
carcinogen. The NTP lists trichloroethylene as reasonably 
anticipated to be a human carcinogen based on limited evidence 
of carcinogenicity from studies in humans and sufficient 
evidence of carcinogenicity from studies in experimental 
animals. The NTP lists PCE as reasonably anticipated to be a 
human carcinogen based on sufficient evidence of 
carcinogenicity in experimental animals. In the 13 years since 
the 1997 PHA was published, ATSDR, with help from ATSDR's Camp 
Lejeune Community Assistance Panel and others, has located 
additional information on VOC's in drinking water at Camp 
Lejeune, based in part on information obtained through ATSDR's 
ongoing water modeling and exposure reconstruction study. We 
have determined that persons in housing served by the Holcomb 
Boulevard system were exposed to contaminated drinking water 
for a longer period than we suspected in 1997, suggesting the 
possibility of increased risks. Further, recently discovered 
information indicates that benzene contamination at Hadnot 
Point was greater than what was assumed in 1997. ATSDR removed 
the PHA from its website in 2009, and we plan to reassess the 
drinking water pathway and revise the PHA when water modeling 
analyses are completed. It is becoming increasingly clear that 
information available in 1994 suggests to me greater emphasis 
should have been placed on benzene.
    In 2005, ATSDR established a Community Assistance Panel or 
CAP to facilitate the direct participation of the affected 
community in our Camp Lejeune related health activities. The 
CAP consists of seven community members. Also participating in 
CAP meetings are one representative from the Department of 
Defense, two independent scientific experts, and the ATSDR 
staff. The CAP has been instrumental in helping ATSDR by 
providing information vital both to the water modeling effort 
and to the design and implementation of the epidemiological 
studies. Water modeling is a key component of ATSDR's ongoing 
studies at Camp Lejeune, because only limited measurements of 
contaminant concentrations are available. ATSDR is using 
complex modeling techniques to reconstruct historical 
conditions of ground water flow, contaminant fate and 
transport, and the distribution of drinking water contaminated 
with VOC's delivered to family housing areas.
    Because of the vast amount of data and the historical 
nature of the information, it has been extremely difficult for 
ATSDR to obtain relevant information needed to complete its 
work at Camp Lejeune. While ATSDR has been provided with much 
information and given access to a large amount of information 
in the past, several new sources of critical and relevant 
information have recently been identified and relevant 
documents exist in several large storage systems in catalogues 
maintained by the Navy. ATSDR and the Department of Navy 
established a Camp Lejeune data mining technical work group in 
June 2010. The goal of this joint agency work group is to 
identify and inventory relevant information and data.
    I will quickly summarize: in addition to the data mining 
and modeling exercise we are doing four different 
epidemiological studies, and redoing one that we did earlier. 
Those studies depend upon that water modeling in order that we 
can address what individuals were exposed to, for how long, and 
to what contaminants, and use that in deciding if there is a 
relationship between the exposures and the diseases we will be 
looking at.
    I want to thank you very much for the opportunity to be 
here today and that ends my presentation.
    [The prepared statement of Dr. Portier follows:]
               Prepared Statement of Christopher Portier
    Good morning Chairman Miller, Ranking Member Broun, and other 
distinguished Members of the Subcommittee. On behalf of CDC Director/
ATSDR Administrator Dr. Thomas Frieden, I thank you for the opportunity 
to be here today.
    I am Dr. Christopher Portier, Director of the Agency for Toxic 
Substances and Disease Registry (ATSDR) and the Centers for Disease 
Control and Prevention's (CDC's) National Center for Environmental 
Health (NCEH), a position I have held since August of this year. I came 
to CDC from another agency in the Department of Health and Human 
Services, the National Institute of Environmental Health Sciences 
(NIEHS) at the National Institutes of Health (NIH). At NIEHS, I served 
most recently as the Senior Advisor to the Director and as a Principal 
Investigator in environmental systems biology. Prior to my time in that 
role, I served as Associate Director of NIEHS, Director of the 
Environmental Toxicology Program, and as Associate Director of the 
National Toxicology Program.
    ATSDR has a unique mandate to conduct human health studies and 
research related to community exposures to hazardous substances. 
Although knowledge of the relationships between chemical exposures and 
human health is often based upon studies of highly exposed workers or 
animal toxicology testing, there remains a pressing need to know 
whether lower level exposures and exposures away from the workplace can 
cause human illness. Drinking water contamination at Camp Lejeune was 
identified as a circumstance that would benefit from this type of 
investigation. As I approach my new position at ATSDR, I am keenly 
aware of the Agency's important role in providing public health 
assistance and expertise to people and communities impacted by 
hazardous substances. And, I am committed to continuing the critical 
work of the Agency at Camp Lejeune.
    In my testimony I will discuss ATSDR's involvement at Camp Lejeune. 
First I will provide background on our health assessments and on the 
primary drinking water contaminants at Camp Lejeune. I will then 
address ongoing Agency activities related to the base, focusing on the 
Community Assistance Panel, water modeling, and health studies.

Background:

    In 1989, the Environmental Protection Agency (EPA) placed U.S. 
Marine Corps Base Camp Lejeune and ABC One-Hour Cleaners, which is 
located very close to the base, on its National Priorities List of 
hazardous waste sites. Information that EPA had at the time indicated 
that releases of chemicals from both the cleaners and activities at 
Camp Lejeune contributed to contamination of two of the water supply 
systems serving certain areas of base housing.

ATSDR Public Health Assessments:
    In August 1990, ATSDR completed a Public Health Assessment (PHA) 
addressing contamination from the ABC One-Hour Cleaners. This 
assessment found that tetrachloroethylene--also known as 
perchloroethylene or PCE--was in the Tarawa Terrace water system and 
its supply wells. This raised ATSDR's concerns regarding the health of 
persons who consumed this water over extended periods, leading the 
Agency to conduct a more thorough evaluation of the contamination.
    In 1997, ATSDR completed a PHA addressing environmental 
contamination at Camp Lejeune. In this PHA, ATSDR concluded that past 
exposures in three drinking water systems on base to certain chemicals, 
including benzene and two common groundwater contaminants, 
trichloroethylene (TCE) and PCE, and their degradation products, posed 
a public health hazard. However, because of the limitations of the 
available scientific data relating to the harmful effects of these 
chemicals, the PHA recommended conducting an epidemiological study to 
assess risk to infants and children from potential maternal exposure 
during pregnancy to the VOC-contaminated drinking water.
    In the 13 years since the 1997 PHA was published, ATSDR, with help 
from ATSDR's Camp Lejeune Community Assistance Panel (CAP) and others, 
has located additional information on VOCs in drinking water at Camp 
Lejeune. Based in part on information obtained through ATSDR's ongoing 
extensive water modeling and exposure reconstruction study, we have 
determined that persons in housing serviced by a third water 
distribution system, referred to as the Holcomb Boulevard system, were 
exposed to contaminated drinking water for a longer period than we knew 
in 1997, suggesting the possibility of increased risks. Further, 
recently discovered information indicates that benzene contamination at 
Hadnot Point was greater than what was known in 1997. ATSDR removed the 
PHA from its website in 2009 and plans to reassess the drinking water 
pathway and revise the PHA when water modeling analyses are completed.

Primary Contaminants
    Benzene is a widely used chemical formed from both natural 
processes and human activities. Long-term benzene exposure has effects 
on the bone marrow and can cause anemia and leukemia. The National 
Toxicology Program (NTP) Report on Carcinogens has recognized benzene 
as a known carcinogen.
    TCE is a colorless liquid which is used as a solvent for cleaning 
metal parts. The NTP Report on Carcinogens classifies TCE as reasonably 
anticipated to be a human carcinogen based on limited evidence of 
carcinogenicity from studies in humans and sufficient evidence of 
carcinogenicity from studies in experimental animals. Most available 
information comes from animal studies or studies of workers who use 
these chemicals in the workplace. Very few studies have been conducted 
of people exposed to low levels of these chemicals in their drinking 
water. A meta-analysis of seven cohort studies found that occupational 
exposure to TCE was associated with excess incidences of liver cancer, 
kidney cancer, non-Hodgkin's lymphoma, prostate cancer, and multiple 
myeloma, with the strongest evidence for the first three cancers 
(Wartenberg et al. 2000).
    PCE is a manufactured chemical used for dry cleaning and metal 
degreasing. The NTP lists PCE as reasonably anticipated to be a human 
carcinogen, based on sufficient evidence of carcinogenicity in 
experimental animals. According to the NTP's 11th Report on 
Carcinogens, there is limited evidence for the carcinogenicity of PCE 
in humans.

Community Assistance Panel

    Based on recommendations from a scientific panel convened by ATSDR 
in 2005, ATSDR established a Community Assistance Panel--or CAP--to 
facilitate the direct participation of the affected community in our 
Camp Lejeune-related health activities. The original purpose of the CAP 
was to voice the concerns of the affected community of Marines and 
their families and to provide input for future health studies. In its 
January 2010 meeting, the OAP's mission was articulated as: ``To 
represent the interests, consequences, and quality of life of those 
impacted by exposure to toxic substances at Camp Lejeune. ATSDR will 
look at the potential for future studies at Camp Lejeune with the full 
inclusion of the community members affected.'' The CAP does not provide 
consensus advice to ATSDR in carrying out agency programs and 
activities, nor do CAP members speak for or represent ATSDR. The CAP 
consists of seven community members. Also participating in CAP meetings 
are one representative from the Department of Defense (DOD), two 
independent scientific experts, and ATSDR staff. Members of the CAP 
provide individual input, as well as represent the views of the 
community and groups to which they belong. Meetings are held quarterly 
and are open to the public.
    The CAP has been instrumental in helping ATSDR by providing 
information vital both to the water modeling effort and to the design 
and implementation of the epidemiological studies. The CAP has reviewed 
archived data, disseminated information about historical drinking water 
contamination at the base, advised other members of the affected 
community on how to apply for benefits from the Department of Veterans 
Affairs (VA), and represented the affected community's health concerns 
in discussions with VA administrators.

Water Modeling

    Water modeling is a key component of ATSDR's ongoing studies at 
Camp Lejeune. Because only limited measurements of contaminant 
concentrations are available, ATSDR is using complex modeling 
techniques to reconstruct historical conditions of groundwater flow, 
contaminant fate and transport, and the distribution of drinking water 
contaminated with VOCs delivered to family housing areas.
    Prior to the end of 1987, two of the water systems at Camp Lejeune 
were continuously contaminated, and one water system, Holcomb 
Boulevard, was intermittently contaminated with VOCs. This 
contamination changed in concentration over time depending on the 
source wells and other factors. Using water modeling ATSDR will 
estimate exposures for each housing area.
    These models are being used to characterize historical 
contamination sources and predict drinking water concentrations of PCE 
(and its degradation by-products of TCE, 1,2-DCE, and vinyl chloride), 
TCE (and its degradation by-products of 1,2 DCE and vinyl chloride), 
and benzene. ATSDR published Tarawa Terrace reconstructed drinking 
water results during 2007-2009.
    ATSDR-Department of the Navy Camp Lejeune Data Mining Technical 
Workgroup. Because of the vast amount of data and the historical nature 
of the information, it has been extremely difficult for ATSDR to obtain 
relevant information needed to complete its work at Camp Lejeune. While 
ATSDR has been provided with much information and access to a large 
amount of information in the past, several new sources of critical and 
relevant information have recently been identified, and relevant 
documents exist in several large storage systems and catalogs 
maintained by the Navy. To make sure that relevant information is 
located, ATSDR and the Department of the Navy established a Camp 
Lejeune Data Mining Technical Workgroup in June 2010. The goal of this 
joint-agency workgroup is to identify and inventory relevant 
information and data. These data are necessary to complete current 
water modeling activities and other Camp Lejeune health activities. The 
work of the group is ongoing, and the group is planning to complete its 
major activities in the fall of 2010.
    Completion of Water Modeling. Modeling of reconstructed drinking 
water concentrations for Hadnot Point and Holcomb Boulevard began in 
June 2007. Predictions from the modeling are expected to be available 
to ATSDR scientists conducting the epidemiological studies within a 
year, with publication of the water modeling results anticipated by the 
spring of 2012.

Health Studies

    Adverse Pregnancy Outcomes Reanalysis. In 1995, ATSDR began a study 
of adverse pregnancy outcomes at Camp Lejeune in relation to exposure 
to VOCs in drinking water. ATSDR found statistically significant 
associations for some subgroups (older mothers and mothers with 
histories of fetal loss) living in homes in Tarawa Terrace (PCE), and 
elevated risks of small for gestational age (SGA) births and low birth 
weights.
    Later information indicated that some women, who were considered 
not to be exposed because they were served by the Holcomb Boulevard 
system, were potentially exposed during pregnancy. ATSDR and the 
Department of Navy are engaged in intensive efforts to identify 
information needed for water modeling. ATSDR will conduct a new 
evaluation of adverse pregnancy outcomes when the modeled water 
concentrations are available.
    Case-Control Study of Specific Birth Defects and Childhood Cancers. 
ATSDR identified children born during 1968-1985 to mothers who were 
exposed to VOC-contaminated drinking water at Camp Lejeune at any time 
during their pregnancy. Cases of neural tube defects (i.e., spina 
bifida and anencephaly), cleft lip, cleft palate, leukemia or non-
Hodgkin's lymphoma were identified during a telephone survey conducted 
during 1999-2002, and have been confirmed by medical records. The 
parents of confirmed cases and a random sample of controls (i.e., 
children who did not have birth defects or childhood cancers) were 
interviewed in 2005. Analyses of this data will be conducted once the 
results of the water modeling become available.

Scientific Panel
    In February 2005, ATSDR convened a scientific panel composed of 
scientists from government and academia with expertise in epidemiology 
and public health, biostatistics, drinking water contaminants, 
pesticides, toxicology, reproductive health, and environmental health. 
The panel was asked to provide advice on whether additional 
epidemiological studies on the health effects of exposures to 
contaminated water at Camp Lejeune should be conducted. ATSDR convened 
this panel in response to concerns that ATSDR's studies of adverse 
birth outcomes and childhood cancers were too narrowly focused, and may 
have missed adult cancers and non-cancer diseases among children and 
adults. As this panel was not a federal advisory committee, panel 
members were asked to provide their individual opinions. ATSDR accepted 
panel recommendations to assess the feasibility of conducting a 
mortality study and a cancer incidence study. ATSDR subsequently 
concluded that a mortality study and a cancer incidence study are 
feasible.
    Mortality Study of Former Marines and Civilian Employees. This 
study will look at all causes of death, including cancers and other 
fatal diseases. All active duty Marines stationed on base at any time 
between June 1975 and September 1987 who began active duty service on 
or after June 1975 have been identified. In addition, all civilians 
employed at the base at any time between June 1974 and September 1987 
who began U.S. Department of Defense employment on or after June 1974 
have been identified. These cohorts will be compared to cohorts of 
active duty Marines and civilian employees from Camp Pendleton who were 
not stationed at Camp Lejeune during the period of drinking water 
contamination. The study is designed to identify significant changes in 
causes of death between the Camp Lejeune cohort and the Camp Pendleton 
cohort.
    Health Survey/Morbidity Study. The 2008 National Defense 
Authorization Act requires development of a health survey of persons 
possibly exposed to contaminated drinking water at Camp Lejeune. The 
survey will obtain information about cancers and other diseases thought 
to be related to exposures to the chemicals found in the drinking water 
at Camp Lejeune. The morbidity study will focus on those who were: 
active duty Marines stationed on base at any time between June 1975 and 
September 1987; civilians employed at the base at any time from 
December 1972 to September 1987; comparison cohorts of active duty 
Marines and civilian employees from Camp Pendleton who were not 
stationed at Camp Lejeune during the period of drinking water 
contamination; and active duty Marines and their dependents (spouses 
and children who are now all adults) who participated in the 1999-2002 
survey to identify cases for the case-control study of specific birth 
defects and childhood cancers. Those who registered with the U.S. 
Marine Corps (USMC), but who are not members of these cohorts, will be 
sent a survey but will not be included in the morbidity study.

Conclusion

    ATSDR has an essential role in providing public health support to 
people and communities impacted by hazardous substances. Our goal is to 
provide objective, scientific information to all who lived and worked 
at Camp Lejeune who want to know about the health risks from past 
exposures.
    Much of our remaining work at Camp Lejeune depends on the data and 
analyses that will come from our water modeling effort. The state-of-
the-art analysis, which predicts drinking water concentrations, will 
provide us with the best possible exposure estimate.
    However, the quality of the information produced by the water 
modeling effort is heavily dependent on beginning with the most 
accurate and complete data. The ATSDR /Department of the Navy joint 
Data Mining Technical Work Group was developed to provide high-level 
guidance in an intensive effort to identify and review Navy and Marine 
Corps documents, and to insure that any and all existing pertinent data 
is available to ATSDR's engineers and scientists.
    ATSDR serves the men and women--and their families--who lived and 
worked at Camp Lejeune while the drinking water was contaminated. As an 
Agency, we are honored to have the trust and support of former Marines, 
their family members, and the civilian employees of Camp Lejeune. Our 
work at Camp Lejeune and many other sites would not be possible without 
the support and partnership of multiple people and organizations.
    Thank you once again for this opportunity to testify before the 
Subcommittee.

                   Biography for Christopher Portier
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Christopher J. Portier, PhD, joined CDC in 2010 as the Director of 
the National Center for Environmental Health and Agency for Toxic 
Substances and Disease Registry. Dr. Portier came to CDC from the 
National Institute of Environmental Health Sciences (NIEHS), where he 
was the Senior Advisor to the Director and a Principal Investigator in 
environmental systems biology. Formerly, Dr. Portier was Associate 
Director of NIEHS, Director of the Environmental Toxicology Program at 
the NIEHS, and Associate Director of the National Toxicology Program.
    Dr. Portier is an internationally recognized expert in the design, 
analysis, and interpretation of environmental health data. His research 
efforts and interests include such diverse topics as cancer biology, 
risk assessment, climate change, bioinformatics, immunology, 
neurodevelopment, genetically modified foods, and genomics. From 2000 
to 2006, he managed the NTP and developed a strategic initiative that 
is internationally recognized for its innovation. He has contributed to 
the development of cancer risk assessment guidelines for national and 
international agencies and has either directed or contributed 
significantly to numerous risk assessments. He led the U.S. evaluation 
of electromagnetic fields by national and international scientists, 
which was the first comprehensive review in this field. Dr. Portier 
directed efforts of the U.S. government to develop a collaborative 
research agenda with Vietnam on the health effects of Agent Orange in 
that country. He has just directed a multiagency review of research 
needs for the health effects of climate change for the entire U.S. 
government. He has served as an advisor to the Finnish Academy of 
Sciences on the Centers of Excellence Research Program, as a member of 
World Health Organization/International Agency for Research on Cancer 
scientific committees, and as a reviewer for grants for the United 
States, the European Union, and many other grant-sponsoring 
organizations.
    Dr. Portier received his B.Sc. degree (1977) in mathematics (summa 
cum laude) and his MS (1979) and PhD (1981) degrees in biostatistics. 
He has authored more than 150 peer-reviewed publications, 30 book 
chapters, and 40 technical reports. In the past 5 years, he has given 
more than 70 invited lectures, many of them at international meetings.
    He has received numerous awards including the prestigious 
Spiegelman Award from the American Public Health Association and the 
Outstanding Practitioner of the Year Award from the International 
Society for Risk Analysis. He is a Fellow of the International 
Statistics Institute, the World Innovation Foundation, and the American 
Statistical Association.

    Chairman Miller. Thank you, Dr. Portier. Mr. Pamperin, you 
are recognized for five minutes.

    STATEMENT OF THOMAS J. PAMPERIN, ASSOCIATE DEPUTY UNDER 
SECRETARY FOR POLICY AND PROGRAM MANAGEMENT, VETERANS BENEFITS 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Pamperin. Thank you. Chairman Miller, Ranking Member 
Broun, and Members of the Subcommittee thanks for the 
opportunity to discuss the efforts undertaken by the Department 
of Veterans Affairs regarding water contamination at Camp 
Lejeune Marine Corps Base in North Carolina, and to explain the 
disability compensation process for potentially affected 
veterans.
    A 2007 final report of the Veterans Disability Benefits 
Commission, a congressionally mandated independent review board 
raised general awareness at VA of the potential water 
contamination at Camp Lejeune. The report indicated that the 
Agency for Toxic Substances and Disease Registry and the 
Department of Health and Human Services had conducted an 
environmental assessment of Camp Lejeune during 1997 which 
found that from the '50s to the mid-'80s persons residing or 
working at Camp Lejeune were potentially exposed to drinking 
water supplies contaminated with volatile organic compounds 
from an off base dry cleaning facility. Subsequent 
investigations also found evidence of benzene in the same water 
supplies presumably caused by leaking fuel storage tanks. In 
2009, the National Academy of Sciences National Research 
Council released a study titled ``Contaminated Water Supplies 
at Camp Lejeune'' assessing potential health effects. Currently 
additional studies on the contaminated water parameters of 
likely exposures and potential adverse health effects are being 
conducted by ATSDR.
    In response to the NCR's study, VA assembled a task force 
to determine whether the NCR report provided sufficient 
scientific basis for determining whether the population at Camp 
Lejeune had in fact suffered adverse health effects as a result 
of exposure to contaminants in the water supply. The task force 
is continuing to work and will submit its findings to the 
Secretary for consideration.
    In keeping with our mission, VA stands ready to provide 
treatment and compensation for any veteran whose current 
disability is the result of service at Camp Lejeune. My 
testimony outlines VA's disability claims process including the 
issue of presumptive disabilities, and addresses the specific 
situation at Camp Lejeune. VA provides compensation payments to 
veterans with current disability conditions that were caused or 
aggravated by an event, injury or disease that occurred during 
military service. These conditions are referred to as service-
connected disabilities. There is more than one way of obtaining 
a service-connected disability. The most common is direct 
service-connection, which is achieved when the record indicates 
an in-service event, a current medical condition, and a nexus 
between that event and the current condition. The nexus is 
normally provided through competent medical authority. However, 
another method of providing service-connection is through the 
use of a presumption of service-connection. Presumptive 
service-connection may be appropriate, for example, to overcome 
difficulties of proof in establishing that condition appearing 
after service is the result of a particular hazard encountered 
during such service or where the fact of exposure to the hazard 
is difficult to document. In particular, widespread herbicide 
use in the Republic of Vietnam during the Vietnam War has been 
well-documented, but is not feasible to determine whether and 
to what extent a particular Vietnam veteran was actually 
exposed. As a result, veterans who served in the ground--on the 
ground in Vietnam and on inland waterways are presumed to have 
been exposed to herbicides for purposes of application of the 
presumptions of service-connection for diseases recognized by 
VA as associated with such exposure.
    Presumptive service-connection differs from direct service-
connection in that the nexus between the current medical 
condition and the in-service event need not be established by 
additional medical evidence. VA has identified presumptive 
diseases associated with in-service events that include 
internment as a prisoner of war, service in a tropical 
environment, service in the Persian Gulf, certain service 
involving radiation exposure, and service involving exposure to 
herbicides such as Agent Orange. The Agent Orange Act of 1991 
created a procedure for establishing presumptions for service-
connection for diseases associated with exposure.
    The Secretary of Veterans Affairs is required to consider 
reports received from the National Academy of Sciences and all 
other medical and scientific information and analysis on the 
health effects of herbicide exposure. When the Secretary finds 
a positive association between herbicide exposure and the 
occurrence of a disease, the Secretary initiates a rule-making 
procedure to add the disease. A similar process was created by 
Congress to address concerns of Gulf War veterans. Presumptions 
can be a powerful tool for promoting efficiency, fairness, and 
justice claims adjudication.
    With specific respect to Camp Lejeune, VA does not operate 
a registry for this population or have special authority to 
enroll for health care veterans or their family members based 
upon service at Lejeune. The Marine Corps does have such a 
registry and VA has been working with DOD to get useful data 
for veterans who were stationed at Lejeune from the database. 
It has been estimated that approximately one million veterans 
and their dependents were assigned to Camp Lejeune during the 
period of the drinking water contamination. Veterans who are 
part of this cohort may apply for health care enrollment if 
they are otherwise eligible and are encouraged to discuss any 
specific concerns with their health care provider.
    VA processes disability claims based on service at Camp 
Lejeune and possible exposure to chemical contaminants on a 
case by case basis. This approach has been adopted because the 
evidence to date on the long term health effects due to 
potential contaminated drinking water at Lejeune is 
inconclusive. Establishing presumptive diseases at this point 
would be premature. Approximately 200 claims have been received 
based upon service at Camp Lejeune and approximately 20 
veterans thus far have been granted service-connection on a 
direct basis, most commonly for kidney diseases, non-Hodgkin's, 
and other cancers. For those cases that have been denied, 
claims have normally not been granted because of one or three 
criteria: the veteran did not serve at Lejeune during the 
period of the contamination, the current disease, or disability 
and the medical nexus between the current disease was not 
established.
    VA takes seriously its mission to ensure that veterans 
receive adequate services and compensation to honor their 
service to this nation. We are also committed to ensuring that 
the best medical and scientific information available informs 
the decisions we make. The exposure at Camp Lejeune presents a 
number of unique challenges. We are confident that we are 
addressing these challenges using the best possible science at 
our disposal to provide for the effected veterans, and we will 
continue to award benefits to veterans who present 
substantiated claims.
    This concludes my testimony and I would be happy to answer 
any questions.
    [The prepared statement of Mr. Pamperin follows:]
                Prepared Statement of Thomas J. Pamperin
    Chairman Miller and Members of the Subcommittee:
    Thank you for this opportunity to discuss the efforts undertaken by 
the Department of Veterans Affairs (VA) regarding water contamination 
at the Camp Lejeune Marine Corps Base in North Carolina and to explain 
the disability compensation process for potentially affected Veterans. 
I am pleased to be accompanied by Dr. Victoria Cassano, Director, 
Radiation and Physical Exposures Service, Veterans Health 
Administration.

Potential Water Contamination

    A 2007 final report of the Veterans Disability Benefits Commission, 
a Congressionally mandated independent review board, raised general 
awareness at VA of the potential water contamination at Camp Lejeune. 
The report indicated that the Agency for Toxic Substances and Disease 
Registry (ATSDR), in the Department of Health and Human Services, had 
conducted an environmental assessment of Camp Lejeune during 1997. 
ATSDR found that from the 1950s through the mid-1980s, persons residing 
or working at Camp Lejeune were potentially exposed to drinking water 
supplies contaminated with volatile organic compounds from an off-base 
dry cleaning facility and from on-base sources. These organic compounds 
included trichloroethylene and perchloroethylene. Subsequent 
investigations also found evidence of benzene in the same water 
supplies, presumably caused by leaking fuel storage tanks.
    In October 2008, the Department of the Navy issued a letter to 
Veterans who were stationed at Camp Lejeune. The letter explained that 
the Navy had established a health registry and encouraged those who 
served there to participate. In December 2008, VA issued a VA Health 
Care Fact Sheet on the contamination of the ground water at Camp 
Lejeune.
    In 2009, the National Academy of Sciences' National Research 
Council (NRC) released a study titled, Contaminated Water Supplies at 
Camp Lejeune, Assessing Potential Health Effects. Currently, additional 
studies on the contaminated water, parameters of likely exposures, and 
potential adverse health effects, are being conducted by ATSDR.
    In response to the NRC's study, VA assembled a Task Force 
consisting of the Under Secretary for Health, the Acting Under 
Secretary for Benefits, the General Counsel, and the Assistant 
Secretary for Policy and Planning. The Task Force's mission is to 
determine whether the NRC provided a sufficient scientific basis for 
determining whether the population of Camp Lejeune has, in fact, 
suffered adverse health effects as a result of exposure to contaminants 
in the water supply. The Task Force is continuing its work and will 
submit its findings to the Secretary for consideration.

VA Disability Compensation Benefits

    In keeping with our mission to care for Veterans, VA stands ready 
to provide treatment and compensation for any Veteran whose current 
disability is the result of service at Camp Lejeune. My testimony today 
will outline VA's disability claims process, including the issue of 
presumptive disabilities, and then address the specific situation at 
Camp Lejeune.
    VA provides compensation payments to Veterans with current 
disabling conditions that, among other things, were caused or 
aggravated by an event, injury, or disease that occurred during 
military service. These conditions resulting from military service are 
referred to as ``service-connected disabilities.'' There is more than 
one way to establish service connection. Establishing service 
connection on a ``direct'' basis is the most common means. Service 
connection generally requires sufficient evidence of an in-service 
event or injury, a current disability, and a link or nexus between the 
disability and the in-service event or injury. The medical nexus is 
often established through an examination and opinion from a competent 
medical authority.
    Another method of establishing service connection is through use of 
a presumption of service connection. ``Presumptive'' service connection 
may be appropriate, for example, to overcome difficulties of proof in 
establishing that a condition appearing after military service is the 
result of a particular hazard encountered during such service. A 
presumption may also be used in appropriate circumstances to establish 
exposure to a particular hazard in military service where the fact of 
exposure to the hazard is difficult to document. In particular, 
widespread tactical herbicide use in the Republic of Vietnam during the 
Vietnam era has been well-documented, but it is not feasible to 
determine whether, and to what extent, a particular Vietnam Veteran was 
actually exposed. As a result, Veterans who served on the ground in 
Vietnam, or on its inland waterways, are presumed to have been exposed 
to herbicides for purposes of application of the presumptions of 
service connection for the diseases recognized by VA as associated with 
herbicide exposure.
    Presumptive service connection differs from direct service 
connection in that the nexus between the current medical condition and 
the in-service event need not be established by additional medical 
evidence. The nexus is presumed to exist based solely on experiencing 
the in-service event and subsequently developing the disabling medical 
condition that is scientifically linked to the in-service event. 
Diseases that are presumed associated with specific in-service events 
are commonly called ``presumptive diseases.'' VA has identified 
presumptive diseases associated with in-service events that include: 
internment as a prisoner of war; service in a tropical environment; 
service in the Gulf War; certain service involving radiation exposure; 
and service involving exposure to certain herbicides, such as Agent 
Orange.

Presumptive Decision Processes

    The Agent Orange Act, passed by Congress in 1991, created a 
procedure for establishing presumptions of service connection for 
diseases associated with herbicide exposure. The procedure for 
establishing presumptions for particular diseases associated with 
herbicide exposure requires the Secretary of Veterans Affairs to 
consider reports received from the National Academy of Sciences and all 
other sound medical and scientific information and analysis on the 
health effects of herbicide exposure. When the Secretary finds a 
positive association exists between herbicide exposure and the 
occurrence of a disease in humans, the Secretary initiates a public 
rulemaking proceeding to add the disease to the presumptive list.
    Although the procedure established by the Agent Orange Act 
addresses presumptive service connection based on herbicide exposure 
among Vietnam Veterans, a similar process was created by Congress to 
address the concerns of Gulf War Veterans.
    These procedures rely on consideration of sound scientific and 
medical evidence and analysis from the respected National Academy of 
Sciences and a standard of evaluation based on association rather than 
causation. Presumptions can be powerful tools for promoting efficiency, 
fairness, and justice, but they must be considered with great care and 
respect for the science involved. They will continue to be an important 
part of the Veterans' benefits scheme for the foreseeable future.

Disability Claims Based on Service at Camp Lejeune

    VA does not operate a registry for this population and does not 
have special authority to enroll for health care Veterans or their 
family members based upon service at Camp Lejeune. It has been 
estimated that approximately one million Veterans and their dependents 
were assigned to Camp Lejeune during the period of drinking water 
contamination. Veterans who are a part of this cohort may apply for 
health care enrollment, if they are otherwise eligible, and are 
encouraged to discuss any specific concerns they have about this issue 
with their health care provider. VA environmental health clinicians can 
provide these Veterans with information regarding the potential health 
effects of exposure to volatile organic compounds, and VA's three War-
Related Illness and Injury Study Centers are also available as a 
resource to providers. However, the Marine Corps does have a registry 
and VA has been working with DOD to use this registry database to get 
useful data on Veterans who were stationed at Camp Lejeune.
    VA processes disability claims based on service at Camp Lejeune, 
and possible exposure to chemical contaminants, on a case-by-case 
basis. This approach has been adopted because the evidence to date on 
the long-term health effects on Veterans due to potential contaminated 
drinking water exposure at Camp Lejeune is inconclusive. Establishing 
presumptive diseases at this point would be premature.
    The NRC study on Camp Lejeune underscores the difficulty involved 
with determining which part of the water supply was contaminated, who 
may have been exposed to contamination, and to what extent any exposure 
may have occurred. To address these issues, ATDSR is conducting ongoing 
studies. In addition, as noted earlier, the Task Force is continuing 
its work. At this time, we consider direct service connection to be the 
most feasible and equitable option for addressing disability claims 
based on service at Camp Lejeune.
    VA regional office personnel were alerted to the Camp Lejeune 
situation in a nationwide broadcast in June 2009 and instructed to 
evaluate related claims on a case-by-case basis. A training letter 
followed on April 26, 2010, which outlined specific directions on 
developing evidence and ordering medical examinations for Camp Lejeune-
related claims.
    As part of the current examination procedure, VA medical examiners 
receive information on the chemical contaminants present in the water 
supply and are asked to provide an informed medical opinion as to 
whether it is at least as likely as not that the Veteran's current 
disability is related to service at Camp Lejeune. This evidence, as 
well as evidence based on examinations and opinions from private 
physicians and medical providers, is used to determine eligibility for 
service connection. In cases where the evidence for and against service 
connection is approximately equivalent, the benefit of doubt is given 
to the Veteran and service connection is granted.
    Currently, VA has received approximately 200 disability claims 
based on service at Camp Lejeune, and approximately 20 Veterans have 
been granted service connection on a direct basis. Those that were not 
granted service connection failed to meet one or more of the' three 
criteria of: (1) service at Camp Lejeune during the period of water 
contamination; (2) a current disease or disability; and (3) a medical 
nexus or link between a current disability and service at Camp Lejeune.

Conclusion

    VA takes seriously its mission to ensure that Veterans receive 
adequate services and compensation to honor their sacrifices in service 
to our Nation. We are also committed to ensuring that the best medical 
and scientific evidence available informs the decisions we make. The 
exposure at Camp Lejeune presents a number of unique challenges, but we 
are confident that we are addressing these challenges using the best 
possible science at our disposal to provide compensation to affected 
Veterans. As I said earlier, VA has already awarded benefits to 
Veterans who have demonstrated that they are suffering due to adverse 
exposures at Camp Lejeune. We will continue to award benefits to 
Veterans who present substantiated claims, and the Secretary will 
review the findings of the Task Force to determine if any further 
action is necessary.
    This concludes my testimony. I would be happy to answer any 
questions Members of the Subcommittee may have.

                    Biography for Thomas J. Pamperin
    Mr. Pamperin is the Associate Deputy Under Secretary for Policy and 
Program Management of the Veterans Benefits Administration for the U.S. 
Department of Veterans Affairs.

    Chairman Miller. Thank you, Mr. Pamperin. We will now have 
questions and I now recognize myself for five minutes. You all 
have all said that you did not have personal counsel here, but 
it does appear that you all are pretty lawyered up, that there 
is a great deal of concern at ONV and at the Pentagon about 
potential liability. I understand that all of your testimony 
was reviewed closely by lawyers of public justice for any 
effect it might have on any potential liability claims.
    Dr. Portier, this Subcommittee's interest in ATSDR and my 
interest began with their conduct in the FEMA trailers case 
where FEMA's lawyers asked specific for health assessment for 
use in pending litigation and asked that for purposes of the 
assessment that ATSDR assumed that the exposure to formaldehyde 
was two weeks or less when in fact people living in those 
trailers had lived in those trailers for well more than a year 
already by that point with no end in sight. And stunningly 
ATSDR did that. And Dr. Frumkin when he testified that there 
was no way that ATSDR should have provided a health assessment 
that was driven or affected by litigation concerns. They should 
have given a straight up assessment of what the effect of 
formaldehyde exposure could be. There are now several ATSDR 
studies pending in this area.
    What role do you expect lawyers to--and I have nothing 
against lawyers, I am in recovery myself, but there is a 
difference between Government lawyers and lawyers for private 
entities. Government lawyers serve the whole people. A--they 
are--they perhaps should not do what a lawyer for a private 
company might do which would be to assert any defense legal or 
factual for which there is some basis. But Government lawyers 
should perhaps serve the whole people. What role, Doctor, and 
the rules of professional conduct recognize that with respect 
to Government lawyers and DA's. They aren't expected just to 
get convictions but to do justice. What role, Dr. Portier, do 
you expect lawyers to have in reviewing the work of the ATSDR 
in this area?
    Dr. Portier. Mr. Chairman, having been at ATSDR for a short 
period, it is somewhat difficult for me to know exactly what 
the pathway is through internal clearance. So I will speak from 
the point of view of what I would perceive as what I would like 
to see. And if there is a different pathway that is required 
that takes me through the Department of Justice for approval, I 
will come back to you and respond directly on that issue.
    As a general rule, I believe that lawyers are very helpful 
in the types of exercises we are doing here. They help us avoid 
pitfalls of improperly storing our data, improperly reaching 
conclusions. They provide a good challenge for us in terms of 
defending our science appropriately and correctly. However, I 
don't see any pathway that would take what we are doing for 
Camp Lejeune through internal legal review at CDC or the 
Department of Health and Human Services.
    Chairman Miller. Okay. General Payne, you were interviewed 
by CBS News and said that the wells were closed within 30 days 
of finding the source of the contamination. I said earlier 
because the first panel that I found it puzzling that you would 
wait to find the source to act. That if it certainly appeared 
that once you found that there was contamination you would act 
to close the wells rather than wait to find the source. What 
was the reason for waiting to find the source to act to close 
the wells?
    General Payne. Sir, there may have been a poor use of words 
on my part by saying source. My intent in that answer was to 
say that once we knew the specific wells that were 
contaminated, those specific wells, those 10 wells were closed 
down immediately.
    Chairman Miller. Immediately within 30 days of when you 
determined that there was contamination of specific wells?
    General Payne. That is my understanding, yes, sir. Once we 
knew the specific well, that well was shut down right away.
    Chairman Miller. My time has expired. I now recognize Dr. 
Broun for five minutes.
    Mr. Broun. General Payne, thank you for your service to the 
Nation, sir. Semper fi. Dr. Clapp, as the Chairman pointed out 
when he was interviewing the first panel, Dr. Clapp had an 
apparent discrepancy related to your testimony and just wanted 
to be sure that in all fairness even prior to your presenting 
your testimony that you had an ample opportunity to rebut or 
respond to that if there is anything more that you would like 
to say, I would certainly give you that opportunity right now, 
sir.
    General Payne. Sir, I think that we really do not have a 
disagreement with anything that Dr. Clapp said. And I think the 
question that came up was relative to a statement we made in 
the pamphlet that we produced. And I think that statement was 
factual. Perhaps it could have been worded differently. Perhaps 
it could have been lengthier with a greater explanation.
    I think that the only rebuttal that I would offer is that 
we are looking forward to continually--continuously working 
closely with ATSDR and other scientific organizations to try 
find answers. And I think we are all in concurrence there.
    Mr. Broun. Thank you, General. There have been many 
criticisms on how the Marine Corps, the Navy has responded to 
the contamination of the water supply there at Camp Lejeune. 
Looking back over the past 30 years is there any action or 
inaction that you would have changed?
    General Payne. Sir, there are a number of actions that I 
would have changed. I would--I can't tell you how many times 
over the last three years in working with this issue on behalf 
of the Marine Corps, I would have given anything to have rolled 
back the clock and to have known and to have been able to 
influence during that era what we know today to be the case. It 
is astounding some of the things that happened, and I think 
that they happened for a number of reasons. I think part of it 
was mentioned earlier. I think we were ignorant, quite frankly, 
of some of the implications. I think we were lulled into a 
sense of complacency or at least a lack of urgency by the fact 
that we were not out of compliance. And I am not trying to 
excuse what happened. I think that there were many, many errors 
made on behalf of the Marine Corps. But it is difficult to look 
back through the lens of 2010 at what we did or did not know, 
or should or should not have done in the '60s, '70s, and early 
'80s, but there are many things that I would have done 
differently. There are things I would have done differently 5 
and ten years ago. I have only been working this for about 
three years and it is--one normally shakes their head and 
wonders at some of the things that did or did not occur.
    Mr. Broun. Thank you, General. I appreciate your diligence 
in pursuing this. And had we look back and President Washington 
was bled to death by a physician thinking that that was going 
to cure his disease and his pneumonia at the time, and 
obviously that was the wrong medical decision as a physician, 
just what I was taught in medical school as being absolute 
truth has been just within five years after graduation we were 
treating patients totally different in a different manner. And 
certainly it is difficult looking in a retrospectoscope and 
saying what we should have or could have done at a particular 
period of time. We have to act on the knowledge that we have 
the science we have at the period of time. And I thank you for 
your diligence in trying to head in the proper direction on 
this issue.
    Let us see, Dr. Portier, the NAS report also stated that 
based on review of toxicological studies--that is hard for a 
southerner to say, while there is some evidence linking certain 
diseases and health effects to PCE and TCE exposure, studies 
suggest that the highest level exposure at Camp Lejeune were 
``much lower than the lowest dose that cause adverse effects in 
the most sensitive strains in species laboratory animals''.
    Furthermore, the NAS report also concluded that there is 
limited evidence to suggest a correlation between diseases 
exposure to TCE and PCE in epidemiological studies. How do the 
conclusions reached by the NAS report compare with the evidence 
gathered and analyzed by ATSDR over the last 20 years?
    Dr. Portier. Thank you for the question. The ATSDR has not 
really released a formal response on their opinion of the 
academy's report. I guess personally I would say that my 
opinion matches that of Dr. Clapp and his colleagues that I 
have some degree of confusion over how the academy reached 
these decisions.
    In terms of ATSDR, our actions speak louder than our words 
and in this case we are moving forward with the studies. We are 
doing the water modeling. We are going to go forward and 
evaluate this population because we believe it is 
scientifically credible. We believe it is the right public 
health move, and we believe it is what needs to be done. And so 
we will do it. And I think that is our answer to the report 
from the academy.
    In terms of their finding that there is limited information 
relating TCE and PCE to disease, I simply need to look at the 
disease of cancer and point out to them that virtually every 
national authority or international authority that look at--
that has looked at TCE and PCE has labeled it reasonably 
anticipated to be a human carcinogen or a probable human 
carcinogen. And so the linkage there is extremely strong. There 
is no doubt in my mind that these are toxins that you do not 
want in your water.
    Mr. Broun. Thank you. My time is up, but if I may, Mr. 
Chairman, if I could ask Dr. Portier, do you have any idea of 
when we will get another health assessment report and when will 
that be available, sir? Do you have any prospect?
    Dr. Portier. There will be a series of reports coming out. 
I am very confident that the data mining working team will have 
all the data hopefully in hand by the end of next month. And 
that done, we should have the water modeling by about a year 
from now available internally to use in the EPI studies. We 
have already paralleled working the EPI studies, so hopefully 
they will be finished probably about March of 2012 and that is 
when we will begin issuing reports at about that time.
    Mr. Broun. Thank you. I yield back, Mr. Chairman. Thank you 
for your diligence----
    Chairman Miller. Indulgence.
    Mr. Broun. --indulgence. Thank you.
    Chairman Miller. The Chair now recognizes Mrs. Dahlkemper 
for five minutes.
    Mrs. Dahlkemper. Thank you, Mr. Chairman. I want to thank 
the witnesses for coming today and for your testimony. Mr. 
Pamperin, I want to ask you a little bit about the claims 
process. And the VA has granted just a handful of claims to all 
of these veterans resulting from their service at Camp Lejeune. 
What criteria does the VA use to determine that harm has been 
done to these veterans as a result of their service there? And 
do you believe that the standards are appropriate to justify 
small claims process and that it's consistently applied to each 
person coming forward?
    Mr. Pamperin. Thank you, ma'am. We sent a fairly extensive 
training letter to our field stations back in 2009 that covered 
a number of environmental hazard locations and situations, one 
of which was Camp Lejeune. Prior to that I would not have 
confidence that our claims examiners would have had the kind of 
information they needed to ask the appropriate questions, to 
solicit the appropriate medical opinions.
    That training letter served basically three purposes. First 
was to educate our staff. The second was to tell our staff on 
how to develop these kinds of claims, and the third was to 
provide our staff with a fact sheet on each particular exposure 
that was to be provided to the clinician who was going to be 
doing the exams, so that they understood the nature of the 
exposure that was made. Because of the relatively--relative 
certainty of the known outcomes of benzene, what we are dealing 
with with these cases is the fact that there is invariably 
nothing in their service medical record that would indicate a 
disease since most of these diseases take years to develop. So 
what our rating officials are doing with this a current a 
disability and now a known exposure. And that--what they need 
is clinical evidence attaching that current disability to that 
exposure. If they have that kind of medical evidence, they can 
award service-connection on a direct basis, and that is what we 
have been doing thus far. That does require that we assist 
these veterans in getting that kind of clear and concise 
clinical opinion and that is what the purpose of the fact sheet 
to be provided to the examiner was for.
    Mrs. Dahlkemper. Can we get a copy of that letter and the 
fact sheets for the record please?
    Mr. Pamperin. Yes, ma'am.
    Mrs. Dahlkemper. So your education staff and I think it was 
Mr. Watters who said he was having trouble even getting 
something posted at the VA in his community until he said he 
was coming here to testify today. He said that during his 
testimony. Can you tell me if that is standard in all VA's? I 
only have two in my district. I am going to be following up on 
this when I get out of here today.
    Mr. Pamperin. Ma'am, I am not sure what has been posted in 
VA Medical Centers. We can certainly take that for the record. 
I believe that the training letter was shared with the Veterans 
Health Administration so that it would be generally known 
inside that community as to what kind of claims we were 
getting. But we can take that for the record.
    Mrs. Dahlkemper. And one of my concerns is I know even now 
we are trying to help some of our soldiers with a stop-loss 
payments we are supposed to receive. We can't even find them, 
so and these people over the years are scattered all over this 
country and across this globe and probably have no idea of 
possible exposure that they have had.
    Mr. Pamperin. Ma'am, all I would say is that if a soldier, 
or a Marine, or a naval personnel who were at Camp Lejeune is 
concerned about their health they should apply for enrollment 
in VHA. And if they have a condition that in their mind may 
possibly be related to their service at Lejeune that they 
should file a claim and we will adjudicate it appropriately.
    Mrs. Dahlkemper. Thank you. My time is running short, so 
just one quick question for General Payne. There is a 
difference I think between saying no study has been completed 
on the health effects of exposure to chemicals and saying that 
studies have not found a link between chemical exposure and 
specific illnesses or diseases. The language in the brochure is 
simply misleading on this issue. So I guess I am going to ask 
you would you like to correct that for the record?
    General Payne. Ma'am, I would agree with the wording issue 
just presented that studies are ongoing. It is of--I don't 
think we were factually wrong in the brochure as I understand 
it, but we--it was not our intent to mislead in any way. We are 
still working very hard to try to find answers. We are working 
very hard to locate former Marines, and their dependents, and 
civilian employees.
    Mrs. Dahlkemper. Can I ask how this is distributed, or how 
any of this information is distributed? As I said we are having 
trouble getting more recent Marines and soldiers to apply for 
stop-loss payments and so how are we trying to find these 
individuals?
    General Payne. It is a combination of ways that we are 
trying to locate them. As I mentioned earlier we have got about 
163,000 registered to date. We've had over 30,000 in the last 
year. We get new registrations every week. We are pursuing it 
through the media, through radio, television, through the print 
media, through magazines, through the internet. We even are 
using social media like Facebook. We utilize other governmental 
agencies like the Veterans Administration who have been very 
good about distributing posters and letting people know. We use 
a lot of military journals, and newsletters, and magazines, and 
we are searching for additional ways to try to get the word 
out.
    Mrs. Dahlkemper. I appreciate your efforts on that. I--one 
short question, just one answer. When did you start doing this 
reach out? What was the date of when this started to try to 
locate all these individuals?
    General Payne. It started in 2007.
    Mrs. Dahlkemper. Okay, thank you very much.
    General Payne. Yes, Ma'am.
    Mrs. Dahlkemper. I yield back.
    Chairman Miller. Thank you. I think we have time for a 
second round, and I now recognize myself for five minutes. 
General Payne, you said that the wells were closed promptly 
when you figured out which wells were contaminated. That that 
was what you meant by source, which wells were contaminated. 
But the memo from Ms. Betts dated August 10, 19--or 10 August 
1982, I guess the military--which referred to the tests which 
were conducted three or four months earlier in May said with 
respect to tetrachloroethylene that while they were not 
regulated, they were not subject to Safe Drinking Water Act at 
that point. They were--that was known to cause certain cancers. 
And trichloroethylene--liver damage, kidney damage, central 
nervous system disturbances in humans. There does not appear to 
have been a sense of urgency if the problem was identifying 
which wells, there doesn't seem to have been a great sense of 
urgency in figuring out which of the 22 wells. Did it take two 
years to figure out which of the 22 wells and why was there not 
more urgency than that to the task?
    General Payne. In answer to your question, yes, it did take 
that long. It--but also I would concur with you, sir, that 
there was not the level of urgency that there should have been. 
And it is astounding to me why there wasn't. I can only 
surmise, I can only speculate at this point, but I think it was 
a combination of about three things that contributed to that. I 
think that we genuinely were ignorant of the potential health 
effects. I think number two, the fact that we were not out of 
compliance decreased a sense of urgency that should have been 
there. Knowing what we know today it is amazing that there 
wasn't an absolute, all out effort immediately. And I think 
number three, the other contributing factor was the 
inconsistency of the test results. We would test the water, and 
we were doing it at not--we were not testing at that time 
individual wells. We were testing the water treatment plants. 
And we would test and we might end up with a result of, I mean, 
1,100 parts per billion which is exceedingly high. And so we 
would retest and on our retest we might come up with five parts 
per billion which would be exceedingly low. And I think that 
inconsistency because of the water distribution system at that 
time also confused the issue and added to the amount of time. 
But I concur with you 100 percent that there should have been a 
greater sense of urgency knowing what we know today and it is 
amazing to me that there was not.
    Chairman Miller. General Payne, you heard my earlier 
question of Dr. Portier about what role lawyers would have. 
The--we have asked the question about who had reviewed the 
booklet Mrs. Dahlkemper asked about earlier and the answer we 
got was--the question was has anyone reviewed it, any other 
agency. VF recalls that there are cases pending in court where 
the Department of Justice represents the part of Navy. We 
provided DOG attorneys--DOJ attorneys to a preview of the 
booklet in order to avoid inadvertently harming their cases. 
Again, going to the example of FEMA and the FEMA trailers with 
high levels of formaldehyde, not only was that health 
assessment used by FEMA attorneys in negotiating with 
claimants--settlements with claimants, based upon supposedly 
expert testimony or expert evidence that was based upon wrong 
assumptions but FEMA took that assessment to tell the people in 
the trailers they didn't have anything to worry about. They 
could just open the windows and doors if the formaldehyde gave 
them a headache. Are you having your--what you are telling 
people who were exposed to this are you having that shaped by 
lawyers who were worried--are worried about litigation issues 
not telling what they need to know?
    General Payne. Sir, I can't really speak for what might 
have happened prior to my engagement in this issue, but I can 
tell you sincerely over the last three years even though we run 
this stuff routinely through our legal personnel, never in the 
last three years have I been advised by our attorneys or by DOJ 
not to say something. And I don't know whether they trust that 
I won't say the wrong thing or if they believe that telling me 
that won't do any good. But for whatever the reason I can tell 
you that I have not been counseled by our attorneys as to 
specific answers.
    Chairman Miller. And it did take the Marines 20 years to 
tell the people exposed, the Marines and their families of the 
exposure. It took an act of Congress. I recognize Senator Dole 
for that effort. Why did it take 20 years to let Lejeune 
veterans, the Marines who served at Lejeune know of the 
exposure?
    General Payne. Sir, I think the initial efforts by the 
Marine Corps which lasted way too long, the initial position 
was that we could do the best we could be number one, trying to 
find answers. I am contacted continuously by former Marines and 
their families, and the number one thing that they want to know 
is--they want answers to questions that we can't provide them. 
That's why we have taken that approach. Now, I would agree with 
you that it should have happened long before, but there are two 
schools of thought. And I even heard a school of thought 
recently that said until you have answers, just contacting them 
raises more doubts and puts in more fears. I disagree with that 
and I think that we have done the right thing for the last 
three years. I wish we had done it sooner, far sooner that we 
owed it--we owed a responsibility to those Marines and their 
families. And we should have done that rather than just 
concentrating on trying to find answers. We should have had a 
dual effort, and it should have been aggressive, and it should 
have been far sooner.
    Chairman Miller. My time has expired. I now recognize Dr. 
Broun for five minutes.
    Mr. Broun. Thank you, Mr. Chairman. Mr. Pamperin, in the 
National Academy of Sciences study, the Department of Veterans 
Affairs convened a task force to determine whether the NRC 
provided a sufficient scientific basis for its conclusions. Who 
is on this task force? Are they doctors, scientists, 
epidemiologists, toxicologists, or other specialists that are 
qualified to make this determination? And when is the task 
force planning on submitting these findings for the Secretary? 
Once the task force has submitted its findings how long will 
the Secretary issue his determinations?
    Mr. Pamperin. Congressman Broun, I will take those 
questions for the record in terms of the specific people who 
are on the panel, but routinely these are members of the 
Veterans Health Administration Clinicians who review this sort 
of stuff. People from out environmental exposures staff. I do 
not know when they are going to be done. I would be happy to 
provide that answer in written form, and based upon that 
response the Secretary will need to assess that. I can't give 
you a specific date when he'll be done.
    Mr. Broun. Thank you so much. Mr. Chairman, and you are 
very generous in your indulgence and I will yield back and we 
will present other questions from written answers. Thank you, 
Mr. Chairman, I yield back.
    Chairman Miller. Thank you, Dr. Broun. I am always generous 
in indulgence. The Chair now recognizes himself for one final 
question. Dr. Portier, the ATSDR is now preparing several 
reports, five separate studies on the human health consequences 
of the exposures, the toxic exposures at Camp Lejeune. And I 
know that you can't know in advance what the studies will show, 
but some apparently think that the studies will establish with 
certainty which specific people got which specific diseases as 
a result of exposure versus who would have gotten it anyway--
who might have gotten breast cancer anyway. There is a 1 in 
100,000 chance of that, so maybe a few of those folks would 
have gotten breast cancer anyway. Probably a few would have. 
What kind of--and Dr. Clapp said in his testimony that that was 
not the way it worked. What kind of certainty should we expect 
to come out of ATSDR's reports?
    Dr. Portier. An excellent question, Mr. Chairman, an 
excellent question. The studies will--are designed to address 
the questions of TCE, PCE, and benzene exposure as they relate 
to large human populations, in this case the population of 
people who have moved in and out of Camp Lejeune Marine Corps 
Base. Each individual in any one of these studies, whether it 
is Camp Lejeune or anywhere else in the world, individuals' 
risk to a particular toxin exposure depends upon not only the 
toxin exposure, but other things they are in their lifespan. 
The food, their genetics, everything else plays a role in terms 
of their overall risk. What you are looking at though is shifts 
in risk in the population. That is what this type of study will 
give us. When you look at the brochure that the Marine Corps 
had put together one of the issues with that brochure that we 
have is that it assumes that the only way in that you can 
answer the question is through studying the marines at Camp 
Lejeune. But the data we are getting from Camp Lejeune is part 
of the broader scientific literature that already exists that 
deals with these particular types of exposures. We expect that 
we will see some positive results, some negative results that 
match or disagree with what is in the literature. Hopefully if 
we have done it right, we will strengthen that literature and 
by strengthening that literature help groups like the Veterans 
Administration better understand what to do with this 
population based exposure. But it is not just these studies 
that should be used in that overall evaluation. It is the 
broader scientific literature and the contribution of these is 
important, but that is not all that should be used.
    Chairman Miller. And let the record reflect that I did not 
think that anyone should be exposed to toxic chemicals for the 
purpose of conducting research. The Chair now recognizes Dr. 
Broun for five minutes.
    Mr. Broun. Well, likely I won't need that much. I 
appreciate it. Just to add to a comment or a questions on top 
of Dr. Portier, from what you--the question of the Chairman, 
when we compare epidemiological instances of any subgroup of a 
population to the general population in studies to look for 
instance or increased instances of disease entities, we looked 
at the general population and I am just wondering if you are 
looking at the general population in the general area instead 
of the population overall in trying to figure out the 
epidemiological association in the health risk. Are you looking 
at people within the Jacksonville area or that part of the 
state of North Carolina and comparing them to the population at 
Camp Lejeune or are you looking just generally at the whole--
the population at the whole of the country?
    Dr. Portier. Dr. Broun, that is a question we really spent 
a lot of time looking at and it depends on the type of study 
that we are doing. But to answer your question most 
specifically, the studies that we are most interested in 
pursuing, the ones that were most--we think that will be most 
informative--are our cohort study and the health survey study. 
I think those will be the most extensively useful. In those 
cases we actually have a control population. We are comparing--
because Marines are inherently healthier than the rest of us--
we are comparing the people who were at Camp Lejeune to people 
who were at Camp Pendleton at the same time. So we are looking 
at a comparison that is effectively, hopefully about the same 
in terms of age, in terms of fitness, in terms of the type of 
food, in terms of the types of environments they are in so we 
can potentially get a very good, solid comparison.
    Mr. Broun. Well, Dr. Portier, I suggest that you are not 
comparing apples to apples there because you are certainly in 
some respects you are, but the people who living at Camp 
Pendleton are not living in the Jacksonville area. So I 
encourage you to look at the general population not just at 
Camp Lejeune, not comparing Camp Pendleton versus Lejeune, but 
look at the people in that area of North Carolina and include 
them in seeing if you see any differential, because you are 
selectively eliminating a population that I think from a 
scientific perspective needs to be looked at. So I encourage 
you to do so. Thank you, Mr. Chairman. I yield back.
    Chairman Miller. Thank you, we--before we bring the hearing 
to a close I want to thank our witnesses for testifying before 
our Subcommittee today. The record will remain open for two 
weeks for additional statements from the members and will 
remain open for answers to any follow-up questions the 
Subcommittee will have for witnesses. The witnesses are 
excused. The hearing is now adjourned.
    [Whereupon, at 1:11 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                   Answers to Post-Hearing Questions
Responses by Mr. Michael Partain, Member, ATSDR Camp Lejeune Community 
        Assistance Panel (CAP) and Breast Cancer Survivor Born on Camp 
        Lejeune

Questions submitted by Chairman Brad Miller

Q1.  Are there any factual inaccuracies or clarifications you would 
recommend the U.S. Marine Corps make to its recently released 
publication: ``Camp Lejeune: Historic Drinking Water, Questions and 
Answers,'' July 2010, available here: https://clnr.hqi.usmc.mil/
clwater/Documents/CLHDW<INF>-</INF>Booklet.pdf

A1. Unfortunately, the United States Marine Corps continues to abuse 
their responsibility to keep the affected community properly informed 
concerning the Camp Lejeune drinking water contamination. To date there 
has been no acknowledgment or listing of any community sponsored 
website on the official Marine Corps web site for Camp Lejeune. There 
has been no attempt by Marine Corps Leadership to meet with any of the 
members of the affected community and address our concerns and/or 
grievances with the Marine Corps. The Marine Corps routinely abuses 
their custodial possession of the Camp Lejeune victim registry to 
disseminate information that supports only their point of view. General 
Conway stated in the preface of the July 2010 informational booklet 
that ``This booklet is designed to provide relevant information on the 
issue and answer many of the questions that have arisen concerning this 
matter.'' Until there is an objective reckoning of the historical facts 
pertaining to the Camp Lejeune drinking water contamination between the 
United States Marine Corps and the affected community, the Marine 
Corps' message will simply be nothing more than self serving 
propaganda.
    Overall, We feel the booklet should be retracted and redone with 
input from both the Marine Corps and the affected community. I 
sincerely doubt that the Marine Corps would ever agree to this 
proposal.
    Beginning on page 2 in the last paragraph, the sentence beginning 
with ``These chemicals, primarily found'' would be more accurate if it 
advised the reader that the chemicals were found both in the wells and 
tap water provided to the service personnel and their families on the 
base.
    On page 3 the Marine Corps claims that ``once identified, the 
impacted wells were promptly taken out service.'' What the Marine Corps 
failed to inform the reader was that they were first warned about the 
contamination beginning in October of 1980 and failed to take any 
direct action to identify the source of the contamination until July 
1984. The first well was then closed in December 1984.
    On page 4 the time line fails to inform the reader about the 
existence of the Navy's potable water instruction issued in 1963 (BUMED 
6240.3B). The time line also omits Camp Lejeune' 1974 Base Order 
5100.13B declaring organic solvents hazardous and warning that disposal 
practices would contaminate the drinking water. The time line omits the 
Army laboratory's 1980 recommendation to test for chlorinated 
hydrocarbons by GC/MS and that this same laboratory advised the Navy 
that the contaminants found in the drinking water samples were solvents 
in February/March 1981. The timeline also failed to mention the 
President's May 2010 annual President's Cancer Panel report which 
recognized Camp Lejeune as an issue.
    On page 5, the map showing the wells should also display the 
numerous contamination plumes of PCE, TCE, Vinyl Chloride and benzene 
found on the base.
    On Page 6 the booklet once again fails to inform the reader of the 
Navy's potable water regulations dating back from 1963. There is no 
mention of the initial warnings from the Army laboratory from 1980 
through 1981. The booklet correctly informs the reader that PCE and TCE 
were identified as the contaminants in 1982 but failed to inform the 
reader that the wells were not ``promptly'' removed from service as 
claimed. The booklet should give the correct date and read ``beginning 
in December 1984, the wells were removed from service.''
    The timeline on the bottom of page 6 incorrectly stated that 
targeted TCE/PCE samples taken in 1982 were within EPA recommended 
levels. Please see CLW 606 PDF page 2 paragraph 8.
    The incorrect information concerning the targeted 1982 sampling 
event is repeated again as a written Q&A on page 7. The response to 
this question should be rewritten or withdrawn altogether.
    The USMC's response to the second question concerning well 602 on 
page 7 cannot be substantiated by the existing historical record. The 
well was tested in July 1984 (CERCLA 388) and then closed on 30 
November 1984. The actual report or letter from the contractor 
conducting the Confirmation Study which officially notified the Navy 
and the Marine Corps that well was contaminated is missing. If the 
Marine Corps wishes to assert that they aggressively began testing and 
identifying the contaminated wells in
    1984, then they need to explain why they did not perform the same 
individual well testing in 1981, as they did for the drinking water 
system located at the base's Rifle Range. Please see USMC document CLW 
3757.
    On page 8, the USMC discussed the Navy's 1972 BUMED 6240.3C 
regulation for potable water systems for all Naval ships and stations. 
The UMSC correctly stated that BUMED 6240.3C does not specifically 
regulate TCE and PCE as an individual chemical but failed to explain 
the preventive measures found in the document designed to protect 
potable water systems from contamination and pollution, nor do they 
recognize that the regulation forbade ``Substances which may have a 
deleterious physiological effect, or for which the effects are not 
known'' in a manner in which would permit them to reach the consumer.
    On page 10, the Marine Corps discusses three past investigations 
into the drinking water contamination and all three investigations were 
conducted without addressing the existence of BUMED 6240.3 regulations, 
the Base Order 5100.13B or the extent of the fuel loss at the Hadnot 
Point fuel farm. Furthermore, during the 2007 Congressional hearing 
regarding Camp Lejeune drinking water contamination, Tyler Amon of the 
USEPA revealed that he had recommended obstruction of justice charges 
be filed against certain LantDiv employees. The recommendations were 
later overruled by the U.S. Attorney.
    The question found on page 12 needs to be re-written to reflect Dr. 
Portier's October 22 2010 letter (attached) to the Navy and this letter 
needs to be distributed to the affected community.
    In response to the second question on page 12, the Marine Corps 
failed to inform the reader about the existence of a contract between 
the National Academies and the Navy/USMC concerning Camp Lejeune which 
was negotiated and signed prior to the release of the 2009 NRC report. 
Nor is it noted that the contract has since been dissolved after its 
existence was revealed in the media.
    Please see the above response for page 10 in regard to our concerns 
with page 13.
    Page 14 does not include the 2007 Congressional hearing nor does 
the timeline state why the ATSDR Public Health Assessment was 
withdrawn.
    On pages 16-18 the Marine Corps informed the reader that they are 
supporting ATSDR's efforts determine when the contamination began but 
failed to advise the reader that they attempted to withhold funding for 
ATSDR's studies in January 2010, that they did not inform ATSDR about 
the extent of the fuel loss at Hadnot Point until it was discovered by 
a member of the affected community earlier this year nor did the Navy 
reveal to the ATSDR the existence of a password protected electronic 
portal containing contamination documents vital to ATSDR's water 
modeling efforts until after the portal was accidently discovered by an 
ATSDR subcontractor.
    On Page 21, the second question concerning notification should 
advise the reader that an act of Congress, signed into law in 2008, 
required the Navy/USMC to notify all residents of Tarawa Terrace of 
their exposures and that notification of the residents for the Hadnot 
Point system will begin only after ATSDR completes their water modeling 
project for Hadnot Point.
    The third question on the page regarding whether the Marine Corps 
tried to cover up the contamination aboard the base is best answered by 
reprinting the attached Raleigh News and Observer's article containing 
a quote from the base Environmental Engineer, Robert Alexander, that 
``People had not been directly exposed to the pollutants.''
    The timeline for Notification and Outreach found on page 23 should 
be withdrawn. The timeline is misleading, inaccurate and has many 
omissions from 1980-1985.
    Over the past several weeks we have been informed by members on our 
web site that the Marine Corps is now distributing their booklet to the 
affected community. It is our understanding that this same booklet was 
distributed to every member of Congress immediately prior to the 
September 2010 hearing. How and when will the affected community be 
able to air our concerns and grievances with the Marine Corps? The 
hearing was an important step forward but how can we, the affected 
community, compete against the self serving propaganda and virtually 
unlimited resources of the United States Marine Corps and their ability 
to state whatever they want to say, whenever they wish to say it to 
whoever they chose?

Q2.  As a Member of ATSDR's Camp Lejeune Community Assistance Program 
(CAP) and a: Camp Lejeune activist you are intimately familiar with 
those Department of Navy (DON) and U.S. Marine Corps (USMC) documents 
that have been publicly released. Based on your review of those 
documents please indicate the DON and/or the USMC's knowledge 
concerning the dangers of organic solvents in the drinking water 
supplies at Camp Lejeune prior to these wells being shut down in 1984. 
Are there any indications based upon the available records that the 
Camp Lejeune base command staff influenced or concealed the public 
health warnings issued by both the Army and Grainger Laboratories in 
the early 1980s regarding the chemical contaminants in the drinking 
water supply at Camp Lejeune.

A1. Yes there are several indications that both representatives from 
the Navy's Atlantic Division (LantDiv) and the base command staff 
attempted to minimize the early contamination warnings issued by the 
Army and Grainger laboratories from 1980-1984.
    According to the historical documents found in the Comprehensive 
Environmental Response, Compensation and Liability Act (CERCLA) and 
Camp Lejeune Water (CLW) Libraries for Camp Lejeune there are clear 
indications that the leadership of the Navy and United States Marine 
Corps knew or at least should have known about the danger of 
groundwater used for potable water by pollutants used in and around 
Camp Lejeune. The Navy issued a substantial revision of their potable 
water regulations in 1963. These regulations known as BUMED 6240.3B 
applied to all Naval vessels and installations including Camp Lejeune. 
While the regulation did not specifically regulate PCE, TCE, Vinyl 
Chloride and Benzene individually as contaminants, the regulation did 
set forth strict guidelines and preventive measures to prevent 
contamination of a water supply from extraneous sources. A second 
order, Base Order 5100.13B, from the base's Commanding General in 1974 
revealed that Marine Corps leadership knew that organic solvents were 
hazardous and that there was a danger of drinking water contamination 
from improper disposal practices of these chemicals. A 1979 base 
environmental survey (CLW 245) lists Dry cleaning solvents, 
trichloroethylene, toluene, xylene and mogas as hazardous materials. 
Then in 1982 the Base Supervisory Chemist, Elizabeth Betz, noted 
several adverse health effects linked to tetrachloroethylene and 
tricholorethylene exposures in her memorandum for the record concerning 
the 10 August 1982 Grainger Laboratory letter to Camp Lejeune (CLW 
606). These documents clearly show that at least by 1963 the Navy 
understood the dangers between industrial pollution and groundwater 
contamination.
    It is not known at what exact date this relationship was 
established because the preceding versions for Base Order 5100.13B are 
missing from the historical record. Furthermore, the order lacked any 
higher headquarter references which would explain and justify why the 
Commanding General of Camp Lejeune issued the order in the first place. 
Without these references we cannot ascertain the exact date when the 
Navy knew organic solvents and other industrial pollutants including 
benzene was a hazard to ground water sources used for drinking water 
purposes. However, a 1986 court case, Clark vs. USA, did establish that 
by the 1950's it was generally known that TCE was unfit for human 
consumption.
    The Navy's LantDiv was responsible for providing engineering 
support for Naval facilities, including Camp Lejeune. In 1979 two Naval 
facilities in Pennsylvania (Warminster and Willow Grove) detected PCE 
and TCE in their potable water systems. The contaminated wells were 
identified and closed immediately. Why did LantDiv fail to follow this 
same policy at Camp Lejeune? As cited in my testimony, representatives 
from LantDiv accompanied base officials in 1981 to test the Rifle Range 
system for organic contamination; this testing included the potable 
wells for that drinking water system. In July 1981 a letter from the 
Commander of Atlantic Division Naval Facilities Engineering Command to 
Camp Lejeune's Commanding General, Mr. Bailey of LantDiv advised Camp 
Lejeune not to use a Rifle Range potable water well found to be 
contaminated with organics. Concurrently with the testing of the Rifle 
Range, LantDiv received several warnings that the Hadnot Point water 
system was highly contaminated with chlorinated organics, including 
solvents. No action was taken by base officials or LantDiv personnel.
    There are two specific examples which illustrate what we believe 
was a conscious decision by two separate Facility Assistant Chief of 
Staff Colonels to quash the significance of the Army and Grainger 
Laboratory's warnings to the base and LantDiv.
    The first example took place on 25 August 1982 when Colonel J.T. 
Marshall responded to a letter from the Navy's Naval Energy and 
Environmental Support Activity (NEESA) concerning the draft copy of the 
base's Initial Assessment Study for Camp Lejeune (CLW 6332). The 
Colonel was tasked to review the draft copy of the report and provide 
comments by 25 August 1982. During the interim, the 10 August 1982 
letter from Grainger Laboratory arrived on the Colonel's desk (CLW 
592). Fifteen days later the Colonel responded to NEESA and advised 
that ``Discussion of Trihalomethane content of Rifle Range on page 2-18 
and extensive data shown on pages 6-12 through 6-18 overly stresses 
relationship with hazardous material/waste disposal. It is important to 
note that accuracy of data provided by U.S. Army laboratory is 
questionable. It is recommended that TTHM information be de-emphasized 
throughout the report.'' (CLW 6332).
    Shortly after the August 1982 response to NEESA, a change order was 
issued for the IAS in December 1982 (CERCLA 2059). The Grainger 
findings contained in the 10 August 1982 letter were not included in 
the change order. The lAS report for Camp Lejeune was then released in 
April of 1983. The Army and Grainger Laboratory's warnings concerning 
the Hadnot Point and Tarawa Terrace drinking water contamination were 
not included in the findings of the report.
    The second incident occurred in June of 1983 after Mike Hargett of 
Grainger Laboratory informed the State of North Carolina about the 
problem with the base's drinking water systems. On 1 June 1983, Colonel 
Marshall compiled a table for all of the trihalomethane testing done on 
the base. He did not include the actual analytical data sheets provided 
by Grainger Laboratory. The original Grainger data sheets contained 
written warnings about the TCE and PCE contamination present in the 
Hadnot Point and Tarawa Terrace potable water systems.
    On 2 June 1983, Mr. Larry Elmore, Environmental Engineer from the 
State's Water Supply Branch sent a letter to Colonel Marshall 
specifically requesting the analytical data sheets provided to the base 
by Grainger Laboratory (CLW 940). The base waited almost six months to 
provide a response. By then, Colonel Marshall was replaced by Colonel 
Lilley who finally responded to the Mr. Elmore's letter. The Colonel 
wrote to Mr. Rundgren, head of the Water Supply Branch for the State of 
North Carolina and resubmitted the trihalomethane tables previously 
complied by Colonel Marshall along with two additional tables 
explaining the results. Colonel Lilley also noted that per a 30 
November 1983 telephone conversation with Dick Caspers at the Water 
Supply Branch, the original Grainger lab reports were not submitted as 
previously requested by Mr. Elmore in his 21 June 1983 letter. Colonel. 
Lilley then requested that Hadnot Point be reduced from quarterly 
trihalotmethane sampling to once a year. This same sampling was the 
source of the initial warning concerning the PCE and TCE contamination 
on the base (CLW 6348). It is important to note that benzene does not 
interfere with this type of testing and thus was not detected by either 
the Army or Grainger Laboratories.
    Undoubtedly the interference from these two officers delayed the 
revelation of Camp Lejeune drinking water contamination for years. 
During that time tens of thousands of Marines, Sailors, their families 
and employees of the base were needlessly exposed to dangerous levels 
of PCE and TCE in the base's drinking water system.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   Answers to Post-Hearing Questions
Responses by Dr. Richard Clapp, Professor Emeritus, Department of 
        Environmental Health, Boston University School of Public 
        Health, Environmental Health Policy Consultant and Member of 
        the ATSDR Camp Lejeune Community Assistant Panel (CAP)

Questions submitted by Chairman Brad Miller

Q1.  Are there any factual inaccuracies or clarifications you would 
recommend the U.S. Marine Corps make to its recently released 
publication: ``Camp Lejeune: Historic Drinking Water, Questions and 
Answers,'' July 2010, available here: https://clnr.hqi.usmc.mil/
clwater/Documents/CLHDW<INF>-</INF>Booklet.pdf

A1. In that regard, I note that the cover letter by Commandant Conway 
says ``the scientific community has not established an association 
between exposure to the contaminated water and health conditions 
reported by former residents of Camp Lejeune,'' and the text of the 
booklet on page eight says ``studies to date have not shown any causal 
link between exposure to contaminated water at Camp Lejeune and 
illnesses,'' and ``At this time, scientific studies have not linked 
exposure to the impacted drinking water at Camp Lejeune to any 
illnesses.'' As I said in my testimony, the Camp Lejeune health studies 
are not complete but there is considerable literature about the health 
effects of these contaminants and adverse health outcomes. For example, 
the Woburn, Massachusetts drinking water contaminated with TCE and PCE 
has been statistically linked to childhood leukemia in two published 
studies. (see Lagakos, et al., 1986 and Costas, et al., 2002) I think 
the Marine Corps booklet should acknowledge these other studies, since 
the ATSDR studies of Camp Lejeune illnesses are not completed yet.
    The booklet also says in the timeline entry for 1982 on p. 7, 
``Base officials determine that sampling results were within 
Environmental Protection Agency (EPA) recommended levels.'' I do not 
have the EPA documentation for 1982 readily available, but from my 
experience in Massachusetts at that time, I know that the Woburn wells 
contaminated with TCE (267 ppb) and PCE (21 ppb) were considered above 
acceptable levels and shut off in 1979. This should be clarified in the 
booklet. I believe another expert who testified at the September 16 
hearing can comment on a statement on p. 4 of the booklet that ``Once 
identified, the impacted wells were promptly taken out of service.'' It 
is my understanding that there was a considerable delay in shutting off 
Well 602, but I would defer to Mr. Hargett on this specific issue.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   Answers to Post-Hearing Questions
Responses by Mr. Michael Hargett, General Director, Anchimeric 
        Associates and Former Co-Owner of Grainger Laboratories

Questions submitted by Chairman Brad Miller

Q1.  Are there any factual inaccuracies or clarifications you would 
recommend the U.S. Marine Corps make to its recently released 
publication: ``Camp Lejeune: Historic Drinking Water, Questions and 
Answers,'' July 2010, available here: https://clnr.hqi.usmc.mil/
clwater/Documents/CLHDW<INF>-</INF>Booklet.pdf

A1. 1) Presentation of ``chemicals'' in the drinking water is somewhat 
naive and reflects a poor understanding of the problem to be addressed 
and common utility communications for water systems.
    In chemistry, a chemical substance is a material with a specific 
chemical composition.
    A common example of a chemical substance is pure water; it has the 
same properties and the same ratio of hydrogen to oxygen whether it is 
isolated from a river or made in a laboratory. Some typical chemical 
substances are diamond, gold, salt (sodium chloride) and sugar 
(sucrose). Generally, chemical substances exist as a solid, liquid, 
gas, or plasma and may change between these phases of matter with 
changes in temperature or pressure. Chemical reactions convert one 
chemical substance into another.
    Chemical substances (also sometimes referred to as a pure 
substance) are often defined as ``any material with a definite chemical 
composition'' in most introductory general chemistry textbooks. 
According to this definition a chemical substance can either be a pure 
chemical element or a pure chemical compound. But, there are exceptions 
to this definition; a pure substance can also be defined as a form of 
matter that has both definite composition and distinct properties. The 
chemical substance index published by CAS also includes several alloys 
of uncertain composition.
    Non-stoichiometric compounds are a special case (in inorganic 
chemistry) that violates the law of constant composition, and for them, 
it is sometimes difficult to draw the line between a mixture and a 
compound, as in the case of palladium hydride. Broader definitions of 
chemicals or chemical substances can be found, for example: ``the term 
'chemical substance' means any organic or inorganic substance of a 
particular molecular identity, including--any combination of such 
substances occurring in whole or in part as a result of a chemical 
reaction or occurring in nature''
    The correct expression would be a reference to contaminants.
    2) The statement that the ``groundwater'' was the source of the 
contaminants is absurd. ALL drinking water at the base is groundwater.
    3) The drinking water at the base was subject to the Safe Drinking 
Water Act (Public Law 93-523) as early as 1981 when primacy for 
enforcement of the act was assumed by the State of North Carolina and 
the grace period provided by EPA and Congress for compliance expired.
    This is why, when informed by regional engineers for the Water 
Supply Branch for the State of North Carolina, Camp LeJeune contracted 
with Grainger Laboratories for water analyses that were consistent with 
certification requirements of the ACt. This is referenced in the 
purchase order from the base to Grainger Laboratories.
    In 1974 Congress enacted the Safe Drinking Water Act (SDWA) (P.L. 
93-523, 88 Stat. 1660) to protect the quality of both actual and 
potential drinking water in the United States. Congress had created the 
SDWA in response to a nationwide survey that revealed health risks from 
inadequate public water-supply facilities, polluted supplies, and 
operating procedures that did not achieve a safe water quality. To 
achieve its goal the SDWA provides water quality standards for 
drinking-water suppliers, protects underground drinking-water sources, 
and directs appropriate deep-well injection of wastes.
    The SDWA requires the U.S. Environmental Protection Agency (EPA) to 
regulate all ``public water systems,'' defined as systems that provide 
piped water for human consumption for at least sixty days a year to at 
least fifteen service connections or twenty-five people. The EPA does 
this through Primary Drinking Water Regulations, by which it first 
identifies contaminants that may pose a risk to human health and that 
occur in drinking water at potentially unsafe levels. Then the EPA 
specifies a Maximum Contaminant Level Goal (MCLG) for each contaminant, 
which is set at the level below which there is no predicted health 
risk. Finally the EPA creates a legally enforceable Maximum Contaminant 
Level (MCL), which is the greatest amount of contaminant that will be 
allowed in the public water supply. This MCL must be set as close as is 
feasible to the MCLG after taking into account the best technology, 
treatment techniques, and costs. Since the 1996 amendments discussed 
below, the EPA may instead require a Treatment Technique for removing 
the contaminant if there is neither an economically or technologically 
feasible MCL, nor an accurate way to measure the contaminant in water.
    4) The contaminated wells were not immediately shutdown as claimed 
by the USMC as evidenced by the continuation of sampling and 
consultations with base personnel for corrective actions.
    5) Public communications (as prescribed in PL 93-523 and detailed 
in EPA advisories and communications at the time) were not initiated 
until 7 years later after additional events had occurred to further 
contaminate the groundwater.
    6) The brochure does not address the high levels of Trihalomethanes 
noted in the drinking water or the corrective actions initiated to 
lower the levels of this carcinogen.
    7) The statement that ``. . . The ability to test for various 
chemicals in drinking water and requirements to conduct such testing 
were evolving through the late 1970s and early 1980s . . .'', is 
misleading and incomplete in fact the contaminants of interest had well 
established analytical methods for drinking water as early as the 1950s 
and were used by US Government agencies for similar evaluation and 
contaminant source identification.
    8) The health effects of chlorinated solvents was well established 
in the 1960s and 1970s and the basis of warning to the base in 1982 and 
1983 was based on known health impacts. The statement referencing the 
absence of regulatory limits in the SDWA at that time is irresponsible 
and without merit.
    9) As indicated in my testimony, the motivation for discussion and 
further corrective actions were based on the hazards associated with 
continuing exposure.
    10) The USMC demonstrated gross negligence under the SDWA in 1983-
1987 in a failure to seek resolution of a clearly defined and 
communicated peril to base occupants and workers.
    My opinion is this document was written by a contractor with poor 
understanding of the SDWA and water utility industry operations. The 
brochure is defensive and lacks objectivity and an honest exchange of 
meaningful communications.
    Please feel free to contact me if there are further questions where 
I can assist.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   Answers to Post-Hearing Questions
Responses by Major General Eugene G. Payne, Jr., Assistant Deputy 
        Commandant for Installations and Logistics (Facilities), 
        Headquarters, United States Marine Corps

Questions submitted by Chairman Brad Miller

Q1.  Please provide the Committee with a list of what specific 
``scientific efforts'' this $22 million has funded, which should 
include the following details:

        a.  A brief description of the specific ``scientific effort'' 
        funded;

        b.  The amount of funding provided;

        c.  When the funding was provided and when the,project was 
        completed or is expected to be completed; and

        d.  The agency, contractor, consultant or individual who 
        received this funding.

        e.  Please include a description of the primary 
        ``deliverables'' the Department of the Navy and or U.S. Marine 
        Corps received as a result of funding the project or 
        ``scientific effort.''

A1a. The scientific efforts include:

        -  Health studies and initiatives conducted by the Agency for 
        Toxic Substances and Disease Registry (ATSDR). These studies 
        and initiatives include:

                i.  A Public Health Assessment (1997).

                ii.  An Adverse Pregnancy Outcomes Study (1998).

                iii.  A National Survey of Children who were born at 
                Camp Lejeune 1968-1985 (2001).

                iv.  A Birth Defects and Childhood Cancer Study 
                (Ongoing).

                v.  Historic Water Modeling Dose Exposure 
                Reconstruction (Ongoing).

                vi.  Community Assistance Panel Meetings (Ongoing).

                vii.  Congressionally Mandated Health Survey (Ongoing).

                viii.  Mortality Study (Ongoing).

                ix.  Cancer Incidence Study (Ongoing).

        -  A review by the National Academies National Research Council 
        (NRC) on the scientific evidence on associations between 
        adverse health effects and historical data on prenatal, 
        childhood, and adult exposures to contaminated drinking water 
        at Camp Lejeune.

A1b. The Department of the Navy (DON) has provided ATSDR approximately 
$21.7 million between Fiscal Year (FY) 1997 and FY2010. The DON 
provided NRC with $0.948 million for their review. In addition, prior 
to the release of the results of NRC's review, DON provided the NRC 
with $0.600 million to do potential follow-on reports. To date, the DON 
has not tasked the NRC to do any follow-on reports.

A1c. ATSDR is the appropriate party to provide these answers. However, 
regarding ATSDR's work, please find enclosed with this response, for 
reference, copies of the Annual Plans of Work negotiated between DON 
and ATSDR for FY 2000-2010. These provide information on ATSDR's 
planned work and the funding provided by FY. Questions regarding ATSDR 
study completion dates should be directed to ATSDR.
    Regarding the NRC review, DON provided $0.850 million in FY07 and 
$0.098 million in FY08. This project is complete. In addition, prior to 
the release of the NRC report in June 2009, DON provided the NRC with 
$0.600 million in FY09 funds for any necessary follow-on reports. To 
date, NRC has not been tasked to do any follow-on reports.

A1d. DoN funding for these efforts were provided directly to ATSDR and 
the NRC. Questions regarding any contractors, consultants or 
individuals that they may have used as part of the studies should be 
directed to these organizations.

A1e. At present, there is one published ATSDR health study concerning 
Camp Lejeune, a 1998 Adverse Pregnancy Outcomes Study that looked at 
birth weights of children born at Camp Lejeune. However, we have been 
advised that ATSDR plans to reevaluate this study. ATSDR also published 
a Public Health Assessment (PHA) in 1997 evaluating the risk to human 
health and the environment from hazardous waste sites but it was later 
withdrawn from ATSDR's website for reevaluation. PHAs are conducted by 
ATSDR for all National Priorities List installations. Questions 
regarding interim reports on ongoing ATSDR health studies should be 
directed to ATSDR.
    The DoN received a report from the NRC in June 2009, ``Contaminated 
Water Supplies at Camp Lejeune, Assessing Potential Health Effects.'' 
In the report, the committee assessed the strength of evidence in 
establishing a link or association between exposure to 
trichloroethylene, tetrachloroethylene, and other contaminants and each 
adverse health effect suspected to be associated with such exposure.

Q2.  Please also provide the Committee with a copy of the U.S. Marine 
Corps booklet, ``Camp Lejeune: Historic Drinking Water, Questions and 
Answers'' July 2010, for insertion into the record.

A2. U. S. Marine Corps' Camp Lejeune Historic Drinking Water booklet 
attached (enclosure 1).\2\
---------------------------------------------------------------------------
    \2\ https://clnr.hqi.usmc.mil/clwater/Documents/
CLHDW<INF>-</INF>Booklet.pdf

Q3.  Are you aware of any interagency review as part of the OMB 
testimony review process? If so, what agencies, that you are aware of, 
---------------------------------------------------------------------------
have reviewed your draft testimony?

A3. As the lead agency for interagency testimony review, OMB is the 
appropriate agency to provide information about what agencies were 
involved in the OMB testimony review process.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


Questions submitted by Representative Paul C. Broun

The question below was originally submitted by Ranking Member Broun to 
Mr. Thomas J. Pamperin, Associate Deputy Under Secretary for Policy and 
Program Management, Veterans Benefit Administration, U.S. Department of 
Veterans Affairs. The VA and Mr. Pamperin deferred the question to the 
Department of Defense with the concurrence of Dr. Broun's staff. The 
response to that question from Major General Payne is listed below.

Q1.  During the time that the water at Camp Lejeune was contaminated, 
it was not only military personnel who were exposed, but civil servants 
and dependents were also potentially exposed.

        c.  In the past 50 years, have there been similar situations in 
        which dependents and civil servants were exposed to the same 
        contamination as military personnel?

A1. The Marine Corps is not aware of similar situations at other 
installations in which Marine Corps dependents, dependents of personnel 
from other services living aboard Marine Corps installations, or 
civilian employees were exposed to environmental contamination at 
levels of potential concern. Under the Comprehensive Environmental 
Response, Compensation, and Liability Act, the Agency for Toxic 
Substances and Disease Registry (ATSDR) conducts public health 
assessments (PHAs) for all sites on the National Priorities List. A 
review of PHAs for Marine Corps installations indicates that ATSDR only 
identified potential public health hazards from environmental 
contaminants at Marine Corps Base (MCB) Camp Lejeune and the former 
Marine Corps Air Station (MCAS) El Toro. The PHA for MCB Camp Lejeune, 
which was removed from ATSDR's website in April 2009 for re-evaluation, 
indicated a past public health hazard related to environmental 
contamination. While the PHA for MCAS El Toro indicated an 
``indeterminate public health hazard'' related to environmental 
contamination due to a lack of data, ATSDR found that identified 
exposures (carbon tetrachloride, chloroform, trichloroethylene, 
perchloroethylene, and nitrates-N) detected in regional groundwater at 
the levels detected ``does not represent a public health hazard'' at 
this time.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   Answers to Post-Hearing Questions
Responses by Dr. Chris Portier, Director, Agency for Toxic Substances 
        and Disease Registry (ATSDR)

Questions submitted by Chairman Brad Miller

Q1.  Are you aware of any interagency review as part of the OMB 
testimony review process? If so, what agencies, that you are aware of, 
have reviewed your draft testimony?

A1. Interagency review is part of the standard procedures for clearance 
of testimony of federal agency witnesses, since such witnesses are 
Administration witnesses. Pursuant to long-standing OMB protocols, 
federal agencies are required to submit draft Congressional testimony 
to OMB. OMB coordinates clearance of the testimony so as to assure 
appropriate consideration of the views of all affected agencies. 
ATSDR's testimony for the Camp Lejeune hearing went through interagency 
clearance, and ATSDR addressed comments received from other agencies. 
Where ATSDR made changes to the testimony after consideration of other 
agencies' comments, the changes were approved by me, as was the final 
testimony.

Q2.  Please describe what steps you intend to take to speed up the pace 
of the five projects ATSDR is currently involved in related to Camp 
Lejeune? Some of these studies were begun years ago, yet according to 
ATSDR, four of those projects won't be completed until the spring of 
2012 and the fifth one will not be completed until September 2013. It 
is important these studies be completed promptly. Please describe any 
steps that ATSDR intends to take to complete these studies in a more 
timely fashion.

    Water modeling is a key component of ATSDR's ongoing studies at 
Camp Lejeune. Because only limited measurements of contaminant 
concentrations are available, ATSDR is using complex modeling 
techniques to reconstruct historical conditions of groundwater flow, 
contaminant fate and transport, and the distribution of contaminated 
drinking water delivered to family housing areas. The modeling requires 
identification, review and organization of vast amounts of historical 
data and other information. Delays in obtaining from DOD data for water 
modeling have delayed completion of the studies that rely on the 
modeling.
    ATSDR has taken several steps, which the Agency intends to 
maintain, in an effort to complete all water-modeling activities more 
rapidly, without compromising accuracy or thoroughness. For example:

        <bullet>  ATSDR has added technical and administrative staff to 
        the water-modeling team:

                  A senior-level hydrogeologist has been brought on 
                board full time, through an interagency agreement with 
                the US Geological Survey; this team member, who resides 
                at ATSDR, conducts data and water-modeling analyses.

                  An ATSDR environmental health scientist with 
                petroleum engineering academic and professional 
                experience has been assigned to the water-modeling 
                effort 60 percent of the time to assist with 
                geohydrologic analyses and characterizations.

                  A fulltime employee has been brought on board 
                through the Senior Environmental Employment Program to 
                further assist with data and information analyses.

                  An administrative assistant has been assigned for 
                water-modeling project use, 50 percent time, to assist 
                with administrative tasks such as Quality Assessment/
                Quality Control review of reports and data, and other 
                project administrative tasks.

        <bullet>  To promptly complete all data discovery activities:

                  ATSDR assigned additional staff to represent ATSDR 
                on the ATSDR/DON/USMC data mining and discovery 
                technical work group.

                  An ATSDR staff was assigned as a liaison to Camp 
                Lejeune for this activity.

        <bullet>  Computational capacity continues to be enhanced 
        through the purchase during FY 2010 of ten 64-bit, high-end 
        scientific workstations, to enable simultaneous simulation runs 
        of groundwater flow, fate, and transport.

    The above measures are increasing the pace of water modeling of 
Hadnot Point and Holcomb Boulevard, and in turn will expedite 
completion of (1) the re-analysis of the pregnancy outcome study (also 
known as the small for gestational age, or SGA, study), (2) the case-
control study of neural tube defects, oral clefts, and childhood 
hematopoietic cancers, and (3) the mortality study. ATSDR will use the 
results from this modeling to conduct the analyses for these studies.
    Also to complete these studies as quickly as possible, ATSDR plans 
to do virtually all of the analyses with the preliminary results from 
the water modeling, plugging in the final results of the water modeling 
when they become available.
    As for the health survey, the contract was awarded in September, 
2010, and work began in October, 2010. The first wave of health surveys 
will be sent out in the late winter and early spring of next year. The 
additional mailings to encourage participation will take approximately 
6 months, i.e., until near the end of the summer. Analyzing the surveys 
and determining whether to go forward with the morbidity study (i.e., 
confirmation of participant-reported cancers and other diseases of 
interest) will take approximately an additional 2 to 3 months. The 
health survey part of the project is expected to be completed by the 
end of November 2011. An expert panel will be convened to review the 
results from the initial phase and to make recommendations as to 
whether to go forward. If ATSDR does go forward, then confirmation of 
reported diseases, data analyses and report writing will take at least 
another 18 months. We anticipate that the currently planned projects 
associated with Camp Lejeune will be completed by summer of 2013.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                   Answers to Post-Hearing Questions
Responses by Mr. Thomas J. Pamperin, Associate Deputy Under Secretary 
        for Policy and Program Management, Veterans Benefits 
        Administration, U.S. Department of Veterans Affairs

Questions submitted by Chairman Brad Miller

Q1.  Are you aware of any interagency review as part of the OMB 
testimony review process? If so, what agencies, that you are aware of, 
have reviewed your testimony?

A1. OMB Circular A-19, ``Legislative Coordination and Clearance,'' 
outlines the process by which all Executive Branch agencies provide 
testimony to and receive clearance from OMB as part of submitting 
reports, including testimony, to Congress. Section 8 outlines the 
interagency coordination process. As part of this hearing, we are aware 
of our testimony being coordinated with the Departments of Defense and 
Health and Human Services.

Q2.  Your testimony regarding the number of Camp Lejeune veterans 
compensated by VA due to their exposures to toxic chemicals in the 
drinking water supply was at odds with numbers provided to Subcommittee 
staff prior to the hearing. Please provide the Subcommittee with an 
accurate list of the number of Camp Lejeune veterans that the VA has 
compensated due to toxic chemical exposures at the base, when their 
claims were granted, and the proportion of the claim granted, i.e. 100-
percent, 30-percent, etc.

A2. Provided below is a table reflecting the results of VA's initial 
data search of those Camp Lejeune Veterans compensated between 1997 and 
2010. VA is still reviewing its records, and will update the Committee 
should any substantial new findings occur as a result of this ongoing 
review.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Q3.  In addition, in your testimony you indicated that you did not know 
when the VA's Camp Lejeune Task Force would complete its work and 
submit its report to the Secretary of Veterans Affairs. However, prior 
to your testimony the Subcommittee staff was led to believe that the 
task force's work had already been completed and that it had already 
delivered its report to the Secretary. Please provide a clear response 
indicating the status of the task force's work, whether the task force 
has completed its report and recommendations to the VA Secretary and if 
so when this work was completed. If the task force has not yet 
completed its work, please indicate when the task force intends to 
complete its work and deliver its report to the Secretary if it has not 
done so already.

A3. Task Force recently acquired additional and significant information 
from CDC's Agency for Toxic Substances and Disease Registry (ATSDR). 
Based on this new information, the Task Force is re-evaluating its 
recommendations to the Secretary. We anticipate that the Task Force 
report will be finalized and presented to the Secretary by the end of 
January, 2011.

Q4.  At the hearing you stated that: ``Establishing presumptive 
diseases [tied to exposures at Camp Lejeune] at this point would be 
premature.'' Was this assertion based upon recommendations by the VA's 
Camp Lejeune Task Force? What data does the VA believe it requires in 
order to establish ``presumptive'' health claims tied to Camp Lejeune?

A4. VA's Task Force is currently re-evaluating its recommendations in 
light of recent information from ATSDR. This new information from 
ATSDR, as well as the June 2009 National Research Council report and 
other scientific information will serve as the basis for 
recommendations regarding data needs and presumptive service 
connections related to service at Camp Lejeune.

Q5.  In your written testimony you wrote: ``For those cases that have 
been denied, claims have normally been--not been granted because of one 
or [sic] three criteria: the veteran did not serve at Lejeune during 
the period of the contamination, the current disease, or disability and 
the medical nexus between the current disease was not established.'' 
Your statement appears to only indicate two criteria. Please indicate 
the third criteria upon which most Camp Lejeune denials have been 
based.

A5. Service connection for a disability related to service at Camp 
Lejeune requires that all three of the following criteria are met: (1) 
evidence that the Veteran served at Camp Lejeune during the period of 
water contamination, (2) evidence of a current chronic disease or 
disability, and (3) evidence providing a nexus or causal link between 
the current disability and the service at Camp Lejeune. Evidence of 
causation would likely come from a qualified medical professional who 
provides a rational scientific basis for establishing the nexus. 
However, such a nexus may be difficult to establish because there are 
unresolved issues related to the amount and duration of potential toxic 
exposure among the exposed Camp Lejeune Veteran population, as well as 
a lack of scientific certainty on what diseases may be associated with 
the drinking water contaminants.

Questions submitted by Representative Paul C. Broun


Q1.  During the time that the water at Camp Lejeune was contaminated, 
it was not only military personnel who were exposed, but civil servants 
and dependents were also potentially exposed.

        a.  What are the current rules regarding benefits or resources 
        provided to dependents of military personnel exhibiting 
        illnesses that may be attributable to their time living on the 
        base during the exposure period?

A1a. Congress authorizes VA to provide benefits, including compensation 
for disabilities resulting from service, to Veterans. Congress has not 
authorized disability compensation for family members and dependents of 
Veterans who develop disabilities related to living with the Veteran 
during the period of military service. This includes family members and 
dependents of Veterans who lived at Camp Lejeune.

        b.  Are they eligible to receive benefits under current law?

A1b. Surviving dependents of deceased Veterans who served at Camp 
Lejeune may be eligible to receive monthly payments for dependency and 
indemnity compensation if the Veteran's service-connected disability 
was a primary or secondary cause of death or if the Veteran's 
disability was rated at 100 percent disabling for 10 consecutive years 
immediately before the Veteran's death or for 5 consecutive years 
following separation from service.

Q2.  The original claims of Mr. Watters and Mr. Deveraux were rejected 
by low level claims adjusters at the VA. Since those initial 
rejections, the claims have been determined to be valid, since both men 
testified that they have been granted 100% disability, but only after 
having presented their cases and substantial information to upper level 
management in the VA.

        a.  On what basis were these claims initially denied?

A2. Service connection for a disability related to service at Camp 
Lejeune requires: (1) evidence that the Veteran served at Camp Lejeune 
during the period of water contamination, (2) evidence of a current 
chronic disease or disability, and (3) evidence providing a nexus or 
link between the current disability and the service at Camp Lejeune. 
Regional Office personnel understand these requirements and adjudicate 
cases based on these criteria.
    In the case of Mr. Devereaux's breast cancer, there was 
insufficient evidence of a nexus or causal link between the breast 
cancer and the service at Camp Lejeune presented with the initial 
claim. In the case of Mr. Watters, there was insufficient initial 
evidence of a medical association between exposure to contaminated 
water at Camp Lejeune and his renal cancer.

Q3.  When asked about protocols in place at the VA to ensure that lower 
level VA personnel are properly informed and are not denying claims as 
a matter of course, you testified that in 2009, a training letter was 
dispatched to all claims handlers.

        a.  Do you feel that a letter is a sufficient amount of 
        training required to make fair determinations regarding claims 
        of exposure from Camp Lejeune?

A3a. Regional Office (RO) personnel were alerted to the Camp Lejeune 
situation during a nationwide broadcast in June 2009, when they were 
asked to adjudicate these claims based on the evidence available in 
each individual case. A training letter followed on April 26, 2010, 
which outlined details of developing evidence and ordering medical 
examinations for Camp Lejeune-related claims.
    In an effort to ensure consistency in the adjudication of these 
claims and establish a statistical database of information, VBA will 
consolidate Camp Lejeune-related claims to the Louisville Regional 
Office. Policies and procedures for implementing this decision, 
including training of claims personnel, are scheduled to be completed 
by January 2011. These efforts will ensure that disability claims based 
on service at Camp Lejeune receive fair and consistent evaluations and 
determinations.

        b.  Have there been instances since the training letter went 
        out in which veterans were initially denied their claims, but 
        after gathering significantly more evidence and presenting to 
        upper level personnel, were granted 100% benefits similar to 
        the situations described by Mr. Watters and Mr. Devereaux?

A3b. VA does not track initial service connection denials for claims 
based on service at Camp Lejeune that are later re-adjudicated and 
granted. Therefore, we are unable to determine at this time if a 
subsequent rating decision grants 100 percent disability or any other 
disability rating percentage. A denied claim may be subsequently 
granted upon appellate review or by the submission of new evidence 
sufficient to warrant service connection.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

 U.S. Department of the Navy U.S. Marine Corps Camp Lejeune Documents 
                             for the Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Supporting Reference Documents to Accompany Written Testimony of Mr. 
                            Michael Partain
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
